APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-4106
DEMETREUS A. KEAHEY,
Petitioner - Appellant,
v.
DAVE MARQUIS, Warden,

FILED
Oct 20, 2020
DEBORAH S.
HUNT, Clerk

Respondent - Appellee.
Before: SILER, SUTTON, and LARSEN,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
for the Northern District of Ohio at Toledo.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the district court’s denial of Demetreus Keahey’s
petition for a writ of habeas corpus is AFFIRMED.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

2a

APPENDIX B
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0335p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
___________________
DEMETREUS A. KEAHEY,
Petitioner-Appellant,
v.

No. 18-4106

DAVE MARQUIS, Warden,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Ohio at Toledo.
No. 3:16-cv-01131—John R. Adams, District Judge.
Argued: October 7, 2020
Decided and Filed: October 20, 2020
Before: SILER, SUTTON, and LARSEN,
Circuit Judges.
___________________
COUNSEL
ARGUED: Autumn Hamit Patterson, JONES DAY,
Dallas, Texas, for Appellant. Mary Anne Reese,

3a
OFFICE OF THE OHIO ATTORNEY GENERAL,
Cincinnati, Ohio, for Appellee.
ON BRIEF: Autumn Hamit Patterson, JONES DAY,
Dallas, Texas, Charlotte H. Taylor, JONES DAY,
Washington, D.C., for Appellant. Mary Anne Reese,
OFFICE OF THE OHIO ATTORNEY GENERAL,
Cincinnati, Ohio, for Appellee.
___________________
OPINION
___________________
SUTTON, Circuit Judge.
Demetreus Keahey
requested a self-defense instruction during his state
criminal trial for shooting Prince Hampton. The trial
court rejected the request, and a jury convicted
Keahey of attempted murder among other charges.
He filed this habeas petition, pressing the argument
that the denial of the instruction violated his Sixth
and Fourteenth Amendment rights. The district court
denied the petition. We affirm because the state trial
court’s decision was not contrary to, and did not
unreasonably apply, Supreme Court precedent.
I.
Keahey and Kindra McGill lived together with their
daughter. Also living with them were two boys, the
product of McGill’s prior relationship with Prince
Hampton.
One day, Hampton came to the house and became
enraged because his boys were spending so much time
with Keahey. He pulled out a knife, charged Keahey,
and stabbed him in the back. Fearing retribution,
Keahey never identified Hampton as his assailant.
Neither did McGill.

4a
Soon after the stabbing, McGill took the kids and
moved in with her mother, Joyce. Keahey moved in
with his sister. Keahey and McGill exchanged text
messages, in which they discussed McGill’s reluctance
to name Hampton as the attacker and Keahey’s desire
to retaliate. Despite a criminal history that prohibited
firearm possession, Keahey got a gun.
Weeks later, Keahey and McGill planned to meet at
the doctor’s office for their daughter’s appointment.
Without informing anyone, Keahey decided to pick up
McGill and their daughter himself. Keahey showed up
early that morning, parked on the street, and waited
out front. Hampton arrived to drop his boys off before
the doctor’s visit, and pulled into the driveway with
the kids in the car. The prosecution and Keahey paint
different pictures of what ensued.
The prosecution points to evidence showing that
Keahey arrived thirsting for a fight. He ignored the
plan to meet at the doctor’s office and showed up early
and unannounced at Joyce’s home that morning.
Joyce testified that Keahey took aim and fired at an
unarmed Hampton when he helped the kids exit the
car, then chased a fleeing Hampton down the
sidewalk. One officer testified that Keahey gave up an
opportunity to return safely to his vehicle when he
decided to chase after a fleeing Hampton. While an
officer found a knife on the scene, it was locked and
closed, suggesting no one threatened Keahey with it.
The police officer who canvassed the neighborhood
discovered a bullet hole in Hampton’s vehicle, another
in a neighbor’s living room, and shell casings scattered
in the area. A neighbor observed two men running and
one raising his arm as if to shoot, then heard a shot.

5a
On the other side was Keahey’s testimony that he
shot Hampton in self-defense. Keahey testified that,
while waiting out front for McGill and their daughter,
Hampton arrived. He says Hampton jumped out of the
car and charged at him with a knife. In response,
Keahey fired back.
Hampton bolted.
Keahey
scrambled. But before reaching his car, Keahey heard
a gunshot and turned to see Hampton, gun in hand,
coming down the driveway. To prevent Hampton
“from getting a good shot off,” Keahey fired more
rounds. R.7-7 at 119. A neighborhood gun fight
followed. After shooting Hampton twice, Keahey got
in his car and sped off. Had he not shot Hampton,
Keahey claimed, he would have “been dead.” R.7-7 at
86.
Keahey sought a self-defense instruction,
unsuccessfully. Even viewing the evidence in the
defendant’s favor, the Ohio trial judge reasoned,
Keahey failed to present sufficient evidence to warrant
the instruction.
On direct appeal, Keahey argued that the trial
court’s refusal to instruct the jury on self-defense
violated state law and his Sixth Amendment and
Fourteenth Amendment rights. The Ohio Court of
Appeals rejected each of the arguments, once more for
lack of evidence to support the instruction. State v.
Keahey, 2014-Ohio-4729, 2014 WL 5421028, at *10
(Ohio Ct. App. Oct. 24, 2014).
Keahey sought
collateral relief in state court. That failed too.
Keahey filed a § 2254 habeas petition, claiming the
state court violated his Sixth and Fourteenth
Amendment rights by refusing to instruct the jury on
self-defense. The district court rejected the claim.

6a
This court granted a certificate of appealability to
review the claim.
II.
The Antiterrorism and Effective Death Penalty Act
applies to the state court’s decision that the Sixth and
Fourteenth Amendments did not require it to give a
self-defense instruction. See 28 U.S.C. § 2254(d). To
prevail, Keahey must show that the state court’s
decision “was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States.” Id. § 2254(d)(1); see Harrington v. Richter,
562 U.S. 86, 100 (2011).
Contrary to federal law. Keahey has picked a
difficult hill to climb in claiming the jury instruction
ruling was “contrary to federal law.” It makes no
difference whether the jury instruction misread state
law because federal habeas applies only to convictions
that offend “the Constitution, laws, or treaties of the
United States.” Estelle v. McGuire, 502 U.S. 62, 68,
71–72 (1991). That means he must show that the trial
judge not only misread state law but also misread it so
badly that it violated the Sixth and Fourteenth
Amendments. That’s not easy because “instructional
errors of state law generally may not form the basis for
federal habeas relief.” Gilmore v. Taylor, 508 U.S. 333,
344 (1993). Even after that, he must show that such a
botched interpretation violated clearly established
United States Supreme Court decisions. And even
then, he still must show that the mistake violated
concrete Supreme Court holdings, Marshall v.
Rodgers, 569 U.S. 58, 61 (2013), not generalized
principles, Woods v. Donald, 575 U.S. 312, 318 (2015).

7a
Keahey claims that two lines of cases help him. But
neither one contains a holding on point that the state
appellate court violated.
Start with Crane v.
Kentucky, 476 U.S. 683 (1986). It ruled that “the
Constitution guarantees criminal defendants a
meaningful opportunity to present a complete
defense,” whether that right is “rooted directly in the
Due
Process
Clause
of
the
Fourteenth
Amendment, . . . or in the Compulsory Process or
Confrontation clauses of the Sixth Amendment.” Id.
at 690 (quotation omitted). Defendants have used the
principle to raise claims based on inconsistent jury
instructions, see Stevenson v. United States, 162 U.S.
313 (1896), a capital defendant’s right to a lesser
included offense instruction, see Beck v. Alabama, 447
U.S. 625 (1980), the exclusion of evidence, see Holmes
v. South Carolina, 547 U.S. 319 (2006), access to
evidence, see California v. Trombetta, 467 U.S. 479
(1984), and the testimony of defense witnesses, see
Webb v. Texas, 409 U.S. 95 (1972). But the Court has
never invoked this principle to “squarely establish[]” a
federal right to a self-defense instruction. Knowles v.
Mirzayance, 556 U.S. 111, 122 (2009).
Move to Cupp v. Naughten, 414 U.S. 141, 147 (1973).
It establishes a narrow category of state juryinstruction mistakes that violate the clearly
established right to “fundamental fairness.” Dowling
v. United States, 493 U.S. 342, 352 (1990) (quotation
omitted); Frey v. Leapley, 931 F.2d 1253, 1255 (8th Cir.
1991); Armstrong v. Bertrand, 336 F.3d 620, 626 (7th
Cir. 2003). To fit the theory, the state court’s refusal
to give the instruction must have “so infected the
entire trial that the resulting conviction violates due
process.” Cupp, 414 U.S. at 147. But the Supreme

8a
Court, regrettably for Keahey, has never invoked this
principle in granting relief for the failure to give a selfdefense instruction.
In the face of these precedents, Keahey has not
shown that the state appellate court’s decision was
“contrary to” clearly established Supreme Court
precedent. It neither “appl[ied] a rule that contradicts
the governing law set forth in [Supreme Court] cases”
nor arrived at a different conclusion after
“confront[ing] a set of facts that are materially
indistinguishable from a decision of [the Supreme]
Court.”
Early v. Packer, 537 U.S. 3, 8 (2002)
(quotation omitted).
Unreasonable application of federal law. Keahey
does not do any better under the “unreasonable
application” prong of AEDPA. That, too, is “difficult to
meet.” Greene v. Fisher, 565 U.S. 34, 38 (2011)
(quotation omitted). A “federal habeas court may not
[grant relief] simply because [it] concludes in its
independent judgment that the relevant state-court
decision applied clearly established federal law
erroneously.” Williams v. Taylor, 529 U.S. 362, 411
(2000).
In “assessing whether a state court’s
application of federal law is unreasonable, the range
of reasonable judgment can depend in part on the
nature of the relevant rule that the state court must
apply.” Renico v. Lett, 559 U.S. 766, 776 (2010)
(quotation omitted). Both of the relevant standards in
this instance—that a criminal defendant is
guaranteed the opportunity to present a defense and
that the trial must comport with fundamental
fairness—lack “specificity.” Harrington, 562 U.S. at
101. That left the state courts with considerable
“leeway” when deciding whether to submit the charge

9a
to the jury. Yarborough v. Alvarado, 541 U.S. 652, 664
(2004).
Gauged by these modest requirements, the Ohio
court of appeals’ decision passes.
It did not
unreasonably apply either of the two relevant
Supreme Court holdings in declining to instruct on
self-defense.
To our knowledge, the Court has
discussed the denial of a state self-defense instruction
in the context of constitutional rights only once—as a
hypothetical possibility and in a dissent no less.
Gilmore, 508 U.S. at 359 (Blackmun, J., dissenting).
The Gilmore majority rejected the argument that “the
right to present a defense includes the right to have
the jury consider it” because “such an expansive
reading of our cases would make a nullity of the
rule . . . that instructional errors of state law generally
may not form the basis for federal habeas relief.” Id.
at 344; White v. Woodall, 572 U.S. 415, 427 (2014).
Because the Supreme Court has never clearly
established Keahey’s alleged constitutional right to a
self-defense instruction and because the state court
did not unreasonably apply the most relevant
Supreme Court holdings, he has no basis for habeas
relief under § 2254(d)(1). In rejecting a similar claim,
the Seventh Circuit put it this way: Declining to grant
a request to “present a state-created, not federally
required, defense is, as a first approximation anyway,
at worst merely to make an error of state law; and if
there is one fixed star in the confusing jurisprudence
of constitutional criminal procedure, it is that a
violation of state law does not violate the
Constitution.” Eaglin v. Welborn, 57 F.3d 496, 501
(7th Cir. 1995) (en banc); see also Engle v. Isaac, 456
U.S. 107, 120–21 (1982); Nickerson v. Lee, 971 F.2d

10a
1125, 1137–38 (4th Cir. 1992). And as our court has
put it in the evidentiary context:
A “habeas
petitioner’s challenge to an ‘evidentiary ruling’ cannot
satisfy § 2254(d)(1) unless the petitioner identifies ‘a
Supreme Court case establishing a due process right
with regard to [the] specific kind of evidence’ at issue.”
Stewart v. Winn, 967 F.3d 534, 538 (6th Cir. 2020)
(quotation omitted).
By what measure anyway would federal courts
gauge whether the state criminal defendant
introduced enough evidence to have a federal right to
a self-defense instruction? Would it be a “mere
scintilla” of evidence supporting the defendant’s
theory? See United States v. Morton, 999 F.2d 435, 437
(9th Cir. 1993) (quotation omitted).
Adequate
evidence to raise a factual question for a reasonable
jury? See United States v. Branch, 91 F.3d 699, 712
(5th Cir. 1996). Would “some evidence” do the trick?
See United States v. Scout, 112 F.3d 955, 960 (8th Cir.
1997).
No clearly established Supreme Court
precedent gives an answer, confirming that the state
courts did not unreasonably apply the relevant
precedent.
Keahey offers several arguments in response, each
unpersuasive. He starts with a precedent of our own,
Taylor v. Withrow, which said that federal law
guarantees a criminal defendant the right to a selfdefense jury instruction “when the instruction has
been requested” and “there exists evidence sufficient
for a reasonable jury to find in his favor.” 288 F.3d
846, 851–53 (6th Cir. 2002) (quotation omitted). But
as it happens, the habeas claimant did not obtain relief
in the case, making this language unnecessary to the
decision. See Freeman v. Wainwright, 959 F.3d 226,

11a
230 (6th Cir. 2020). Our court has treated Taylor’s
language as non-binding dicta over, Newton v. Million,
349 F.3d 873, 879 (6th Cir. 2003), and over, Phillips v.
Million, 374 F.3d 395, 397–98 (6th Cir. 2004). No
doubt some unpublished opinions treated Taylor’s
language as a holding, even as they denied habeas
relief. See Horton v. Warden, Trumbull Corr. Inst.,
498 F. App’x 515, 522 n.2 (6th Cir. 2012); Neal v.
Booker, 497 F. App’x 445, 451 (6th Cir. 2012). But the
paper of unpublished decisions cannot escape the
scissors of published decisions on point.
Making matters more difficult for Keahey, the
Supreme Court has been more explicit in its
interpretation of “clearly established Federal law”
since Taylor. Woods, 575 U.S. at 317–18; Lopez v.
Smith, 574 U.S. 1, 5–7 (2014). What Taylor said then
could not satisfy AEDPA today. It noted that “[t]here
is no Supreme Court decision unmistakably setting
down th[e] precise rule” over what to do with a denied
self-defense instruction under state law. Taylor, 288
F.3d at 852. A point of law on which “no Supreme
Court decision” exists is not the kind of claim that the
Court welcomes today. “[T]he Sixth Circuit’s reliance
on its own precedents [cannot] be defended . . . on the
ground that they merely reflect what has been clearly
established by our cases.” Parker v. Matthews, 567
U.S. 37, 49 (2012) (quotation omitted).
Reliance on sister circuit decisions meets a similar
fate. See Lannert v. Jones, 321 F.3d 747, 754 (8th Cir.
2003); Bradley v. Duncan, 315 F.3d 1091, 1098 (9th
Cir. 2002); Hagenno v. Yarborough, 253 F. App’x 702,
704 (9th Cir. 2007). For “it is not an unreasonable
application of clearly established Federal law for a
state court to decline to apply a specific legal rule that

12a
has not been squarely established by th[e] [Supreme]
Court.” Knowles, 556 U.S. at 122 (quotation omitted).
Circuit precedent cannot “constitute clearly
established Federal law, as determined by the
Supreme Court.” Glebe v. Frost, 574 U.S. 21, 24 (2014)
(quotation omitted); Smith v. Cook, 956 F.3d 377, 391
(6th Cir. 2020).
Mathews v. United States, 485 U.S. 58 (1988),
doesn’t advance Keahey’s cause either. While it says
that “a defendant is entitled to an instruction as to any
recognized defense for which there exists evidence
sufficient for a reasonable jury to find in his favor,” id.
at 63, Keahey overlooks the reality that Mathews is
not a constitutional case, id. at 66. The Court directly
reviewed a district court’s interpretation of federal
common law, holding that a federal defendant “is
entitled to an entrapment instruction whenever there
is sufficient evidence from which a reasonable jury
could find entrapment.” Id. at 62. That is a world of
difference from a habeas challenge to a state court
decision. The Court has never applied Mathews to any
defense besides an entrapment defense, see Hardy v.
Maloney, 909 F.3d 494, 500 (1st Cir. 2018), and it has
never invoked the decision to overrule a state court
ruling on habeas.
Last and least, Keahey contends that we are bound
under the law-of-the-case doctrine by the certificate of
appealability, which said that Taylor’s conclusion is a
holding. As a general principle, the law-of-the-case
doctrine precludes reconsideration of issues that were
expressly or impliedly decided at an earlier stage of
the same case by the same or a superior court. See
Arizona v. California, 460 U.S. 605, 618 (1983); United
States v. Moored, 38 F.3d 1419, 1421–22 (6th Cir.

13a
1994); Bryan A. Garner et al., The Law of Judicial
Precedent 441 (2016). Application of the law-of-thecase doctrine has been historically limited to fully
briefed “questions necessarily decided” in an earlier
appeal, Burley v. Gagacki, 834 F.3d 606, 618 (6th Cir.
2016) (quotation omitted), and has traditionally been
used to “enforce a district court’s adherence to an
appellate court’s judgment,” Miller v. Maddox, 866
F.3d 386, 390 (6th Cir. 2017). It does not apply to a
certificate of appealability, which screens out claims
“unworthy of judicial time and attention,” ensures
“that frivolous claims are not assigned to merits
panels,” and identifies only questions that warrant the
resources deployed for full-briefing and argument.
Gonzalez v. Thaler, 565 U.S. 134, 145 (2012). In
keeping with this duty, the issuing judge does not
make binding legal determinations. Rule 27(c) of the
Federal Rules of Appellate Procedure doesn’t allow for
that. It provides that “[a] circuit judge . . . may not
dismiss or otherwise determine an appeal or other
proceeding,” and “[t]he court may review the action of
a single judge.” Fed. R. App. P. 27(c). Any other
approach would mean that “the single judge would be
vested with a power that Rule 27(c) expressly
prohibits.” McCoy v. Michigan, 369 F. App’x 646, 653
n.3 (6th Cir. 2010).
We affirm.

14a

APPENDIX C
No. 18-4106
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DEMETREUS A. KEAHEY,

)
Petitioner-Appellant, )
)
v.
)
DAVE MARQUIS, Warden, )
Respondent-Appellee. )

FILED
Oct 11, 2019
DEBORAH S.
HUNT, Clerk
ORDER

Demetreus A. Keahey, an Ohio prisoner proceeding
pro se, appeals the district court’s judgment
dismissing his 28 U.S.C. § 2254 petition for a writ of
habeas corpus. This court construes his notice of
appeal as an application for a certificate of
appealability (“COA”). See Fed. R. App. P. 22(b)(2).
Keahey has also filed a motion for leave to proceed in
forma pauperis (“IFP”) on appeal. See Fed. R. App. P.
24(a)(5).
In 2011, Prince Hampton, the former boyfriend of
Keahey’s daughter’s mother, stabbed Keahey in the
back and collapsed his lung. Weeks later, Keahey shot
Prince outside the home of Keahey’s daughter’s
grandmother. Prince did not testify at Keahey’s trial.
For his part, Keahey testified that he fired at Prince
“[w]hen Prince hopped out of the car ‘with a knife’” and

15a
that he fired additional rounds when “he saw Prince
holding a gun.” State v. Keahey, No. E-13-009, 2014
WL 5421028, at *7, ¶ 35 (Ohio Ct. App. Oct. 24, 2014).
But Keahey’s requests for jury instructions on selfdefense and necessity were denied. The jury convicted
Keahey of felonious assault, attempted murder,
having a weapon while under a disability, and
improperly discharging a firearm at or into a
habitation or school safety zone. The trial court
sentenced Keahey to twenty-three years of
imprisonment. The Ohio Court of Appeals affirmed,
id. at *13, ¶ 67, and the Ohio Supreme Court denied
leave to appeal. The United States Supreme Court
denied certiorari.
Meanwhile, Keahey filed a motion to reopen his
direct appeal. The Ohio Court of Appeals denied the
motion to reopen, State v. Keahey, No. E-13-009 (Ohio
Ct. App. Feb. 17, 2015), and the Ohio Supreme Court
denied leave to appeal. Keahey also filed a petition for
state post-conviction relief, which the trial court
denied. The Ohio Court of Appeals affirmed, State v.
Keahey, No. E-13-055, 2014 WL 5794329 (Ohio Ct.
App. Nov. 7, 2014), and the Ohio Supreme Court
denied leave to appeal.
Keahey then filed this § 2254 petition, raising seven
grounds for relief. After the warden filed a response
and Keahey filed a reply, the magistrate judge entered
a report recommending that Keahey’s petition be
dismissed on the merits. The district court adopted
the report and recommendation over Keahey’s
objections, dismissed his petition, and declined to
issue a COA.

16a
A COA may issue only if a petitioner makes “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies
this standard by demonstrating that jurists of reason
could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the
issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Grounds 1 & 2. Keahey argues that the trial court
erred in denying his requests for jury instructions on
self-defense (Ground 1) and necessity (Ground 2). In
Taylor v. Withrow, 288 F.3d 846 (6th Cir. 2002), this
court held that clearly established federal law
guarantees a criminal defendant the right to a selfdefense jury instruction “when the instruction has
been requested and there is sufficient evidence to
support such a charge.” Id. at 851–53. In rejecting
Keahey’s first and second grounds, the district court
stated that Taylor was incorrectly decided.
Reasonable jurists could disagree. The district court
noted, in the alternative, that habeas relief was
precluded on Keahey’s first ground because
“fairminded jurists could disagree on the state court’s
adjudication” (citing Harrington v. Richter, 562 U.S.
86, 101 (2011)). The district court explained: “Given
the state court record, jurists could reasonably
conclude that Keahey had ample opportunity to
retreat and was therefore not entitled to a self-defense
jury instruction.” See Keahey, 2014 WL 5421028, at
*10, ¶ 46 (explaining that, to prevail on a theory of
self-defense, a defendant, among other things, “must
not have violated any duty to retreat or avoid the
danger” (quoting State v. Robbins, 388 N.E.2d 755, 758

17a
(Ohio 1979))). But the relevant inquiry under Taylor
is whether “there exists evidence sufficient for a
reasonable jury to find in his favor,” 288 F.3d at 853
(emphasis altered), and it would exceed the scope of
the COA inquiry for this court to apply that standard
in the first instance here. Keahey’s first ground
therefore deserves encouragement to proceed further.
As to Keahey’s second ground, however, the Ohio
Court of Appeals explained that Keahey “testified at
trial that he was forced to carry a gun because he was
afraid of Prince.” Keahey, 2014 WL 5421028, at *11,
¶ 56. The state appellate court concluded that Keahey
was not eligible for a necessity instruction under Ohio
law because “the defense of necessity requires
pressure from physical forces, as opposed to the
defense of duress, which involves a human threat.” Id.
A state court’s interpretation of state law is binding on
federal habeas review. Bradshaw v. Richey, 546 U.S.
74, 76 (2005) (per curiam). Keahey’s second ground
therefore does not deserve encouragement to proceed
further.
Keahey’s remaining grounds allege that he received
ineffective assistance of trial or appellate counsel. To
prevail on an ineffective-assistance claim, a petitioner
must establish that counsel’s performance was
deficient and that he suffered prejudice as a result.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
To establish deficient performance, a petitioner “must
show that ‘counsel’s representation fell below an
objective standard of reasonableness.’” Richter, 562
U.S. at 104 (quoting Strickland, 466 U.S. at 688).
“‘Judicial scrutiny of counsel’s performance must be
highly deferential,’ and should be guided by a measure
of ‘reasonableness under prevailing professional

18a
norms.’” Sylvester v. United States, 868 F.3d 503, 510
(6th Cir. 2017) (quoting Strickland, 466 U.S. at 688–
89). To demonstrate prejudice, a petitioner “must
show that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at
694. In the appellate context, “[o]nly when ignored
issues are clearly stronger than those presented, will
the presumption of effective assistance of counsel be
overcome.” Sylvester, 868 F.3d at 510 (quoting Monzo
v. Edwards, 281 F.3d 568, 579 (6th Cir. 2002)).
Ground 3. Keahey argues that appellate counsel
was ineffective for failing to argue that the trial court
should have merged at sentencing his convictions for
attempted murder and improperly discharging a
firearm. In rejecting this claim, the Ohio Court of
Appeals reasoned as follows:
It is undisputed that one of the bullets that
appellant fired at the victim, Prince Hampton,
also entered the nearby home of Brunell
Hendrickson. Accordingly, because there were
two separate victims in this case, there was a
separate animus to support each offense, and they
need not be merged at sentencing. Appellant’s
argument that his appellate counsel was
ineffective for failing to raise this issue on appeal
is, therefore, meritless.
State v. Keahey, No. E-13-009, slip op. at 8 (Ohio Ct.
App. Feb. 17, 2015).
Again, a state court’s
interpretation of state law is binding on federal habeas
review. See Richey, 546 U.S. at 76. Under these

19a
circumstances, reasonable jurists could not debate the
district court’s determination that Keahey “failed to
establish that the state court decision involved an
unreasonable application of clearly established federal
law.”
Ground 4. Keahey argues that appellate counsel
was ineffective for failing to argue that he was denied
the right to be present at critical stages of his trial. A
criminal defendant is “guaranteed the right to be
present at any stage of the criminal proceeding that is
critical to its outcome if his presence would contribute
to the fairness of the procedure.” Kentucky v. Stincer,
482 U.S. 730, 745 (1987). But this privilege is not
guaranteed “when presence would be useless or the
benefit but a shadow.” United States v. Gallagher, 57
F. App’x 622, 626 (6th Cir. 2003) (per curiam) (quoting
Snyder v. Massachusetts, 291 U.S. 97, 106–07 (1934),
overruled in part on other grounds by Malloy v. Hogan,
378 U.S. 1, 17 (1964)).
Keahey points to his absence from: (i) a proceeding
relating to the dismissal of a juror based on her
communications with the bailiff; (ii) a jury view of the
crime scene; (iii) proceedings relating to jury
instructions and a motion to suppress evidence; and
(iv) proceedings relating to notes to the trial court from
the jury during deliberations. As to Keahey’s first
subclaim, the Ohio Court of Appeals found that the
juror and the bailiff “[b]oth . . . stated that they were
acquainted because their children played sports
together. The bailiff also indicated that he made
favorable comments to [the juror] about the integrity
of the trial judge.” Keahey, No. E-13-009, slip op. at 9.
The state appellate court further found:

20a
After interviewing the bailiff and [the juror],
the trial court and counsel for [Keahey] and the
state interviewed each juror individually.
Defense counsel waived [Keahey]’s presence
during those interviews. None of the jurors stated
that they heard the bailiff speak about the trial
judge. Several jurors stated that they knew [the
juror] and the bailiff were talking about their
children. None of the jurors said that their view
of [Keahey] or the case was tainted in any way by
the conversation. After the interviews were
concluded, [the juror] was dismissed as a juror
and was replaced by an alternate.
Id., slip op. at 9–10. The state appellate court
concluded that “the record does not show a violation of
due process that rises to the level of preventing
appellant from having a fair trial,” and thus concluded
that Keahey was not prejudiced by appellate counsel’s
omission. Id., slip op. at 10.
As to Keahey’s second subclaim, the Ohio Court of
Appeals found “that [Keahey]’s attorney waived
appellant’s, and his own, presence at the jury view.”
Id. The state appellate court concluded, however, that
“the record contains no evidence that [Keahey] was
materially prejudiced by not attending the jury view
and personally apprising the jury of ‘points of
interest.’” Id., slip op. at 10–11. The state appellate
court further concluded that, “[w]ithout such a
showing, [Keahey] cannot establish that his due
process rights were violated, and his second claim is
without merit.” Id., slip op. at 11.
As to Keahey’s third subclaim, the Ohio Court of
Appeals found:

21a
[Keahey] was present during discussions
regarding proposed jury instructions. [Keahey]
was not present when defense counsel made a
successful verbal motion to limit evidence at trial
regarding [Keahey]’s involvement with drugs.
However, a review of the record shows that
counsel sought to exclude such evidence so that
[Keahey] would not look like a ‘big drug dealer’ to
the jury.
Id. The state appellate court concluded: “[Keahey]
has not demonstrated prejudice in these instances,
and his claim to the contrary is without merit.” Id.
As to Keahey’s fourth subclaim, the Ohio Court of
Appeals found “that defense counsel waived
[Keahey]’s presence each time the jury sent out a
note.” Id. The state appellate court concluded,
however, that
a thorough review of each of those instances
reveals no prejudice to [Keahey], for the following
reasons: (1) in its first note, the jury asked why
they were not allowed to consider Count 1 of the
indictment, which was not even before the jury for
consideration, (2) in its second note, the jury
asked for lunch, (3) in its third note, the jury
asked to review police and hospital reports, to
which the court replied that the jury should rely
on trial testimony evidence that was already
submitted in reaching its decision, and (4) the
jury’s final communication was to state that it
had reached a verdict.
Id. Based on its determination that Keahey did not
suffer prejudice, the state appellate court concluded
that appellate counsel was not ineffective for omitting

22a
this subclaim. Id., slip op. at 12. Reviewing the state
appellate court’s findings and conclusions as to
Keahey’s first through fourth subclaims, the district
court concluded that Keahey “failed to establish that
the state court decision involved an unreasonable
application of clearly established law.” Reasonable
jurists could not disagree.
Ground 5. Keahey argues that appellate counsel
was ineffective for failing to argue that the evidence
was insufficient to support the “knowingly” element of
his conviction for improperly discharging a firearm.
When reviewing a sufficiency challenge, “the relevant
question is whether, after viewing the evidence in the
light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.” Jackson v.
Virginia, 443 U.S. 307, 319 (1979). Under this
deferential standard, a federal habeas court does “not
reweigh the evidence, re-evaluate the credibility of
witnesses, or substitute [its] judgment for that of the
jury.” Brown v. Konteh, 567 F.3d 191, 205 (6th Cir.
2009).
In rejecting this claim, the Ohio Court of Appeals
determined that appellate counsel was not ineffective
because Keahey’s proposed sufficiency challenge
lacked merit. Keahey, No. E-13-009, slip op. at 15. The
state appellate court explained:
Appellant argues that insufficient evidence
was presented to support his conviction because
he did not ‘knowingly’ shoot into Hendrickson’s
house. However, it is undisputed that appellant
deliberately shot at Hampton in a residential
neighborhood. Accordingly, after considering all

23a
of the circumstances presented in this case, we
conclude that there was sufficient evidence
presented
to
support
the
element
of
‘knowingly’ . . . .
Id.; see also State v. Wilson, No. CA2018-03-022, 2019
WL 424198, at *7, ¶ 46 (Ohio Ct. App. Feb. 4, 2019)
(“To act knowingly, a defendant merely has to be
aware that the result may occur.” (emphasis added)).
Based on its determination that Keahey’s sufficiency
claim lacked merit, the state appellate court concluded
that appellate counsel was not ineffective for omitting
this claim. Keahey, No. E-13-009, slip op. at 15. Again,
a state court’s interpretation of state law is binding on
federal habeas review. See Richey, 546 U.S. at 76.
Under these circumstances, reasonable jurists could
not debate the district court’s conclusion that Keahey
“failed to establish that the state court decision
involved an unreasonable application of clearly
established federal law.”
Ground 6. Keahey argues that appellate counsel
was ineffective for failing to argue that the trial court
erred in denying his motion for mistrial based on the
communications, described above in response to his
fifth ground, between a juror and the bailiff. The Ohio
Court of Appeals rejected this claim, reasoning in part
that no prejudice resulted from the challenged
communications because the trial “court determined
that none of the jurors were influenced by the
communication” and dismissed the juror directly
involved. Keahey, No. E-13-009, slip op. at 13. “A trial
judge’s finding on the impartiality of a juror or jury is
a factual finding, presumed correct under § 2254
review unless [the petitioner] proves otherwise by
convincing evidence.” Young v. Trombley, 435 F. App’x

24a
499, 506 (6th Cir. 2011) (alteration in original)
(quoting Gall v. Parker, 231 F.3d 265, 334 (6th Cir.
2000), superseded on other grounds by statute as stated
in Parker v. Matthews, 567 U.S. 37, 48–49 (2012) (per
curiam)); see 28 U.S.C. § 2254(e)(1). Because Keahey
has failed to rebut the applicable presumption of
correctness, he has failed to make a substantial
showing of the denial of a constitutional right as to this
claim.
Ground 7. Keahey argues that trial counsel was
ineffective in several ways. First, Keahey faults
counsel for failing to investigate and subpoena Prince
and another witness, William Myers, as well as a
ballistics expert. The Ohio Court of Appeals concluded
that Keahey’s “assertion that Prince would have
admitted owning the knife” found at the crime scene
“and carrying a gun on” the day of the shooting was
“self-serving and speculative at best.” Keahey, 2014
WL 5794329, at *8, ¶ 37. Although Keahey appended
to his § 2254 petition an affidavit from Prince
attesting that Prince “instigated the whole situation
from the start and brought this upon [him]self,” this
affidavit was signed after briefing had concluded in
Keahey’s appeal from the denial of his petition for
state post-conviction relief.
“Under 28 U.S.C.
§ 2254(e)(2), a federal habeas court reviewing a habeas
petition may not rely on evidence that was not
presented to the state courts unless the petitioner can
show that (1) he was diligent in seeking to develop his
claims in the state courts, or (2) he satisfies the
conditions set forth in § 2254(e)(2).”
Richey v.
Bradshaw, 498 F.3d 344, 351 (6th Cir. 2007). Under
these circumstances, reasonable jurists could not
debate the district court’s conclusion that the state

25a
appellate court’s decision was not “so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement” (quoting
Richter, 562 U.S. at 103). See Wogenstahl v. Mitchell,
668 F.3d 307, 335 (6th Cir. 2012) (holding that
conclusory allegations of ineffective assistance do not
entitle a petitioner to habeas relief).
Regarding Myers, the Ohio Court of Appeals
explained that “[d]efense counsel’s decision not to call
Myers to testify for the defense was addressed during
the trial, when defense counsel told the court he would
not be calling Myers to the stand because he is a ‘loose
cannon.’” Keahey, 2014 WL 5794329, at *8, ¶ 37. The
district court concluded that the state appellate court’s
decision was not “so lacking in justification that there
was an error well understood and comprehended in
existing law beyond any possibility for fairminded
disagreement” (quoting Richter, 562 U.S. at 103).
Reasonable jurists could not disagree. Moreover,
Keahey’s allegation that Myers’s testimony “would
have also strongly supported the defense’s position
that there were two guns involved in this incident” is
conclusory. See Wogenstahl, 668 F.3d at 335.
Keahey also faults counsel for failing to call a
ballistics expert. As the Ohio Court of Appeals
explained, however, Keahey’s “claim that an expert
would have been able to definitively state that bullets
were recovered from two different guns is purely
speculative.” Keahey, 2014 WL 5794329, at *9, ¶ 43.
This subclaim therefore does not deserve
encouragement to proceed further. See Wogenstahl,
668 F.3d at 335.

26a
Second, Keahey faults counsel for failing to request
forensic testing of the knife found at the crime scene.
In rejecting this subclaim, the Ohio Court of Appeals
reasoned as follows:
Testimony was presented at trial that Prince
attacked appellant with a knife [during the prior
altercation]. Although no witness saw Prince
holding a knife on [the day of the shooting],
testimony was presented that Prince owns and
has been known to carry a knife. However, even
if Prince’s DNA were detected on [the] knife
through testing, such evidence would do nothing
to show that Prince actually threatened appellate
with that particular weapon.
Accordingly,
appellant was not unduly prejudiced by defense
counsel’s decision not to insist that DNA tests be
performed on the knife.
Keahey, 2014 WL 5794329, at *8, ¶ 40. The district
court concluded that the state appellate court’s
decision was not “so lacking in justification that there
was an error well understood and comprehended in
existing law beyond any possibility for fairminded
disagreement” (quoting Richter, 562 U.S. at 103).
Reasonable jurists could not disagree.
Third, Keahey faults counsel for failing to secure his
presence at the jury view of the crime scene. As
discussed above in response to his fifth ground,
however, reasonable jurists could not debate the
district court’s determination that the Ohio Court of
Appeals reasonably concluded that Keahey was not
prejudiced by his absence. This subclaim therefore
does not deserve encouragement to proceed further.

27a
Fourth, Keahey faults counsel for failing to move for
recusal of the trial judge, who Keahey claims was head
of the drug task force that prosecuted him in a prior
case. According to Keahey, the trial court imposed
consecutive sentences in the present case based in part
on his prior case. In rejecting this subclaim, the Ohio
Court of Appeals determined that, although “the trial
judge state[d] that . . . he was a prosecutor for the Erie
County Drug Task Force at the time of [Keahey]’s
[prior] drug conviction . . . [a] review of the record does
not show bias on the part of the trial judge, and
[Keahey] does not offer any evidence from outside the
record to demonstrate such bias.” Keahey, 2014 WL
5794329, at *10, ¶¶ 50–51.
The district court
concluded that “Keahey has failed to demonstrate that
the state court’s ruling was contrary to clearly
established federal law.” Reasonable jurists could not
disagree. See Getsy v. Mitchell, 495 F.3d 295, 311 (6th
Cir. 2007) (noting that due process requires judicial
recusal “[o]nly in the most extreme of cases”).
Finally, in his objections to the magistrate judge’s
report and recommendation, Keahey argued that the
magistrate judge erred in reviewing his habeas
grounds under § 2254(d)(1) without addressing
§ 2254(d)(2). With the exception of his first and
seventh grounds, however, Keahey failed to explain
how the state appellate court’s adjudications were
based on an unreasonable determination of the facts.
Regarding his seventh ground, Keahey points to
Prince’s affidavit in arguing that the state appellate
court’s decision was unreasonable. As discussed
above, however, Prince’s affidavit was not properly
before the state appellate court.

28a
Accordingly, the IFP motion is GRANTED and the
COA application is GRANTED as to Keahey’s claim
that the trial court erred in denying his request for a
self-defense jury instruction (Ground 1). The COA
application is otherwise DENIED. The clerk is
directed to issue a briefing schedule on Keahey’s
certified claim.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

29a

APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
DEMETREUS A. KEAHEY, )
)
Petitioner,
)
)
MARGARET BRADSHAW, )
WARDEN
)
)
Respondent.

CASE NO.:
3:16CV1131
JUDGE JOHN ADAMS
JUDGMENT ENTRY

For the reasons set forth in the Order filed
contemporaneously with this Judgment Entry, IT IS
HEREBY ORDERED, ADJUDGED and DECREED
that Demetreus Keahey’s Petition for a Writ of Habeas
Corpus is hereby DISMISSED. Pursuant to 28 U.S.C
§ 1915(a)(3), the Court certifies that Petitioner may
not take an appeal from the Court’s decision in good
faith, and that there is no basis upon which to issue a
certificate of appealability. 28 U.S.C. § 2253(c); Fed.
R. App. P. 22(b).
IT IS SO ORDERED.
October 4, 2018

/s/ John R. Adams
JUDGE JOHN R. ADAMS
UNITED STATES
DISTRICT JUDGE

30a

APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
DEMETREUS A. KEAHEY, )
)
Petitioner,
)
)
MARGARET BRADSHAW, )
Warden
)
)
Defendant.

CASE NO.:
3:16CV1131
JUDGE JOHN ADAMS
ORDER AND
DECISION

This matter appears before the Court on objections
to the Report and Recommendation of the Magistrate
Judge filed by Petitioner Demetreus Keahey. Upon
due consideration, the Court overrules the objections
and adopts the Report and recommended findings and
conclusions of the Magistrate Judge and incorporates
them herein. Therefore, it is ordered that the petition
is hereby DISMISSED.
Where objections are made to a magistrate
judge’s R&R this Court must:
must determine de novo any part of the
magistrate judge’s disposition that has been
properly objected to. The district judge may
accept, reject, or modify the recommended
disposition; receive further evidence; or return
the matter to the magistrate judge with
instructions.
Fed. R. Civ. P. 72(b)(3).

31a
Initially, the Court notes that Keahey has
repeatedly expressed that the R&R erred when it
failed to analyze any of his claims under 28 U.S.C.
§ 2254(d)(2) which provides for relief in habeas if the
state court’s adjudication “resulted in a decision that
was based on an unreasonable determination of the
facts in light of the evidence presented in the State
court proceeding.” Keahey, however, has wholly failed
to demonstrate any unreasonable determination of the
facts related to the evidence presented. Moreover, it
appears that Keahey seeks to rely on an affidavit from
the victim that was not presented in any state
proceeding. Even if this Court were inclined to review
and consider the affidavit, it does not alter the
reasonableness of the state court fact finding. Rather,
the affidavit contends that the victim was the
aggressor in the altercation that led to Keahey’s
conviction. As Keahey’s claim of self-defense was
rejected because he had the opportunity to retreat, the
affidavit does nothing to change the legal landscape.
Keahey next contends that the R&R erred when it
found that Keahey had not cited to any clearly
established federal law in support of his claim that his
rights were violated when the jury was not instructed
on self-defense.
Consistent with the conclusion
reached by the R&R. the Sixth Circuit has “found no
Supreme Court case which holds that a criminal
defendant’s right to present a defense includes the
right to a specific jury instruction.” Newton v. Million,
349 F.3d 873, 879 (6th Cir. 2003) (abrogated on other
grounds as recognized in English v. Berghuis, 529 Fed.
Appx. 734 (6th Cir. 2013)). As such, the R&R properly
concluded that Keahey had failed to identify any

32a
clearly established federal law that was violated when
the state court denied his self-defense instruction.1
With respect to Ground Seven in his petition,
Keahey raises the same argument with respect to the
new affidavit from the victim that the Court addressed
above. Keahey, however, packages the argument in a
claim for ineffective assistance of counsel. Keahey
asserts that failing to investigate this witness, Prince
Hampton, was clearly prejudicial based upon the
affidavit. Keahey also contends that failure to test the
knife found on the scene for Hampton’s DNA was also
evidence of ineffective counsel.
When analyzing a Strickland claim under § 2254(d),
our review is “‘doubly deferential.’” Cullen v.
Pinholster, 131 S.Ct. 1388, 1403 (quoting Knowles v.
Mirzayance, 129 S.Ct. 1411, 1420 (2009)). The key
question “‘is whether there is any reasonable
argument that counsel satisfied Strickland’s
deferential standard.’” Foust v. Houk, 655 F.3d 524,
533–34 (6th Cir. 2011) (emphasis added) (quoting
Harrington v. Richter, 131 S.Ct. 770, 788 (2011)).
Here, as the R&R noted, the state court found that
testing for Hampton’s DNA would not have assisted
Keahey in any manner. Proving that the knife
The Court notes that is also clear from the record that
fairminded jurists could disagree on the state court’s
adjudication, thus habeas relief is precluded. See Harrington v.
Richter, 131 S.Ct. 770, 786 (2011) (“A state court’s determination
that a claim lacks merit precludes federal habeas relief so long as
fairminded jurists could disagree on the correctness of the state
court’s decision.” (internal quotation marks omitted)). Given the
state court record, jurists could reasonably conclude that Keahey
had ample opportunity to retreat and was therefore not entitled
to a self-defense jury instruction.
1

33a
belonged to Hampton would not have changed the
conclusion with respect to Keahey ability to retreat,
nor would it have demonstrated that Hampton had
threatened Keahey.
Finally, defense counsel’s
decision to not call the victim of Keahey’s crime cannot
be said to be ineffective. By Keahey’s own admission,
the victim had previously stabbed Keahey and the
parties had an ongoing dispute based upon them both
having children with the same woman. The fact that
years later Keahey has been able to obtain an affidavit
in which Hampton claims to have been the aggressor
in their altercation does not alter this conclusion. As
noted above, Hampton’s status as an aggressor (or lack
thereof) was not at issue when the trial court declined
to give a self-defense instruction. As such, Keahey’s
objections to the R&R as it relates to this ground for
relief lack merit.
Keahey next contends that the R&R erred when it
found no error in his absence from portions of his trial.
Keahey asserts that the trial judge interview a bailiff
and a juror about a conversation they had over the
lunch hour. Once that interview was complete, the
trial court allowed the state and Keahey’s counsel to
question each juror individually. Keahey’s counsel
waived his presence during these interviews. The
state court concluded that Keahey had suffered no
prejudice from his absence. In this matter, the R&R
correctly concluded that Keahey had failed to establish
that the brief interview by the trial judge was a critical
stage of the proceeding such that his claim could
succeed without a showing of prejudice. In fact,
Keahey made no reference to any clearly established
federal law that would support a claim that such a
stage of the proceedings was in fact critical. As such,

34a
Keahey’s objection on this ground for relief also lacks
merit.
With respect to arguments related to a jury view,
additional arguments regarding jury instructions, and
notes from the jury, Keahey contends that the R&R’s
review was done in a summary fashion. Keahey,
however, has not asserted any legal error in the R&R,
and this Court is not required to fashion an argument
on his behalf.
Keahey’s next argument borders on frivolous when
he contends that the R&R erred when it found there
was sufficient evidence to convict him of discharging a
firearm into an occupied structure.
Keahey
essentially contends that the state did not prove that
he “knowingly” committed this offense. However,
there is no dispute that Keahey intentionally fired his
firearm repeatedly in a residential neighborhood.
Under Ohio law, to prove that Keahey acted
knowingly, the state was only required to prove that
his conduct would “probably cause a certain result.”
Ohio Rev. Code. § 2901.22(B). There can be no doubt
that repeatedly firing a firearm in the manner that
Keahey did would probably result in stray bullets
entering a residence. As such, he can maintain no
claim that the evidence was insufficient to support his
conviction.
Finally, Keahey contends the R&R erred in
resolving his arguments regarding the failure of his
trial judge to recuse. As the R&R correctly notes, due
process guarantees Keahey a judge with no actual bias
against him. Wiiliams v. Pennsylvania, 136 S.Ct.
1899, 1905 (2016). The state court proceedings
establish that the Keahey did not demonstrate any

35a
bias. Instead, Keahey then and now contends that the
trial judge’s tangential involvement in Keahey’s
conviction that occurred more than a decade prior to
the current conviction required recusal. As the R&R
properly concluded that Keahey’s claim is dependent
on a showing of actual bias, Keahey’s objections lack
merit.
I. Conclusion
Having found no merit to the objections raised by
Keahey, the Court ADOPTS the Magistrate Judge’s
Report in its entirety. The Petition is DISMISSED.
The Court certifies, pursuant to 28 U.S.C.
§1915(A)(3), that an appeal from this decision could
not be taken in good faith, and that there is no basis
upon which to issue a certificate of appealability.
This Order is entered pursuant to Federal Rule of
Civil Procedure 58.
So ordered.
October 4, 2018

/s/ John R. Adams
JUDGE JOHN R. ADAMS
UNITED STATES
DISTRICT JUDGE

36a

APPENDIX F
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
DEMETREUS A.
KEAHEY,
Petitioner,
v.
MARGARET
BRADSHAW,
Warden,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

Case No. 3:16CV1131

JUDGE JOHN R. ADAMS
MAGISTRATE JUDGE
DAVID A. RUIZ

REPORT AND
RECOMMENDATION

This 28 U.S.C. § 2254 petition is before the
magistrate judge pursuant to Local Rule 72.2(b)(2).
Before the court is the petition of Demetreus A.
Keahey (“Keahey”) for a writ of habeas corpus filed
pursuant to 28 U.S.C. § 2254. The petitioner is in the
custody of the Ohio Department of Rehabilitation and
Correction pursuant to journal entry of sentence in the
case of State of Ohio v. Keahey, Case No. 2011-CR-275
(Erie County October 4, 2012). (R. 7, RX 9, PageID #:
245–249.). For the following reasons, the magistrate
judge recommends that the petition be denied.
The petitioner has filed a petition pro se for a writ of
habeas corpus, arising out of his 2012 convictions for
felonious assault, attempted murder, and other

37a
crimes, in the Erie County (Ohio) Court of Common
Pleas. In his petition, Keahey raises seven grounds for
relief. As set forth in the habeas petition form, his
grounds are:
1. The State Trial Court erred to the prejudice
of the petitioner when denying the defense’s
request for a self-defense jury instruction
violating 5th, 6th, and 14th Amendments.
2. The trial court erred to the prejudice of the
petitioner and abused its discretion when the
court declined to provide a jury instruction on
necessity when sufficient evidence [that
warranted this instruction].
3. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise significant issues on direct appeal
violating the 5th, 6th, and 14th Amendments.
4. The petitioner was denied effective
assistance of trial counsel violating the 5th, 6th,
and 14th Amendments.
(R. 1, § 12, PageID #: 5, 7–8, 10.) The petition form
itself contains only the above four claims.
However, Keahey also filed an additional,
supplemental petition in narrative form which
reasserted the aforementioned claims and included
additional claims, thereby asserting the following
seven grounds for relief:
1. The state trial court erred to the prejudice of
petitioner when denying the defense’s request for
a self-defense jury instruction which was an
affirmative defense to the crime charged denying
petitioner’s fundamental constitutional rights to

38a
present a defense, due process of law, and right to
a fair trial guaranteed under the Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
2. The state trial court erred to the prejudice of
petitioner and abused its discretion when
declining to provide a jury instruction on
necessity an affirmative defense to the crime
charged when sufficient evidence was submitted
to support such instruction denying petitioner’s
fundamental constitutional rights to present a
defense, due process of law, and right to a fair
trial guaranteed under the Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.
3. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a claim on direct appeal that
petitioner’s offenses of improperly discharging a
firearm at or into a habitation under R.C.
2923.161(A)(1), and attempted murder under
R.C. 2923.02(A), should have been merged for
sentencing as allied offenses under R.C.
2941.25(A), violating petitioner’s constitutional
rights under the Double Jeopardy Clause and
right to effective assistance of counsel guaranteed
by the Fifth, Sixth, and the Fourteenth
Amendments to the United States Constitution.
4. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a claim on direct appeal that
petitioner was denied his constitutional right to
be present at critical stages of the trial

39a
proceedings violating petitioner’s rights under
the Fifth, Sixth, and the Fourteenth Amendments
to the United States Constitution.
5. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a sufficiency of evidence claim on
direct appeal in regards to Count Eight for
improperly discharging a firearm at or into a
habitation under R.C. 2923.161(A), violating
petitioner’s [rights under the] Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
6. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a claim on direct appeal regarding
the trial court’s denial of trial counsel’s motion for
mistrial when the bailiff came into contact with a
juror in violation of R.C. 2945.33, violating
petitioner’s [rights under the] Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
7. The petitioner was denied effective
assistance of trial counsel when counsel failed to
investigate and subpoena certain defense
witnesses to testify at trial, failed to request
forensic testing on the knife found at the scene for
DNA or fingerprints, failed to secure the
petitioner’s presence at the jury view, and failed
to move for recusal of the judge based on an actual
conflict of interest violating the petitioner’s
[rights under the] Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.

40a
(R. 1-1, PageID #: 24, 34, 41, 46, 54, 59, 62.)
The respondent has filed a Return of Writ,
addressing the petitioner’s seven claims as they are
presented in the supplemental petition (R. 7, PageID
#: 137–138), and Keahey has filed an Traverse (R. 10.)
I.

FACTUAL AND PROCEDURAL
BACKGROUND

The Ohio Court of Appeals provided the following
background:
Appellant and Kindra McGill are the parents of a
daughter, K.K. In addition, Kindra is the former
girlfriend of Prince Hampton, who is the father of
her two boys, P.H. and D.H. Because of several
factors, including Kindra’s affiliation with both
appellant and Prince, an incident arose at the
home of Kindra and appellant on May 7, 2011,
during which Prince pulled a knife and stabbed
appellant in the back. Appellant was hospitalized
for several days with a collapsed lung. Neither
Kindra nor appellant named Prince as the person
who stabbed appellant. Consequently, no one was
charged with a crime in that instance. However,
on June 15, 2011, text messages were exchanged
between appellant and Kindra, in which the two
discussed Kindra’s reluctance to name Prince as
appellant’s attacker, and also appellant’s desire
to retaliate against Prince for the stabbing.
At some point after May 7, 2011, Kindra and her
children began living with Kindra’s mother, Joyce
McGill, at [redacted] Aspen Run Road in
Sandusky, Ohio. On the morning of June 20,
2011, appellant drove to the Aspen Run Road

41a
house with the stated intent of picking up K.K.
and Kindra so he could take them to the doctor’s
office for K.K.’s scheduled appointment.
Appellant arrived early, parked his vehicle on the
street in front of the house, and walked inside.
After a brief conversation with Joyce appellant
went back outside, where he saw a vehicle pulling
into the driveway. In the vehicle were Prince,
Kindra’s two boys, and A.C., the young son of
Prince’s then-girlfriend.
When Prince exited the vehicle, appellant drew a
gun and fired several shots at Prince. One bullet
hit Prince in the arm, and another went through
his pants pocket, hitting him in the leg. That
same bullet shredded a roll of paper money that
was in Prince’s pocket, causing confetti-like
pieces of the bills to scatter on the ground.
After appellant began firing at him, Prince ran
down the street. At that point, appellant got into
his car and drove away.
While witnesses’
accounts varied, it is undisputed that someone
shouted “you are a dead nigga” as appellant’s
vehicle drove down the street. Prince collapsed
several blocks from McGill’s house. Neighbors
called 911, medical assistance was dispatched to
the scene, and Prince was taken to the hospital.
Police arrived on the scene in response to
neighbors’ calls, where they discovered that one
bullet had gone through the door of Prince’s
vehicle, and another one had gone through the
outside wall and into the living room of McGill’s
neighbor, Brunell Hendrickson. Still another
bullet was found under Prince’s vehicle, and
several more were later found on the ground in

42a
the surrounding area. In addition, a pair of flipflop sandals and a closed pocket knife were found
on the driveway near Prince’s vehicle.
After the altercation appellant fled to Erie,
Pennsylvania. On July 25, 2011, while appellant
was still in Pennsylvania, the Erie County Grand
Jury indicted him on one count of drug possession
(in an unrelated case), one count of felonious
assault on Prince Hampton, in violation of R.C.
2903.11(A)(2), one count of attempted murder of
Prince Hampton, in violation of R.C. 2903.02(A),
three separate counts of felonious assault on P.H,
D.H. and A.C., one count of having a weapon
while under disability, in violation of R.C.
2923.13(A)(3), and one count of improperly
discharging a firearm at or into a habitation or
school safety zone, in violation of R.C.
2923.161(A).
A jury trial was held on September 4, 5, 6, 7 and
10, 2012. Trial testimony was presented on
behalf of the state by Joyce and Kindra McGill,
Brunell Hendrickson, Jeremy Pruitt, Robert and
Evelyn Brown, Eric Jensen, and various members
of the Sandusky Police Department.
******
On September 10, 2012, the jury returned a
verdict of guilty to one count of felonious assault
and one count of attempted murder of Prince, one
count of having a weapon while under disability,
and one count of improperly discharging a firearm
at or into a habitation or school safety zone. Notguilty verdicts were returned as to felonious
assault on P.H., D.J. and A.C. The remaining

43a
charge of drug possession was later dismissed.
On October 4, 2012, the trial court sentenced
appellant to serve a total of 23 years in prison.
(R. 7, RX 20, PageID #: 377–380, 393; State v. Keahey,
No. E-13-009, 2014 WL 5421028, at *1–*2, *9 (Ohio Ct.
App. Oct. 24, 2014).)
A.

Direct Appeal

Keahey filed a timely direct appeal of his conviction,
raising five assignments of error:
1. The trial court erred to the prejudice of
Appellant and abused its discretion in declining
to provide jury instructions on self-defense, an
affirmative defense to the crime charged.
2. The trial court erred to the prejudice of
Appellant and abused its discretion in declining
to provide jury instructions on necessity, an
affirmative defense to the crime charged.
3. The trial court violated the defendant’s Sixth
Amendment right and abused its discretion in
making findings of fact.
4. The trial court erred to defendant’s prejudice
in denying Defendant’s Motion for a Mistrial.
5. The trial court’s errors, when taken together,
deprived appellant of the fair trial as guaranteed
by the Fourteenth Amendment of the United
States Constitution and Article I, Section Sixteen
of the Ohio Constitution Due Process Clauses.
(R. 7, RX 16, PageID #: 286.) The court of appeals
affirmed the judgment of the trial court. (R. 7, RX 20,
PageID #: 403; Keahey, 2014 WL 5421028, at *13.)

44a
Keahey filed a timely appeal to the Supreme Court
of Ohio. Keahey set forth the following propositions of
law:
1. Whether the trial court erred to the prejudice
of appellant and abused its discretion in declining
to provide jury instructions on self-defense, an
affirmative defense to the crime charged violating
appellant’s fundamental constitutional rights
under the Due Process Clause and right to a fair
trial guaranteed under the Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.
2. Whether the trial court erred to the prejudice
of appellant and abused its discretion in declining
to provide jury instructions on necessity, an
affirmative defense to the crime charged violating
appellant’s fundamental constitutional rights
under the due process clause and right to a fair
trial guaranteed under the Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.
3. Whether the trial court violated the
appellant’s Sixth Amendment right and abused
its discretion in making findings of fact.
4. Whether the trial court erred to appellant’s
prejudice in denying appellant’s motion for a
mistrial violating fundamental constitutional
rights under the Due Process Clause and right to
a fair trial guaranteed under the Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
5. Whether the trial court’s errors, when taken
together, deprived appellant of a fair trial as

45a
guaranteed by the Fourteenth Amendment of the
United States Constitution and Article I, Section
Sixteen of the Ohio Constitution Due Process
Clause.
(R. 7, RX 22, PageID #: 407–408.) On April 8, 2015,
the court declined to accept jurisdiction of the appeal.
(R. 7, RX 24; State v. Keahey, 142 Ohio St.3d 1424, 28
N.E.3d 122 (2015).)
Keahey then filed a petition for a writ of certiorari
in the United States Supreme Court. He presented
three questions for review:
1. Whether the trial court erred to the prejudice
of petitioner and abused its discretion when
declining to provide a jury instruction on selfdefense, an affirmative defense to the crime
charged when sufficient evidence was submitted
to support such an instruction violating
petitioner’s fundamental constitutional rights
under the Due Process Clause and right to a fair
trial guaranteed under the Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.
2. Whether the trial court erred to the prejudice
of petitioner and abused its discretion when
declining to provide a jury instruction on
necessity, an affirmative defense to the crime
charged when sufficient evidence was submitted
to support such an instruction violating
petitioner’s fundamental constitutional rights
under the Due Process Clause and right to a fair
trial guaranteed under the Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.

46a
3. Whether Ohio law that precludes a defendant
from raising the defense of necessity when
defendant is charged for an offense of having a
weapon while under disability under R.C.
2923.13(A) is inconsistent and contrary to United
States Court of Appeals and United States
Supreme Court decisions.
(R. 7, RX 25, PageID #: 473.) The petition for writ of
certiorari was denied on October 5, 2015. (R. 7, RX 26;
cert. denied, 136 S.Ct. 71 (2015).)
B.

Rule 26(B) Application

On January 2, 2015, Keahey filed an application to
reopen his appeal pursuant to Ohio App. Rule 26(B).
(R. 7, RX 27.) Keahey argued that appellate counsel
was ineffective for failing to raise the following claims:
(1.) Appellant counsel’s failure to raise trial
counsel’s ineffectiveness when trial counsel failed
to retain an expert witness for the defense when
sufficient evidence existed for counsel to obtain an
expert witness constituted ineffective assistance
of counsel.
(2.) Appellant counsel’s failure to raise the trial
court’s error when failing to merge the attempted
murder and improperly discharging a firearm at
or into a habitation or school safety zone as allied
offenses under R.C. 2941.25 constituted
ineffective assistance of counsel.
(3.) Appellant counsel’s failure to raise a claim
that appellant was denied his constitutional right
to be present at trial constituted ineffective
assistance of counsel.

47a
(4.) Appellant counsel’s failure to raise a claim
that the trial court erred when the court denied
trial counsel’s motion for mistrial when the Bailiff
came into contact with a juror in violation of R.C.
2945.33, constituted ineffective assistance of
counsel.
(5.) Appellant counsel’s failure to raise a claim
that the state failed to present sufficient evidence
under Count 8, constituted ineffective assistance
of counsel.
(R. 7, RX 27, PageID #: 506, 508–509, 511–512.)
The court of appeals denied his application to
reopen. (R. 7, RX 30.) The court reviewed the issues
presented, and found that Keahey had failed to raise a
colorable claim of ineffective assistance of appellate
counsel. (R. 7, RX 30, PageID #: 570.)
Keahey then filed a timely appeal to the Supreme
Court of Ohio.
Keahey set forth the following
proposition of law:
The Court of Appeals erred when it denied
appellant’s application to reopen appeal when
appellant was denied effective assistance of
appellate counsel on direct appeal in violation of
the Fifth, Sixth, and the Fourteenth Amendments
to the U.S. Constitution.
(R. 7, RX 32.) The court declined to accept jurisdiction
of the appeal. (R. 7, RX 34; State v. Keahey, 142 Ohio
St.3d 1478, 31 N.E.3d 656 (2015).)
In addition, while the appeal to the state high court
was pending, Keahey filed a motion for
reconsideration with the state court of appeals, which
was denied. (R. 7, RX 35, 37.)

48a
C.

Petition for Post-Conviction Relief

Keahey also filed a petition for post-conviction relief
pursuant to Ohio Rev. Code § 2953.21, on July 5, 2013.
(R. 7, RX 38.) His petition was based on four claims:
1. Petitioner’s
Sixth
and
Fourteenth
Amendment rights to effective assistance of [trial]
counsel was violated.
2. Conflict of interest [between defendant and
trial judge].
3. Petitioner requested a jury view which
counsel refused to allow petitioner to attend.
4. Petitioner’s
Sixth
and
Fourteenth
Amendment rights to effective assistance of [trial]
counsel was violated.
(R. 7, RX 38, PageID #: 669–671.) The trial court
denied the petition. (R. 7, RX 42.)
Keahey appealed the denial, raising a single
assignment of error:
1. The trial court committed error when they
abused [their] discretion by denying defendantappellant’s post-conviction petition, in violation of
defendant-appellant’s due process rights under
the 6th and 14th Amendments to the United
States Const. and Art. I Sec. 10 of the Ohio Const.
(R. 7, RX 44.) The court of appeals found his
assignment of error not well-taken, and affirmed the
judgment of the trial court. (R. 7, RX 46, PageID #:
890–891; State v. Keahey, No. E-13-055, 2014 WL
5794329, at *10 (Ohio Ct. App. Nov. 7, 2014).)
Keahey filed an appeal with the Supreme Court of
Ohio, raising a single proposition of law:

49a
1. Whether the appellate court erred when
affirming the trial court’s denial of appellant’s
petition for postconviction relief without
remanding this case back to the trial court for an
evidentiary hearing.
(R. 7, RX 48.) The court declined to accept jurisdiction
of the appeal. (R. 7, RX 57; State v. Keahey, 142 Ohio
St.3d 1476, 31 N.E.3d 654 (2015).)
Keahey filed a timely petition for a writ of habeas
corpus in this court.
II.

HABEAS CORPUS REVIEW

This case is governed by the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), 28
U.S.C. § 2254, which provides the standard of review
that federal courts must apply when considering
applications for a writ of habeas corpus. Under the
AEDPA, federal courts have limited power to issue a
writ of habeas corpus with respect to any claim that
was adjudicated on the merits by a state court. The
Supreme Court, in Williams v. Taylor, provided the
following guidance:
Under § 2254(d)(1), the writ may issue only if one
of the following two conditions is satisfied—the
state-court adjudication resulted in a decision
that (1) “was contrary to ... clearly established
Federal law, as determined by the Supreme Court
of the United States,” or (2) “involved an
unreasonable application of ... clearly established
Federal law, as determined by the Supreme Court
of the United States.” Under the “contrary to”
clause, a federal habeas court may grant the writ
if the state court arrives at a conclusion opposite

50a
to that reached by this Court on a question of law
or if the state court decides a case differently than
this Court has on a set of materially
indistinguishable facts. Under the “unreasonable
application” clause, a federal habeas court may
grant the writ if the state court identifies the
correct governing legal principle from this Court’s
decisions but unreasonably applies that principle
to the facts of the prisoner’s case.
Williams v. Taylor, 529 U.S. 362, 412–413 (2002). See
also Lorraine v. Coyle, 291 F.3d 416, 421–422 (6th Cir.
2002), cert. denied, 538 U.S. 947 (2003).
A state court decision is “contrary to” clearly
established Supreme Court precedent “if the state
court applies a rule that contradicts the governing law
set forth in [Supreme Court] cases.” Williams, 529
U.S. at 405. See also Price v. Vincent, 538 U.S. 634,
640 (2003). A state court decision is not unreasonable
simply because the federal court considers the state
decision to be erroneous or incorrect. Rather, the
federal court must determine that the state court
decision is an objectively unreasonable application of
federal law. Williams, 529 U.S. at 410–12; Lorraine,
291 F.3d at 422.
Keahey has filed his petition pro se. The pleadings
of a petition drafted by a pro se litigant are held to less
stringent standards than formal pleadings drafted by
lawyers, and will be liberally construed. Urbina v.
Thoms, 270 F.3d 292, 295 (6th Cir. 2001) (citing Cruz
v. Beto, 405 U.S. 319 (1972); Haines v. Kerner, 404 U.S.
519 (1972) (per curiam)). No other special treatment
is afforded litigants who decide to proceed pro se.
McNeil v. United States, 508 U.S. 106, 113 (1993)

51a
(strict adherence to procedural requirements);
Jourdan v. Jabe, 951 F.2d 108 (6th Cir. 1991); Brock
v. Hendershott, 840 F.2d 339, 343 (6th Cir. 1988).
III.

PROCEDURAL DEFAULT

The respondent contends that the seventh ground of
Keahey’s petition, which alleged ineffective assistance
of trial counsel, has been procedurally defaulted. The
respondent argues that, although the claim was
presented to the trial court in his postconviction
petition, the claim was not pursued on appeal. (R. 7,
PageID #: 141–142.) Keahey responds that the state
court of appeals addressed his claims. (R. 10, PageID
#: 2334–2335.)
A habeas claim may be procedurally defaulted in
two distinct ways. First, by failing to comply with
state procedural rules. Williams v. Anderson, 460 F.3d
789, 806 (6th Cir. 2006) (citing Maupin v. Smith, 785
F.2d 135, 138 (6th Cir. 1986)). Second, by failing to
raise a claim in state court, and to pursue the claim
through the state’s ordinary review process. Williams,
460 F.3d at 806 (citing O’Sullivan v. Boerckel, 526 U.S.
838, 848 (1999)).
The respondent argues that
Keahey’s seventh ground was not properly exhausted
in state court. (R. 7, PageID #: 141–142.)
A habeas petitioner cannot obtain relief unless he
has completely exhausted his available state
remedies. Coleman v. Thompson, 501 U.S. 722, 731
(1991); Buell v. Mitchell, 274 F.3d 337, 349 (6th Cir.
2001) (citing Coleman v. Mitchell, 244 F.3d 533, 538
(6th Cir. 2001), cert. denied, 534 U.S. 977 (2001)). To
satisfy the exhaustion requirement, a habeas
petitioner “must give the state courts one full

52a
opportunity to resolve any constitutional issues by
invoking one complete round of the State’s established
appellate review process.” O’Sullivan, 526 U.S. at 845.
The exhaustion requirement is satisfied when the
highest court in the state has been given a full and fair
opportunity to rule on the petitioner’s claims. Rust v.
Zent, 17 F.3d 155, 160 (6th Cir. 1994) (citing Manning
v. Alexander, 912 F.2d 878, 881 (6th Cir. 1990)).
Where the petitioner failed to present a claim in state
court, a habeas court may deem that claim
procedurally defaulted because the Ohio state courts
would no longer entertain the claim. Adams v.
Bradshaw, 484 F.Supp.2d 753, 769 (N.D. Ohio 2007)
(citing Buell, 274 F.3d at 349).
The seventh ground of the petition asserts an
ineffective assistance of trial counsel claim that
Keahey raised before the trial court in his petition for
post-conviction relief. (R. 7, RX 38.) When his postconviction petition was denied, Keahey appealed the
denial to the state court of appeals. The respondent
asserts that the constitutional issues cannot be
considered as presented to the state court because
Keahey’s sole assignment of error was framed as error
by the trial court, regarding that court’s denial of his
post-conviction petition. (R. 7, PageID #: 141–142.)
Keahey responds that the state court of appeals
addressed the merits of his claims of ineffective
assistance of trial counsel. (R. 10, PageID #: 2334–
2335, quoting R. 7, RX 46, PageID #: 882; Keahey, 2014
WL 5794329, at *6.)
The court finds that the seventh ground is not
barred by a failure to exhaust the claims, insofar as
the state court of appeals addressed his claims. The
requirement of exhaustion is that a state prisoner

53a
“must give the state courts an opportunity to act on his
claims before he presents those claims to a federal
court in a habeas petition.” O’Sullivan, 526 U.S. at
842.
Exhaustion is not a simple procedural
requirement, but rather based in comity, so that where
a prisoner challenges his confinement under a state
court conviction as a violation of federal law, “the state
courts should have the first opportunity to review this
claim and provide any necessary relief.” Id. at 844.
Despite the inartful framing of his assignment of
error, the state court of appeals was able to review the
constitutional claims at issue. Therefore, the seventh
ground is not barred by a failure to exhaust the claims
at the court of appeals.
However, to satisfy exhaustion, a habeas petitioner
must invoke “one complete round of the State’s
established appellate review process,” O’Sullivan, 526
U.S. at 845, which means that the highest court in the
state must also be given a full and fair opportunity to
rule on the claims, Rust, 17 F.3d at 160. Keahey’s
appeal to the state supreme court raised a single
proposition of law:
1. Whether the appellate court erred when
affirming the trial court’s denial of appellant’s
petition for postconviction relief without
remanding this case back to the trial court for an
evidentiary hearing.
(R. 7, RX 48.) Although presented as a single
proposition of law, Keahy’s brief in support argued the
merits of the underlying claims, including the
ineffective assistance of trial counsel claim, which he
asserted that the lower courts had ruled on
erroneously.
Therefore, the court considers the

54a
seventh ground to have been fairly presented to the
state courts, and not defaulted. The court will address
the merits of that ground below.
IV.

JURY INSTRUCTIONS

The first two grounds for relief concern jury
instructions. Petitioner contends:
1. The state trial court erred to the prejudice of
petitioner when denying the defense’s request for
a self-defense jury instruction which was an
affirmative defense to the crime charged denying
petitioner’s fundamental constitutional rights to
present a defense, due process of law, and right to
a fair trial guaranteed under the Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
2. The state trial court erred to the prejudice of
petitioner and abused its discretion when
declining to provide a jury instruction on
necessity as an affirmative defense to the crime
charged when sufficient evidence was submitted
to support such instruction denying petitioner’s
fundamental constitutional rights to present a
defense, due process of law, and right to a fair
trial guaranteed under the Fifth, Sixth, and the
Fourteenth Amendments to the United States
Constitution.
(R. 1-1, PageID #: 24, 34.)
On direct appeal, however, Keahey presented these
claims as follows:
1. The trial court erred to the prejudice of
Appellant and abused its discretion in declining

55a
to provide jury instructions on self-defense, an
affirmative defense to the crime charged.
2. The trial court erred to the prejudice of
Appellant and abused its discretion in declining
to provide jury instructions on necessity, an
affirmative defense to the crime charged.
(R. 7, RX 16, PageID #: 286.) Keahey did not present
his claims as federal claims, arguing instead that the
state court abused its discretion, and misapplied state
law, in its determination that he was not entitled to
jury instructions on self-defense or necessity. (R. 7,
RX 16, PageID #: 293–300.) The respondent, however,
does not argue that Keahey’s federal claims should be
barred on the basis that his federal claims were not
fairly presented to the state courts. See generally R. 7,
PageID #: 145–152.
The state court of appeals likewise addressed these
two claims as a matter of state law. The appellate
court stated:
In his first assignment of error, appellant asserts
that the trial court erred by refusing to instruct
the jury as to the affirmative defense of selfdefense. In support, appellant argues that the
trial court improperly found that his testimony
was not credible and refused to give a self-defense
instruction on that basis.
In State v. Lillo, 6th Dist. Huron No. H-10-001,
2010-Ohio-6221, ¶ 15, this court stated:
Generally, requested jury instructions
should be given if they are a correct
statement of the law as applied to the facts
in a given case. Murphy v. Carrollton Mfg.
Co., 61 Ohio St.3d 585, 575 N.E.2d 828

56a
(1991). A court’s instructions to a jury
“should be addressed to the actual issues in
the case as posited by the evidence and the
pleadings.” State v. Guster, 66 Ohio St.2d
266, 271, 421 N.E.2d 157 (1981). Prejudicial
error is found where, in a criminal case, a
court refuses to give an instruction that is
pertinent to the case, states the law
correctly, and is not covered by the general
charge. State v. Sneed, 63 Ohio St.3d 3, 9,
584 N.E.2d 1160 (1992).
Appellant correctly states that the inquiry into
whether sufficient evidence has been presented to
raise an affirmative defense is a matter of law
that is reviewed de novo. State v. Belanger, 190
Ohio App.3d 377, 2010-Ohio-5407, 941 N.E.2d
1265 ¶ 4 (3d Dist.). However, the trial court’s
ultimate decision to refuse the requested jury
instructions will not be overturned on appeal
absent a finding of abuse of discretion. Lillo,
supra, citing State v. Wolons, 44 Ohio St.3d 64, 68,
541 N.E.2d 443 (1989).
In cases where the requested instruction involves
an affirmative defense, the accused must show
that he or she “has introduced sufficient evidence
which, if believed, would raise a question in the
minds of reasonable people concerning the
existence of that defense.” State v. Carter, 4th
Dist. Ross No. 1 0CA3169, 2010-Ohio-6316, ¶ 58,
citing State v. Melchior, 56 Ohio St.2d 15, 381
N.E.2d 195, paragraph one of the syllabus. It is
the duty of the defendant to “first present
sufficient evidence at trial to warrant such an
instruction.” Belanger, at ¶ 3. Such evidence is

57a
to be viewed in a light most favorable to the
defendant. Id. Nevertheless, the trial court may
“omit any requested instructions that are not
correct statements of the law and applicable to
the case before it.” Id., citing State v. Scott, 26
Ohio St.3d 92, 497 N.E.2d 55 (1986).
In Ohio, “self-defense is an affirmative defense
that legally excuses admitted criminal conduct.”
State v. Edwards, 1st Dist. Hamilton No. C1
10773, 2013-Ohio-239, ¶ 5. To demonstrate the
affirmative defense of self-defense through deadly
force, an accused must show by a preponderance
of evidence that:
(1) [they were] not at fault in creating the
situation giving rise to the affray, (2) [they]
had a bona fide belief that they were in
imminent danger of death or great bodily
harm and their only means of escape from
such danger was the use of such force, and
(3) [they] must not have violated any duty to
retreat or avoid the danger. State v. Robbins,
58 Ohio St.2d 74, 338 N.E.2d 755 (1979),
paragraph two of the syllabus.
As to the first element, appellant testified at trial
that he decided at the last minute to drive to
Joyce’s house instead of meeting Kindra and K.K.
at the doctor’s office, and he did not know that
Prince would be dropping off his sons while
appellant was there. Appellant also testified that
he pulled out a gun and shot at Prince because
Prince had a knife in his hand and, based on the
events that occurred six weeks earlier, appellant
was afraid that Prince would stab him.

58a
Appellant stated that he did not immediately
retreat to his vehicle because Prince pulled out a
gun and he was afraid he would be shot in the
back if he turned to leave.
Before denying appellant’s request for a selfdefense instruction, the trial court noted that
appellant unilaterally decided to pick up Kindra
and K.K., and that text messages exchanged
between appellant and Kindra established a
possible motive for appellant to attack Prince.
The trial court also stated that appellant had a
means of escape, which he failed to utilize. Other
trial testimony established that no witnesses saw
Prince with a gun, no gun was ever recovered, and
the only knife that was found at the scene was
closed and lying on the ground.
It is undisputed that appellant and Kindra had
agreed to meet at the doctor’s office. Appellant’s
stated motive for changing his mind and going to
pick up Kindra and K.K. opened the door to the
trial court’s consideration of other motives,
including the content of the text messages
exchanged by appellant and Kindra. In addition,
appellant testified that he carried a gun that
morning despite the fact that, as a convicted
felon, he is prohibited from carrying a firearm.
As to the third element, appellant’s duty to
retreat, undisputed testimony was presented that
appellant arrived at Joyce’s home in a vehicle,
which he parked nearby on the street. Although
appellant testified that he was afraid to turn his
back on Prince and get into the vehicle, no
testimony was presented as to why appellant

59a
could not have retreated in any other direction, or
by any other method.
After considering the entire record in a light most
favorable to appellant, we find that appellant
failed to produce sufficient evidence to meet his
burden as to the first and third elements of the
affirmative defense of self-defense.
A
consideration of the second element, which
required appellant to show that he reasonably
believed he was in imminent danger of death or
serious bodily harm, is unnecessary. State v.
Robinson, 132 Ohio App.3d 830, 726 N.E.2d 581
(1st Dist., 1999).
Based on the foregoing, we conclude that the trial
court did not err or otherwise abuse its discretion
by refusing to provide the jury with a self-defense
instruction. Appellant’s first assignment of error
is not well-taken.
In his second assignment of error, appellant
asserts that the trial court erred by not
instructing the jury as to the affirmative defense
of necessity, as it relates to his conviction for
carrying a weapon while under disability. Citing
State v. Crosby, 6th Dist. Lucas No. L-03-1158,
2004-Ohio-4674, appellant argues that that he
presented sufficient evidence to support such a
defense, which “excuses a criminal act when the
harm which results from compliance with the law
is greater than that which results from a violation
of the law.”
As set forth above, “a trial court’s determination
as to whether the evidence produced at trial
warrants a particular instruction is reviewed for

60a
an abuse of discretion.” Burns v. Adams, 4th Dist.
Scioto No. 12CA3508, 2014-Ohio-1917, ¶ 52. “A
party must demonstrate not merely that the trial
court’s omission or inclusion of a jury instruction
was an error of law or judgment but that the
court’s attitude was unreasonable, arbitrary or
unconscionable.” Freedom Steel v. Rorabaugh,
11th Dist. Lake No.2007-L-087, 2008-Ohio-1330,
¶ 10.
The defense of necessity is not codified in Ohio
law, however, Ohio courts have held that the
common-law elements of the defense are:
(1) the harm must be committed under the
pressure of physical or natural force, rather
than human force; (2) the harm sought to be
avoided is greater than (or at least equal to)
that sought to be prevented by the law
defining the offense charged; (3) the actor
reasonably believes at the moment that his
act is necessary and is designed to avoid the
greater harm; (4) the actor must be without
fault in bringing about the situation; and (5)
the harm threatened must be imminent,
leaving no alternative by which to avoid the
greater harm. Dayton v. Thornsbury, 2d
Dist. Montgomery Nos. 16744, 16772, 1998
WL 598124 (Sept. 11, 1998).
Traditionally, the defense of necessity requires
pressure from physical forces, as opposed to the
defense of duress, which involves a human threat.
Id. In this case, appellant testified at trial that
he was forced to carry a gun because he was afraid
of Prince, in spite of the fact that he was legally

61a
forbidden to do so. Accordingly, appellant has not
established that the harm in this case resulted
from anything other than human action, as
opposed to a physical force. In addition, as stated
in our determination of appellant’s first
assignment of error, appellant failed to establish
that he was not at fault in creating the situation
that led to his decision to fire his gun, wounding
Prince and endangering the safety of children and
nearby adults.
On consideration of the foregoing, we find that
appellant has failed to establish the elements
necessary to support a jury instruction on the
affirmative defense of necessity. Accordingly, we
cannot say that the trial court abused its
discretion by refusing to give such an instruction.
Appellant’s second assignment of error is not
well-taken.
(R. 7, RX 20, PageID #: 394–399 Keahey, 2014 WL
5421028, at *9–*11.)
The state court of appeals’ determination was not
based on any decision of the U.S. Supreme Court.
Thus, the question for this habeas court is whether the
state court’s decision was contrary to clearly
established federal law as set forth by the Supreme
Court. A state court decision is “contrary to” clearly
established Supreme Court precedent “if the state
court applies a rule that contradicts the governing law
set forth in [Supreme Court] cases.” Williams, 529
U.S. at 405. A state court decision is also “contrary to”
clearly established Supreme Court precedent “if the
state court confronts a set of facts that are materially
indistinguishable from a decision of [the Supreme

62a
Court] and nevertheless arrives at a result different
from [Supreme Court] precedent.” Id. at 406. See also
Price, 538 U.S. at 640.
The respondent argues that Keahey failed to
demonstrate that the state court’s rulings were
contrary to U.S. Supreme Court precedent. (R. 7,
PageID #: 151–152.) This court agrees, although the
basis for this court’s determination differs from that
put forward by the respondent.
Keahey contends that “the Sixth Circuit has held
that the right to assert a self-defense is a fundamental
right.” (R. 10, PageID #: 2337, citing Taylor v.
Withrow, 288 F.3d 846 (6th Cir. 2002).) He concedes
that “whether the facts of the case warrant a jury
instruction on self-defense remains a question for the
state courts.” (R. 10, PageID #: 2337.) He then argues
that the state court’s decision cannot survive habeas
review, because he presented sufficient evidence to
require an instruction on self-defense. In support,
Keahey cites Taylor v. Withrow, a Sixth Circuit case
discussed below, but he does not point to a Supreme
Court decision which supports his argument on jury
instructions. Id.
The Supreme Court, in California v. Trombetta,
affirmed the general principle that the Due Process
Clause of the Fourteenth Amendment requires that
criminal defendants are to be afforded “a meaningful
opportunity to present a complete defense.” California
v. Trombetta, 467 U.S. 479, 485 (1984). Trombetta was
concerned with the preservation of evidence, not with
self-defense or jury instructions. In Taylor v. Withrow,
cited by Keahey, the Sixth Circuit found: “A necessary
corollary of this holding [Trombetta] is the rule that a

63a
defendant in a criminal trial has the right, under
appropriate circumstances to have the jury instructed
on his or her defense, for the right to present a defense
would be meaningless were a trial court completely
free to ignore that defense when giving instructions.”
Taylor, 288 F.3d at 852. The Sixth Circuit recognized
that there was no Supreme Court decision
“unmistakably setting down this precise rule,” but
found that the lack of an explicit statement was not
determinative. Id. The court asserted that “in certain
circumstances refusing to instruct a jury properly on
self-defense can so taint the resulting verdict as to be
an error of constitutional dimension.” Id. (citing
cases). Following this line of reasoning, the Sixth
Circuit also ruled that “failure to instruct a jury on
self-defense when the instruction has been requested
and there is sufficient evidence to support such a
charge violates a criminal defendant’s rights under the
due process clause.” Newton v. Million, 349 F.3d 873,
878 (6th Cir. 2003) (quoting Taylor, 288 F.3d at 851).
Taylor and Newton were decided in 2002 and 2003.
Since that time, the Supreme Court has repeatedly
stated that the AEDPA prohibits federal habeas courts
from relying on precedent from the federal courts of
appeals to conclude that a particular constitutional
principle is “clearly established.” See, e.g., Lopez v.
Smith, 135 S.Ct. 1, 2 (2014) (per curiam). The
Supreme Court has emphasized that “circuit
precedent does not constitute ‘clearly established
Federal law, as determined by the Supreme Court.’”
Glebe v. Frost, 135 S. Ct. 429, 431 (2014) (per curiam);
Parker v. Matthews, 132 S. Ct. 2148, 2155 (2012) (per
curiam) (citing Renico v. Lett, 559 U.S. 766, 778–779
(2010)). The Court has stated that the petitioner must

64a
demonstrate Supreme Court case law which clearly
establishes the legal proposition needed to grant
habeas relief. Lopez, 135 S.Ct.at 4. The Court recently
re-affirmed that circuit court precedent cannot “refine
or sharpen a general principle of Supreme Court
jurisprudence into a specific legal rule that this Court
has not announced.” Lopez, 135 S.Ct.at 4 (quoting
Marshall v. Rodgers, 133 S. Ct. 1446, 1450 (2013) (per
curiam)); see also Shimel v. Warren, 838 F.3d 685,
695–696 (6th Cir. 2016) (citing Lopez).
The Sixth Circuit in Taylor also noted that “the
holding in Mathews has been taken by some courts as
setting out a right to a jury instruction on selfdefense.” Taylor, 288 F.3d at 852 (citing Mathews v.
United States, 485 U.S. 58, 63 (1988)). In the habeas
context, Mathews does not support such a finding. In
Mathews, the Supreme Court was sitting in review on
direct appeal: “This case requires the Court to decide
whether a defendant in a federal criminal prosecution
who denies commission of the crime may nonetheless
have the jury instructed, where the evidence
warrants, on the affirmative defense of entrapment.”
Mathews, 485 U.S. at 59. The Court’s decision was
based on the federal criminal law of entrapment, and
the Court acknowledged that its ruling was not
compelled by the Constitution. Mathews, 485 U.S. at
66; see also id. at 69 (White, J., dissenting). Mathews
does not support a finding that Keahey’s theory on jury
instructions is supported by clearly established federal
law, as determined by the Supreme Court.
Keahey has not demonstrated that the state court
decision was contrary to clearly established federal
law, as determined by the Supreme Court of the

65a
United States. The petition should not be granted on
the basis of the first ground.
In his arguments concerning the second ground,
jury instructions on necessity, Keahey does not discuss
any federal law. See generally R. 10, PageID #: 2339–
2340. His discussion concludes, however, that “for the
same reasons set forth regarding self-defense,” the
state court decision cannot survive habeas review. Id.
at 2340. Again, Keahey has not demonstrated that the
state court decision was contrary to clearly established
federal law, as determined by the Supreme Court of
the United States. The petition should not be granted
on the basis of the second ground.
V.

INEFFECTIVE ASSISTANCE OF
APPELLATE COUNSEL

The third, fourth, fifth and sixth grounds of the
petition are based on an ineffective assistance of
appellate counsel theory, and assert:
3. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a claim on direct appeal that
petitioner’s offenses of improperly discharging a
firearm at or into a habitation under R.C.
2923.161(A)(1), and attempted murder under
R.C. 2923.02(A), should have been merged for
sentencing as allied offenses under R.C.
2941.25(A), violating petitioner’s constitutional
rights under the Double Jeopardy Clause and
right to effective assistance of counsel guaranteed
by the Fifth, Sixth, and the Fourteenth
Amendments to the United States Constitution.

66a
4. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a claim on direct appeal that
petitioner was denied his constitutional right to
be present at critical stages of the trial
proceedings violating petitioner’s rights under
the Fifth, Sixth, and the Fourteenth Amendments
to the United States Constitution.
5. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a sufficiency of evidence claim on
direct appeal in regards to Count Eight for
improperly discharging a firearm at or into a
habitation under R.C. 2923.161(A), violating
petitioner’s [rights under the] Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
6. The petitioner was denied effective
assistance of appellate counsel when counsel
failed to raise a claim on direct appeal regarding
the trial court’s denial of trial counsel’s motion for
mistrial when the bailiff came into contact with a
juror in violation of R.C. 2945.33, violating
petitioner’s [rights under the] Fifth, Sixth, and
the Fourteenth Amendments to the United States
Constitution.
(R. 1-1, PageID #: 41, 46, 54, 59.)
Keahey raised these issues in his application to
reopen his appeal pursuant to Ohio App. Rule 26(B).
(R. 7, RX 27.) The court of appeals denied his
application to reopen. (R. 7, RX 30.) The court
reviewed the issues presented, and found that Keahey
had failed to raise a colorable claim of ineffective

67a
assistance of appellate counsel. (R. 7, RX 30, PageID
#: 570.)
Under the Sixth Amendment to the U.S.
Constitution, “the right to counsel is the right to
effective assistance of counsel.” Missouri v. Frye, 132
S.Ct. 1399, 1404 (2012); Joshua v. DeWitt, 341 F.3d
430, 437 (6th Cir. 2003) (quoting McMann v.
Richardson, 397 U.S. 759, 771 n.14 (1970)). A criminal
appellant is constitutionally entitled to the effective
assistance of counsel in his direct appeal, as well as at
trial. Evitts v. Lucey, 469 U.S. 387 (1985).
The Sixth Circuit discussed the general standard for
ineffective assistance of counsel in Monzo v. Edwards:
To establish ineffective assistance of counsel
under Strickland, the defendant must show that
his counsel’s performance fell below an objective
standard of reasonableness and that his counsel’s
errors were so serious as to prejudice the
defendant. Review of counsel’s performance is
highly deferential and requires that courts
“indulge a strong presumption that counsel’s
conduct falls within a wide range of reasonable
professional assistance.” To establish prejudice,
the defendant “must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.
A reasonable
probability is a probability sufficient to
undermine confidence in the outcome.”
Monzo, 281 F.3d at 579 (internal citations omitted).
See generally Strickland v. Washington, 466 U.S. 668,
689 (1984) (two-part test).

68a
In the habeas context, this court considers
petitioner’s ineffective assistance claim “within the
more limited assessment of whether the state court’s
application of Strickland to the facts of this case was
objectively unreasonable.” Washington v. Hofbauer,
228 F.3d 689, 702 (6th Cir. 2000). The Supreme Court
has affirmed that this court must approach the state
court’s rulings in a highly deferential manner. The
Court stated in Harrington v. Richter that the “pivotal
question” of whether the state court’s application of
Strickland standard was unreasonable is different
from simply deciding whether counsel’s performance
fell below Strickland’s standard.
Harrington v.
Richter, 562 U.S. 86, 101, 131 S.Ct. 770, 785 (2011).
The focus on habeas review is “not whether counsel’s
actions were reasonable,” rather, the question is
“whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.”
Richter, 562 U.S. at 105.
Richter instructed that the petitioner must show
that the ruling of the state court “was so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement.” Richter, 562
U.S. at 103; see also Montgomery v. Bobby, 654 F.3d
668, 676 (6th Cir. 2011) (en banc), cert. denied, 132
S.Ct. 2376 (2012) (quoting Richter). The Court
acknowledged that, under the AEDPA, this standard
was “difficult to meet,” however, it was “meant to be”
so. Id. at 102; see also Montgomery, 654 F.3d at 676.
A.

Allied Offenses

The state court addressed the third ground (failure
to raise claim of merger of allied offenses) as follows:

69a
In his second argument, appellant asserts that
his appeal should be reopened because appellate
counsel failed to argue that his convictions for
attempted murder and improper discharge of a
firearm at or into a habitation should have been
merged at sentencing. In support, appellant
argues that the two offenses “occurred on the
same day, and from the same incident, and same
conduct * * *.” We disagree, for the following
reasons.
The Ohio Supreme Court has held that “the
imposition of multiple sentences for allied
offenses of similar import is plain error. State v.
Underwood, 124 Ohio St.3d 365, 2010-Ohio-1, 922
N.E.2d 923, ¶ 31, citing State v. Yarbrough, 104
Ohio St.3d 1, 2004-Ohio-6087, 817 N.E.2d 845,
¶ 96–102. Our determination as to whether
offenses are allied offenses of similar import is de
novo. State v. Williams, 134 Ohio St.3d 482, 2012Ohio-5699, 983 N.E.2d 1245, ¶ 1.
Pursuant to R.C. 2941.45:
(A) Where the same conduct by [a]
defendant can be construed to constitute two
or more allied offenses of similar import, the
indictment or information may contain
counts for all such offenses, but the
defendant may be convicted of only one.
(B) Where
the
defendant’s
conduct
constitutes two or more offenses of dissimilar
import, or where his conduct results in two
or more offenses of the same or similar kind
committed separately or with a separate
animus as to each, the indictment or

70a
information may contain counts for all such
offenses, and the defendant may be convicted
of all of them.
In State v. Johnson, 128 Ohio St.3d 153, 2010Ohio-6314, 942 N.E.2d 1061, the Ohio Supreme
Court held that:
In determining whether offenses are allied
offenses of similar import under R.C.
2941.25(A), the question is whether it is
possible to commit one offense and commit
the other with the same conduct, not
whether it is possible to commit one without
committing the other. *** If the offenses
correspond to such a degree that the conduct
of the defendant constituting commission of
one offense constitutes commission of the
other, then the offenses are of similar import.
If the multiple offenses can be committed by
the same conduct, then the court must
determine whether the offenses were
committed by the same conduct, i.e., “a single
act, committed with a single state of mind.”
***
If the answer to both questions is yes, then
the offenses are allied offenses of similar
import and will be merged. Conversely, if the
court determines that the commission of one
offense will never result in the commission of
the other, or if the offenses are committed
separately, or if the defendant has a separate
animus for each offense, then, according to
R.C. 2941.25(B), the offenses will not merge.
Id. at ¶ 48–50.

71a
Two offenses are of dissimilar import if they are
either: (1) a single act, defined in terms of conduct
toward another, that is, committed against
multiple victims, or (2) the same offense [that] is,
committed toward more than one victim during
the same course of conduct. State v. Clayton, 9th
Dist. Summit No. 26910, 2014-Ohio-2165, ¶ 30.
(Citations omitted.) For example, in a case where
the setting of one fire resulted in multiple victims,
an Ohio court recently held that “separate victims
alone established a separate animus for each
offense.” State v. Crawley, 8th Dist. Cuyahoga
No. 99636, 2014-Ohio-921, ¶ 41, citing State v.
Rogers, 2013-Ohio-2124, 994 N.E.2d 499 (8th
Dist.), conflict certified, 136 Ohio St.3d 1508,
2013-Ohio-4657, 995 N.E.2d 1212.
The crime of attempted murder is defined in R.C.
2903.02(B) in terms of conduct towards another,
in that the statute “prohibit[s] a defendant from
causing or attempting to cause the death of
another.” State v. Hubbard, 10th Dist. Franklin
No. 11AP-945, 2013-Ohio-2735, ¶ 80. The crime
of improperly discharging a firearm at or into a
habitation is prohibited by R.C. 2923.161(A),
which states, in relevant part, that: “No person,
without privilege to do so, shall* * *[d]ischarge a
firearm at or into an occupied structure that is a
permanent or temporary habitation of any
individual * * *.”
It is undisputed that one of the bullets that
appellant fired at the victim, Prince Hampton,
also entered the nearby home of Brunell
Hendrickson. Accordingly, because there were
two separate victims in this case, there was a

72a
separate animus to support each offense, and they
need not be merged at sentencing. Appellant’s
argument that his appellate counsel was
ineffective for failing to raise this issue on appeal
is, therefore, meritless. State v. Tabasso, 8th
Dist. Cuyahoga No. 98248, 2013-Ohio-3721, ¶ 5,
citing Jones v. Barnes, 463 U.S. 745, 103 S.Ct.
3308, 77 L.Ed.2d 987 (1983).
(R. 7, RX 30, PageID #: 560–563.)
The state court found that appellate counsel was not
ineffective because the issue that Keahey asserts
counsel should have raised was without merit.
Appellate counsel’s failure to raise a legal claim which
lacks merit cannot be found to violate Strickland’s
deferential standard.
In his Traverse, Keahey argues that appellate
counsel should have focused on elements of the
crime(s) that he views as improperly decided by the
state court. (R. 10, PageID #: 2344–2345.) In his
appellate brief, Keahey’s argument was somewhat
simpler; basically, that because his conduct, and
animus, was specifically directed at Prince, the two
offenses should have been merged. (R. 7, RX 27,
PageID #: 508–509.) The state court’s decision rested
on the fact that, under Ohio law, “because there were
two separate victims in this case, there was a separate
animus to support each offense, and they need not be
merged at sentencing.” (R. 7, RX 30, PageID #: 563.)
Reviewing the state court’s ruling in accordance
with the guidance set forth by the U.S. Supreme Court
in Richter, the court finds that Keahey has failed to
demonstrate that ruling of the state court “was so
lacking in justification that there was an error well

73a
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Richter,
562 U.S. at 103. Keahey has failed to establish that
the state court decision involved an unreasonable
application of clearly established federal law, as
determined by the Supreme Court. The petition
should not be granted on the basis of the third ground.
B.

Defendant’s Presence at Trial

The state court addressed the fourth ground (failure
to raise claim of right to be present at trial) as follows:
In his third argument, appellant asserts that his
appeal should be reopened because appellate
counsel was ineffective for failing to argue that
his constitutional right to be present during
“critical stages” of the trial court’s proceedings
was violated. In support, appellant argues that
his appointed trial counsel improperly waived his
right to be present during: (1) proceedings
regarding the dismissal of a juror, (2) the jury
view of the crime scene, (3) arguments regarding
jury instructions and “counsel’s motion to
suppress or limine,” and (4) “three separate
hearings related to notes from the jury during
there [sic] deliberations.”
Generally, an accused has a fundamental right to
be present at all critical stages of his criminal
trial. Crim.R. 43(A). However, “the presence of a
defendant is a condition of due process to the
extent that a fair and just hearing would be
thwarted by his absence and to that extent only.”
Snyder v. Massachusetts, 291 U.S. 97, 107–108,
54 S.Ct. 330, 78 L.Ed. 674 (1934). An accused’s
claim that his or her unwaived presence from a

74a
proceeding amounts to prejudice per se was
rejected in State v. Hale, 119 Ohio St.3d 118, 892
N.E.2d 864, 2008-Ohio-3426, in which the Ohio
Supreme Court found that such claims will not
succeed absent a showing of prejudice. Id. at
¶ 103.
As to appellant’s first claim, a review of the record
shows that on the fourth day of appellant’s trial,
after the case was submitted to a jury, a bailiff
had a conversation over the lunch hour with one
of the jurors, Ruth Keegan. Upon being notified
of the conversation, the trial court interviewed
both the bailiff and Keegan concerning the
content of their conversation. Both individuals
stated that they were acquainted because their
children played sports together. The bailiff also
indicated that he made favorable comments to
Keegan about the integrity of the trial judge.
After interviewing the bailiff and Keegan, the
trial court and counsel for appellate and the state
interviewed each juror individually. Defense
counsel waived appellant’s presence during those
interviews. None of the jurors stated that they
heard the bailiff speak about the trial judge.
Several jurors stated that they knew Keegan and
the bailiff were talking about their children.
None of the jurors said that their view of
appellant or the case was tainted in any way by
the conversation. After the interviews were
concluded, Keegan was dismissed as a juror and
was replaced by an alternate.
Upon consideration, we find that the record does
not show a violation of due process that rises to

75a
the level of preventing appellant from having a
fair trial. Accordingly, appellant’s claim that he
was prejudiced by appellate counsel’s failure to
raise this issue on appeal is without merit.
As to appellant’s second claim, R.C. 2945.16
provides:
When it is proper for the jurors to have a
view of the place at which a material fact
occurred, the trial court may order them to
be conducted in a body *** to such place,
which shall be shown to them by a person
designated by the court. *** The accused
has the right to attend such view by the jury,
but may waive such right.
The record shows that appellant’s attorney
waived appellant’s, and his own, presence at the
jury view. The issue of whether trial counsel was
ineffective for not personally attending the jury
view was addressed by this court in State v.
Keahey, 6th Dist. Erie No. E-13-055, 2014-Ohio4971. In that case, we found appellant presented
no evidence that he was prejudiced by trial
counsel’s failure to attend the jury view.
Similarly, in this instance, the trial court’s record
shows that appellant and his trial counsel had
input concerning the nature and scope of the jury
view.
Beyond that, the record contains no
evidence that appellant was materially
prejudiced by not attending the jury view and
personally apprising the jury of “points of
interest.” Without such a showing, appellant
cannot establish that his due process rights were
violated and his second claim is without merit.

76a
State v. Were, 118 Ohio St.3d 448, 2008-Ohio2762, 890 N.E.2d 263, ¶ 98.
As to appellant’s third claim, we note initially
that appellant was present during discussions
regarding proposed jury instructions. Appellant
was not present when defense counsel made a
successful verbal motion to limit evidence at trial
regarding appellant’s involvement with drugs.
However, a review of the record shows that
counsel sought to exclude such evidence so that
appellant would not look like a “big drug dealer”
to the jury. Accordingly, appellant has not
demonstrated prejudice in these instances, and
his claim to the contrary is without merit.
As to appellant’s fourth claim, the record shows
that defense counsel waived appellant’s presence
each time the jury sent out a note. However, a
thorough review of each of those instances reveals
no prejudice to appellant, for the following
reasons: (1) in its first note, the jury asked why
they were not allowed to consider Count 1 of the
indictment, which was not even before the jury for
consideration, (2) in its second note, the jury
asked for lunch, (3) in its third note, the jury
asked to review police and hospital reports, to
which the court replied that the jury should rely
on trial testimony evidence that was already
submitted in reaching its decision, and (4) the
jury’s final communication was to state that it
had reached a verdict.
On consideration of the foregoing, we find that
appellant has failed to demonstrate that he
suffered material prejudice as a result of his

77a
absence
during
the
above
proceedings.
Appellant’s claim that his appellate counsel was
ineffective for not making such an argument is,
therefore, meritless.
(R. 7, RX 30, PageID #: 563–567.)
The state court found that Keahey had failed to
demonstrate that he suffered any material prejudice
through his absence.
See generally Snyder v.
Massachusetts, 291 U.S. 97 (1934). Thus, the court
rejected Keahey’s arguments that he had suffered
prejudice. See R. 7, RX 29, PageID #: 543–545.
Appellate counsel’s failure to raise a legal claim which
lacks merit cannot be found to violate Strickland’s
deferential standard.
Reviewing the state court’s ruling in accordance
with the guidance set forth by the U.S. Supreme Court
in Richter, the court finds that Keahey has failed to
demonstrate that ruling of the state court “was so
lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Richter,
562 U.S. at 103. Keahey has failed to establish that
the state court decision involved an unreasonable
application of clearly established federal law, as
determined by the Supreme Court. The petition
should not be granted on the basis of the fourth
ground.
C.

Sufficiency of the Evidence

The state court addressed the fifth ground (failure
to raise claim of sufficiency of the evidence) as follows:
. . . appellant asserts that his appointed appellate
counsel was ineffective for failing to argue that
insufficient evidence was presented to support his

78a
conviction for improper discharge of a firearm at
or into a habitation. In support, appellant argues
that his Crim.R. 29 motion for acquittal should
have been granted because he “had no intent, or
awareness, that his conduct would have resulted
in the shooting of Brunell Hendrickson’s
residence.”
It is axiomatic that “a court shall not order an
entry of judgment of acquittal if the evidence is
such that reasonable minds can reach different
conclusions as to whether each material element
of a crime has been proved beyond a reasonable
doubt.” State v. Bridgeman, 55 Ohio St.2d 261,
381 N.E.2d 184 (1978), syllabus. The term
“sufficiency” of the evidence presents a question
of law as to whether the evidence is legally
adequate to support a jury verdict as to all
elements of the crime. State v. Thompkins, 78
Ohio St.3d 380, 386, 678 N.E.2d 541 (1997). The
relevant inquiry in such cases is “whether, after
viewing the evidence in a light most favorable to
the prosecution, any rational trier of fact could
have found the essential elements of the crime
proven beyond a reasonable doubt.” State v.
Jenks, 61 Ohio St.3d 259, 574 N.E.2d 492 (1991),
paragraph two of the syllabus.
As stated above, R.C. 2923.161(A) provides, in
relevant part, that: “No person, without privilege
to do so, shall knowingly * * *[d]ischarge a
firearm at or into an occupied structure that is a
permanent or temporary habitation of any
individual * * *.” Pursuant to R.C. 2901.22(B), “A
person acts knowingly, regardless of his purpose,
when he is aware that his conduct will probably

79a
cause a certain result or will probably be of a
certain nature. A person has knowledge of
circumstances when he is aware that such
circumstances probably exist.”
Appellant argues that insufficient evidence was
presented to support his conviction because he did
not “knowingly” shoot into Hendrickson’s house.
However, it is undisputed that appellant
deliberately shot at Hampton in a residential
neighborhood. Accordingly, after considering all
of the circumstances presented in this case, we
conclude that there was sufficient evidence
presented to support the element of “knowingly”
and, therefore, an acquittal pursuant to Crim.R.
29 would have been inappropriate as to the crime
of improper discharge of a firearm into an
occupied structure. Because the trial court’s
decision was not erroneous, appellant’s claim that
appellate counsel was ineffective for failing to
raise the issue on appeal is not well-taken and his
fifth argument in favor of reopening his appeal is
meritless.
(R. 7, RX 30, PageID #: 568–570.)
Reviewing the state court’s ruling in accordance
with the guidance set forth in Richter, the court finds
that Keahey has failed to demonstrate that ruling of
the state court “was so lacking in justification that
there was an error well understood and comprehended
in existing law beyond any possibility for fairminded
disagreement.” Richter, 562 U.S. at 103. Keahey has
failed to establish that the state court decision
involved an unreasonable application of clearly
established federal law, as determined by the

80a
Supreme Court. The petition should not be granted on
the basis of the fifth ground.
D.

Motion for Mistrial

The state court addressed the sixth ground (failure
to raise claim that trial court erred in denying
mistrial) as follows:
. . . appellant asserts that his appellate counsel
was ineffective for failing to challenge the trial
court’s denial of a mistrial after the court bailiff
“came into contact with a juror in violation of R.C.
2945.33.” In support, appellant argues that a
violation of R.C. 2945.33 “will be presumed
prejudicial and grounds for a mistrial.”
In reviewing the denial of a mistrial, an appellate
court will give deference to the decision of the
trial court, which was in the best position to
determine whether such an extreme remedy was
warranted. State v. Carter, 6th Dist. Lucas No. L13-1255, 2014-Ohio-5212, ¶ 16; State v. Glover, 35
Ohio St.3d 18, 19, 517 N.E.2d 900 (1988).
Accordingly, “a trial court’s denial of a motion for
mistrial will not be reversed absent an abuse of
discretion.” Id., citing State v. Rossbach, 6th Dist.
Lucas No. L-09-1300, 2011-Ohio-281 ¶ 39.
Improper communication between a bailiff and
jurors in a criminal trial may be grounds for a
mistrial pursuant to R.C. 2945.33 which states, in
relevant part, that:
[the
bailiff]
shall
not
permit
a
communication to be made to [the jury], nor
make any himself except to ask if they have
agreed upon a verdict, unless he does so by
order of the court. Such officer shall not

81a
communicate to any person, before the
verdict is delivered, any matter in relation to
their deliberation.
However, communications that are outside the
bounds expressed in R.C. 2945.33 are not
presumed to be prejudicial if they do not rise to
the level of misconduct. State v. Glenn, 1st Dist.
Hamilton No. C-090205, 2011-Ohio-829, ¶ 86. In
this case, as set forth above, communications
were confined to comments between the bailiff
and one juror, concerning their children who,
years earlier, played sports together. The record
also shows that the bailiff made favorable
statements about the trial court judge to that one
juror. When the communications were discovered
by the court, the bailiff, the affected juror, and all
the other jurors were interviewed by the court
and counsel for both parties. In addition, the
court administrator, assistant administrator, and
court magistrate were interviewed. Thereafter,
the court determined that none of the jurors were
influenced by the communication. Nevertheless,
the juror who spoke directly to the bailiff was
dismissed from the jury and replaced by an
alternate.
Upon consideration, we find that:
(1) the
communication between the bailiff and the one
juror, Ruth Keegan, was outside the bounds of
presumed prejudicial comments as expressed in
R.C. 2945.33, and (2) no prejudice to appellant
resulted
from
those
communications.
Accordingly, appellant’s fourth argument is
meritless.

82a
(R. 7, RX 30, PageID #: 567–568.)
Reviewing the state court’s ruling in accordance
with the guidance set forth in Richter, the court finds
that Keahey has failed to demonstrate that ruling of
the state court “was so lacking in justification that
there was an error well understood and comprehended
in existing law beyond any possibility for fairminded
disagreement.” Richter, 562 U.S. at 103. Keahey has
failed to establish that the state court decision
involved an unreasonable application of clearly
established federal law, as determined by the
Supreme Court. The petition should not be granted on
the basis of the sixth ground.
VI.

INEFFECTIVE ASSISTANCE OF TRIAL
COUNSEL

The court now returns to the merits of the seventh
ground of the petition, which alleges ineffective
assistance of trial counsel, as follows:
The petitioner was denied effective assistance of
trial counsel when counsel failed to investigate
and subpoena certain defense witnesses to testify
at trial, failed to request forensic testing on the
knife found at the scene for DNA or fingerprints,
failed to secure the petitioner’s presence at the
jury view, and failed to move for recusal of the
judge based on an actual conflict of interest
violating the petitioner’s [rights under the] Fifth,
Sixth, and the Fourteenth Amendments to the
United States Constitution.
The claims in the seventh ground were raised before
the trial court in Keahey’s petition for post-conviction
relief, and subsequently addressed by the court of

83a
appeals. (R. 7, RX 38, 46.) The state court of appeals
addressed his claims by first setting out the proper
standards for assessing a claim of ineffective
assistance. (R. 7, RX 46, PageID #: 884–885; Keahey,
2014 WL 5794329, at *7 (citing State v. Bradley, 42
Ohio St.3d 136, 538 N.E.2d 373 (1989) (syllabus); and
Strickland v. Washington, 466 U.S. 668 (1984).)
The appellate court then addressed his specific
claims:
Appellant argues that his defense counsel was
ineffective for failing to properly investigate the
issue of which witnesses to call at trial.
Specifically, appellant claims that counsel should
have called Prince and William Myers as defense
witnesses.
“[C]omplaints of uncalled witnesses are not
favored, because the presentation of testimonial
evidence is a matter of trial strategy and because
allegations of what a witness would have testified
are largely speculative.” State v. Philips, 5th
Dist. Stark No.2010 CA 00338, 2011-Ohio-6569, ¶
26, quoting Buckelew v. United States, 575 F.2d
515, 521 (5th Cir.1978). Generally, trial counsel
is entitled to a strong presumption that decisions
regarding investigation and the calling of trial
witnesses “fall within the wide range of
reasonable professional assistance.” Shuster, 5th
Dist. Morgan No. 14 AP 0003, 2014-Ohio-4144, at
¶ 20, citing State v. Sallie, 81 Ohio St.3d 573, 675,
693 N.E.2d 267 (1998). The decision of whether
or not to call a particular defense witness “falls
within the rubric of trial strategy and will not be
second-guessed by a reviewing court.” State v.

84a
Were, 118 Ohio St.3d 448, 2008-Ohio-2762, 980
N.E.2d 263, ¶ 222, quoting State v. Treesh, 90
Ohio St.3d 460, 490, 739 N.E.2d 749 (2001).
The record shows that defense counsel conducted
an in-depth cross-examination of each of the
witnesses named by appellant with the exception
of Prince and Myers, who did not testify at trial.
As to those two individuals, appellant’s assertion
that Prince would have admitted owning the
knife on Joyce’s driveway and carrying a gun on
June 20, 2011, is self-serving and speculative at
best. Defense counsel’s decision not to call Myers
to testify for the defense was addressed during
the trial, when defense counsel told the court he
would not be calling Myers to the stand because
he is a “loose cannon.”
Upon consideration of the foregoing, we agree
with the trial court that defense counsel
adequately
demonstrated
“his
knowledge/investigation of the facts of the case”
during the course of the trial.
Appellant’s
arguments to the contrary are without merit.
Appellant further claims that counsel was
ineffective because he did not insist on testing the
knife for Prince’s DNA. Appellant argues that the
presence of Prince’s DNA on the knife would have
bolstered his claim that Prince threatened him
with a weapon.
Testimony was presented at trial that Prince
attacked appellant with a knife in May 2011.
Although no witness saw Prince holding a knife
on June 20, 2011, testimony was presented that
Prince owns and has been known to carry a knife.

85a
However, even if Prince’s DNA were detected on
knife through testing, such evidence would do
nothing to show that Prince actually threatened
appellant with that particular weapon.
Accordingly, appellant was not unduly prejudiced
by defense counsel’s decision not to insist that
DNA tests be performed on the knife.
Appellant also claims that defense counsel was
ineffective for not presenting expert testimony to
show that four of the nine bullets recovered from
the crime scene could have been fired by a gun
other than his own. Appellant argues that his
expert’s testimony, along with Myers’ testimony,
would have supported his claim that Prince fired
a gun and he responded by firing at Prince in selfdefense.
Appellant’s claim of failure to secure expert
ballistics testimony was not raised in appellant’s
petition for post-conviction relief, and the right to
assert it in this appeal, has been waived. See
State v. Barb, 8th Dist. Cuyahoga No. 94054,
2010-Ohio5239, ¶ 25 (Citations omitted.)
Nevertheless, since the ultimate question is
whether appellant was prejudiced by counsel’s
alleged ineffectiveness, we will analyze the issue
further.
It is well-settled that “‘[t]he failure to call an
expert and instead rely on cross-examination does
not constitute ineffective assistance of counsel.’”
State v. Jones, 9th Dist. Summit No. 26226, 2012Ohio-2744, ¶ 18, quoting State v. Nicholas, 66
Ohio St.3d 431, 436, 613 N.E.2d 225 (1993). In
this case, the record shows that defense counsel

86a
cross-examined the state’s witnesses on the issue
of whether four of the nine recovered bullets could
have been fired from a second gun. Appellant’s
claim that an expert would have been able to
definitively state that bullets were recovered from
two different guns is purely speculative.
Accordingly, upon consideration, we cannot say
that appellant was unduly prejudiced by defense
counsel’s failure to obtain expert ballistics
testimony in this case.
As to appellant’s claim that counsel was
ineffective for failing to attend the jury view to
“point out critical facts to the jury” to support
appellant’s contention that he did not have a
means of safely retreating, which is a critical
element of the affirmative defense of self-defense.
We disagree, for the following reasons.
R.C. 2945.16 states:
When it is proper for the jurors to have a
view of the place at which a material fact
occurred, the trial court may order them to
be conducted in a body, under the charge of
the sheriff or other officer, to such place,
which shall be shown to them by a person
designated by the court. While the jurors are
absent on such view no person other than
such officer and such person so appointed,
shall speak to them on any subject connected
with the trial. The accused has the right to
attend such view by the jury, but may waive
this right.
The record shows that, after reviewing the
prosecution’s plans for the jury view, defense

87a
counsel submitted written “points of interest” of
his own for the jury to consider, including the
location of Prince’s vehicle on Joyce’s driveway,
and placement of the knife and sandals in relation
to the vehicle. Counsel said he did not plan on
attending because he submitted issues for the
jury’s consideration and he had viewed the “area
numerous times” in the past. Defense counsel
further stated that, after discussing the issue
with appellant, appellant did not “really feel the
need” to attend the jury view.
“[I]t is well-settled law in Ohio that a petitioner
may not raise issues in a petition for postconviction relief which could have been raised on
direct appeal.” State v. Harrison, 8th Dist. No.
79434, 2002 WL 450130, *2 (Mar. 14, 2002).
Issues that can be raised on appeal include claims
that a defendant received ineffective assistance of
counsel due to his absence during the jury view.
See State v. Stivender, 2d Dist. Montgomery No.
19094, 2002-Ohio-6864. Accordingly, this issue is
barred by the doctrine of res judicata. Harrison,
supra.
However, even if appellant’s claim is not barred,
post-conviction relief is available only for errors
that are based on evidence that is outside the trial
court’s record.
State v. Turner, 8th Dist.
Cuyahoga No. 91695, 2008-Ohio-6648, ¶ 8.
Appellant has failed to present any evidence to
show that he has suffered prejudice by his and
counsel’s absence from the jury view, other than
to opine that defense counsel could have educated
the jury as to his “retreat theory” if he attended
the jury view.
Stivender, supra, at ¶ 11.

88a
Accordingly appellant has not demonstrated that
his trial counsel was ineffective for not attending,
or insisting that appellant attend the jury view.
(R. 7, RX 46, PageID #: 885–889; Keahey, 2014 WL
5794329, at *7–*10.)
As discussed earlier, the Sixth Amendment right to
counsel “is the right to effective assistance of counsel.”
Frye, 132 S.Ct. at 1404 (2012); Joshua, 341 F.3d at
437. The general standard for ineffective assistance of
counsel was set out in Monzo v. Edwards:
To establish ineffective assistance of counsel
under Strickland, the defendant must show that
his counsel’s performance fell below an objective
standard of reasonableness and that his counsel’s
errors were so serious as to prejudice the
defendant. Review of counsel’s performance is
highly deferential and requires that courts
“indulge a strong presumption that counsel’s
conduct falls within a wide range of reasonable
professional assistance.” To establish prejudice,
the defendant “must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.
A reasonable
probability is a probability sufficient to
undermine confidence in the outcome.”
Monzo, 281 F.3d at 579 (internal citations omitted).
See generally Strickland, 466 U.S. at 689 (two-part
test).
This court must approach the state court’s rulings
in a highly deferential manner. Richter stated that the
“pivotal question” of whether the state court’s
application of Strickland standard was unreasonable

89a
is different from simply deciding whether counsel’s
performance fell below Strickland’s standard. Richter,
562 U.S. at 101. The focus is “not whether counsel’s
actions were reasonable,” rather, the question is
“whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.”
Richter, 562 U.S. at 105.
The petitioner must show that the ruling of the state
court “was so lacking in justification that there was an
error well understood and comprehended in existing
law beyond any possibility for fairminded
disagreement.” Richter, 562 U.S. at 103. Although
Keahey disputes the state court’s determinations1 as
to ineffective assistance based on the uncalled
witnesses, and the failure to pursue DNA testing (R.
10, PageID #: 2355–2359), he does not meet this
standard.
Recusal of Trial Judge
Keahy’s post-conviction petition also alleged “a
conflict of interest” between Keahey and the trial
judge. (R. 7, RX 38, PageID #: 670.) Keahey argued
that the judge should have recused himself because he
had been “the head of the Erie County Drug Task
Force who helped prosecute” Keahey. (R. 7, RX 40,
PageID #: 735.) Keahey asserts that, although the
prosecutor recommended a term of eighteen years, the
judge sentenced him to twenty-three years. Id. This
claim was raised in Keahey’s petition for postconviction relief as a separate and distinct claim from
1

Keahey concedes that the argument concerning the jury
view is barred by res judicata. (R. 10, PageID #: 2360.)

90a
his claim(s) of ineffective assistance of trial counsel.
See R. 7, RX 38 (petition), PageID #: 669–670
(petition); see also R. 7, RX 44 (brief on appeal), PageID
#: 786; and RX 45 (appellee’s brief), PageID #: 862–
863.
The trial court denied the petition as to the conflict
of interest claim on several grounds, asserting that he
(the judge) had not been Head of the Drug Task Force,
but merely an assistant prosecutor, and that he had
no recollection of the 1998 case raised by Keahey. (R.
7, RX 42, PageID #: 763.) The court found no merit in
the argument that a “conflict of interest” existed. Id.
The court of appeals addressed the recusal issue as
an argument of ineffective assistance of trial counsel.
(R. 7, RX 46, PageID #: 889–890; Keahey, 2014 WL
5794329, at *10.) The appellate court stated that “the
issue of bias on the part of a judge should be raised at
the earliest opportunity or the issue is waived,” and
pointed out that Keahey had not filed a motion to
disqualify prior to or during trial, nor had he raised
the issue on direct appeal. (R. 7, RX 46, PageID #: 890;
Keahey, 2014 WL 5794329, at *10.) The court found:
“A review of the record does not show bias on the part
of the trial judge, and appellant does not offer any
evidence from outside the record to demonstrate such
bias.” Id. The court also noted that the trial court was
not bound by the prosecutor’s recommendation as to
the sentence.
The court found that Keahey’s
assignment of error was not well-taken. The state
court of appeals relied solely on state law in its
decision. (R. 7, RX 46, PageID #: 889–890; Keahey,
2014 WL 5794329, at *10.)

91a
Thus, the issue for this habeas court is whether the
state court decision was contrary to clearly established
federal law, as determined by the U.S. Supreme Court.
The Supreme Court has stated that due process
guarantees “an absence of actual bias” on the part of a
judge. Williams v. Pennsylvania, 136 S. Ct. 1899, 1905
(2016) (citing In re Murchison, 349 U.S. 133, 136
(1955)). The Court in Williams held that “under the
Due Process Clause there is an impermissible risk of
actual bias when a judge earlier had significant,
personal involvement as a prosecutor in a critical
decision regarding the defendant’s case.” Williams,
136 S. Ct. at 1905.
The personal involvement
referenced was “a direct, personal role” in the
defendant’s current prosecution. Id. at 1906. It did
not refer to involvement in past cases.
In Williams, the Supreme Court of Pennsylvania
vacated postconviction relief which had been granted
to a prisoner sentenced to death. “One of the justices
on the State Supreme Court had been the district
attorney who gave his official approval to seek the
death penalty in the prisoner’s case.” Williams, 136 S.
Ct. at 1905. The judge in question denied the
prisoner’s motion for recusal, and participated in the
decision to deny relief. Id. The Court found this
violated due process.
Here, there was no evidence, or any indication, that
the trial judge had any personal involvement in an
earlier stage of Keahey’s 2011–2012 prosecution,
which is the subject of his habeas petition. Keahey’s
unsupported allegation is that the judge had
previously acted as prosecutor in an earlier 1998 case.
Keahey has failed to demonstrate that the state court’s
ruling was contrary to clearly established federal law,

92a
as determined by the Supreme Court. The petition
should not be granted on the basis of the seventh
ground.
VII.

CONCLUSION

Keahey has failed to establish that the state court’s
decisions on the third, fourth, fifth or sixth grounds
involved an unreasonable application of clearly
established federal law, as determined by the
Supreme Court. In addition, Keahey has failed to
demonstrate that the state court’s rulings on the first,
second, or seventh grounds were contrary to clearly
established federal law, as determined by the
Supreme Court. It is recommended that the petition
be DENIED.
s/ David A. Ruiz
David A. Ruiz
United States Magistrate Judge

Date: April 17, 2018
OBJECTIONS
Any objections to this Report and Recommendation
must be filed with the Clerk of Courts within fourteen
(14) days of mailing of this notice. Failure to file
objections within the specified time WAIVES the right
to appeal the Magistrate Judge’s recommendation.
See Thomas v. Arn, 474 U.S. 140 (1985); see also
United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

93a

APPENDIX G
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
October 5, 2015
FILED
COURT OF APPEALS
ERIE COUNTY, OHIO
2015 OCT-9 AM 11:40
LUVADA S. WILSON
CLERK OF COURTS
Clerk
Court of Appeals of Ohio, Erie County
Erie County Courthouse
Sandusky, OH 44870
Re: Demetreus A. Keahey
v. Ohio
No. 14-9902
(Your No. E-13-009)
Dear Clerk:
The Court today entered the following order in the
above-entitled case:
The petition for a writ of certiorari is denied.
Sincerely,
/s/ Scott S. Harris
Scott S. Harris, Clerk

94a

APPENDIX H
The Supreme Court of Ohio
FILED
APR-8 2015
CLERK OF COURT
SUPREME COURT
OF OHIO
State of Ohio
v.

Case No. 2014-1995
ENTRY

Demetreus A. Keahey
Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Erie County Court of Appeals; No. E-13-009)

/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at
http://www.supremecourt.ohio.gov/ROD/docs/.

95a

APPENDIX I
IN THE COURT OF APPEALS OF OHIO
SIXTH APPELLATE DISTRICT
ERIE COUNTY
FILED
COURT OF APPEALS
ERIE COUNTY, OHIO
2014 OCT 24 AM 10:25
LUVADA S. WILSON
CLERK OF COURTS
State of Ohio
Appellee

Court of Appeals
No. E-13-009
Trial Court
No. 2011-CR-275

v.
Demetreus A. Keahey
Appellant

DECISION AND
JUDGMENT
Decided: OCT 24 2014
*****

Kevin J. Baxter, Erie County Prosecuting Attorney,
and Mary Ann Barylski, and Frank Zeleznikar,
Assistant Prosecuting Attorneys, for appellee.
Brian J. Darling, for appellant.
*****

96a
OSOWIK, J.
{¶ 1} This is an appeal from a judgment of the Erie
County Court of Common Pleas, following a jury trial,
in which appellant, Demetreus Keahey, was convicted
of one count of felonious assault, one count of
attempted murder, one count of having a weapon
while under disability, and one count of improperly
discharging a firearm at or into a habitation or school
safety zone. After holding a sentencing hearing, the
trial court sentenced appellant to serve a total of 23
years in prison. On appeal, appellant sets forth the
following five assignments of error:
I. The trial court erred to the prejudice of
appellant and abused its discretion in declining to
provide jury instructions on self-defense, an
affirmative defense to the crime charged.
II. The trial court erred to the prejudice of
appellant and abused its discretion in declining to
provide jury instructions on necessity, an
affirmative defense to the crime charged.
III. The trial court violated the defendant’s
Sixth Amendment right and abused its discretion
in making findings of fact.
IV. The trial court erred to defendant’s
prejudice in denying defendant’s motion for a
mistrial.
V. The trial court’s errors, when taken
together, deprived appellant of the [sic] fair trial
as guaranteed by the Fourteenth Amendment of
the United States Constitution and Article I,
Section Sixteen of the Ohio Constitution [sic] due
Process Clauses.

97a
{¶ 2} Appellant and Kindra McGill are the parents
of a daughter, K.K. In addition, Kindra is the former
girlfriend of Prince Hampton, who is the father of her
two boys. P.H. and D.H. Because of several factors,
including Kindra’s affiliation with both appellant and
Prince, an incident arose at the home of Kindra and
appellant on May 7, 2011, during which Prince pulled
a knife and stabbed appellant in the back. Appellant
was hospitalized for several days with a collapsed
lung. Neither Kindra nor appellant named Prince as
the person who stabbed appellant. Consequently, no
one was charged with a crime in that instance.
However, on June 15, 2011, text messages were
exchanged between appellant and Kindra, in which
the two discussed Kindra’s reluctance to name Prince
as appellant’s attacker, and also appellant’s desire to
retaliate against Prince for the stabbing.
{¶ 3} At some point after May 7, 2011, Kindra and
her children began living with Kindra’s mother, Joyce
McGill, at 2015 Aspen Run Road in Sandusky, Ohio.
On the morning of June 20, 2011, appellant drove to
the Aspen Run Road house with the stated intent of
picking up K.K. and Kindra so he could take them to
the doctor’s office for K.K.’s scheduled appointment.
Appellant arrived early, parked his vehicle on the
street in front of the house, and walked inside. After
a brief conversation with Joyce appellant went back
outside, where he saw a vehicle pulling into the
driveway. In the vehicle were Prince, Kindra’s two
boys, and A.C., the young son of Prince’s thengirlfriend.
{¶ 4} When Prince exited the vehicle, appellant
drew a gun and fired several shots at Prince. One
bullet hit Prince in the arm, and another went through

98a
his pants pocket, hitting him in the leg. That same
bullet shredded a roll of paper money that was in
Prince’s pocket, causing confetti-like pieces of the bills
to scatter on the ground.
{¶ 5} After appellant began firing at him, Prince
ran down the street. At that point, appellant got into
his car and drove away. While witnesses’ accounts
varied, it is undisputed that someone shouted “you are
a dead nigga” as appellant’s vehicle drove down the
street. Prince collapsed several blocks from McGill’s
house. Neighbors called 911, medical assistance was
dispatched to the scene, and Prince was taken to the
hospital. Police arrived on the scene in response to
neighbors’ calls, where they discovered that one bullet
had gone through the door of Prince’s vehicle, and
another one had gone through the outside wall and
into the living room of McGill’s neighbor, Brunell
Hendrickson. Still another bullet was found under
Prince’s vehicle, and several more were later found on
the ground in the surrounding area. In addition, a
pair of flip-flop sandals and a closed pocket knife were
found on the driveway near Prince’s vehicle.
{¶ 6} After the altercation appellant fled to Erie,
Pennsylvania. On July 25, 2011, while appellant was
still in Pennsylvania, the Erie County Grand Jury
indicted him on one count of drug possession (in an
unrelated case), one count of felonious assault on
Prince Hampton, in violation of R.C. 2903.11(A)(2),
one count of attempted murder of Prince Hampton, in
violation of R.C. 2903.02(A), three separate counts of
felonious assault on P.H, D.H. and A.C., one count of
having a weapon while under disability, in violation of
R.C. 2923.13(A)(3), and one count of improperly

99a
discharging a firearm at or into a habitation or school
safety zone, in violation of R.C. 2923.161(A).
{¶ 7} A jury trial was held on September 4, 5, 6, 7
and 10, 2012. Trial testimony was presented on behalf
of the state by Joyce and Kindra McGill, Brunell
Hendrickson, Jeremy Pruitt, Robert and Evelyn
Brown, Eric Jensen, and various members of the
Sandusky Police Department.
{¶ 8} Joyce testified that she did not see Prince with
a knife or a gun on June 20, 2011. She stated that
Kindra and appellant had planned to meet at the
doctor’s office that morning, however, appellant came
to her house instead. Joyce said that she was in the
doorway of the home when Prince drove up, and she
saw Prince get out of the vehicle, and run to the front
of the car, while the car was still running. Joyce also
said that appellant “pulled out a gun and he started
shooting.” She then ran out of the house and yelled at
appellant to stop, because her grandchildren were still
in the car. After Prince and appellant left she closed
the car door, picked up a pair of sandals from the grass
and placed them in front of the car, and went inside to
shower and change her clothes. She said that Kindra
removed the children from the car. Joyce testified that
later, at the police station, she stated that appellant
walked down the driveway to the sidewalk after Prince
ran away.
{¶ 9} Kindra testified that she heard it was Prince
who stabbed appellant in May 2011, and she stated
that Prince and appellant were angry at each other as
a result of Prince’s then-girlfriend stirring up trouble.
Kindra also testified that appellant was supposed to
meet her and children at the doctor’s office on June 20,

100a
2011, however, he came to her mother’s home instead.
She stated that Prince was 30 minutes late dropping
off her sons at Joyce’s house. Kindra further stated
that she did not witness the incident, however, after
hearing shots fired, she went outside and removed the
children from the car. She did not recall seeing a knife
or a hole in the car door. She did remember seeing the
sandals on the ground.
{¶ 10}
When questioned concerning the text
messages sent between her and appellant on June 15,
2011, Kindra testified that they did not discuss
appellant’s intent to retaliate against Prince for the
stabbing. Rather, she was expressing her desire to not
be put in the middle of appellant’s dispute with Prince
because she and Prince had children together.
{¶ 11} On cross-examination, Kindra testified that
she had gall bladder surgery two weeks before the
shooting, but she was able to drive K.K. to the doctor’s
office without appellant’s assistance. Kindra stated
that she never saw appellant on June 20. She recalled
seeing Prince with a knife and a gun on past occasions,
but she denied knowing whether he habitually carries
a weapon. She also stated that Joyce does not like
appellant because he dated her older half sister in the
past.
{¶ 12} On redirect, Kindra testified that she did not
know whether appellant had a gun on June 20,
however, she knew he was not allowed to have a gun.
On recross, Kindra stated that her mother likes
Prince, and has allowed him to see her children in the
past without her knowledge,
{¶ 13} Brunell Hendrickson testified that she was
in the kitchen of her home on East Oldgate Road on

101a
June 20, 2011, at approximately 8:55 a.m., when she
heard six gunshots coming from nearby Aspen Run
Road. She immediately called 911 to report the
shooting.
Seconds later, she heard two women
screaming, followed by the sound of a car accelerating
as it drove down Aspen Run toward her street.
Brunell stated she then heard two more gunshots, and
the last shot came through the wall of her house and
landed in her living room. Brunell testified that, after
the bullet came into her home, she laid down on the
kitchen floor and called 911 again.
{¶ 14} Brunell said that she saw “a black man
running down across the lots of the houses directly in
front of [her]” before she heard the last shots. She
described the accelerating car as “grayish looking,”
and identified appellant as the driver.
{¶ 15} On cross-examination. Brunell testified that
she is angry at appellant for shooting a gun at her
house, because she has a heart condition and should
not be subjected to stress. Although she denied seeing
appellant shoot a gun, she stated that she is familiar
with appellant’s face, she saw him driving the gray
car, and she was sure he was the shooter. She did not
remember seeing Prince with a gun.
{¶ 16} Jeremy Pruitt, Joyce’s next door neighbor,
testified that he heard three “pops” between 8:30 and
9:30 a.m. on June 20, 2011. As he picked up the phone
to call 911, he saw appellant, wearing jeans, a hoodie
and a hat, walking down the street “to get into a
vehicle.” He also stated that another man was
running down the street, and that he saw pieces of
money on the ground at the end of his own driveway.
On cross­examination, Pruitt testified that he did not

102a
see a knife. He further testified that he heard more
shots after the first three, for a total of “10 or 12 shots,”
but he did not hear any more shots after appellant
drove off. He could not see whether the man who was
running had a weapon. On re-cross, Pruitt testified
that he may have told police he saw a man in a white
shirt running away from a man in a hoodie.
{¶ 17} Robert Brown, a resident of South Oldgate
Road, testified that on June 20, 2011, a man ran up to
his house, bleeding, stating that he had been shot and
asking for assistance. While Brown and a neighbor,
William Myers, tried to get the man to lay down, he
heard someone yell “nigger, you’re dead.” He stated
that police arrived shortly after his wife called 911.
{¶ 18} Brown stated there was a “big bullet hole” in
the man’s arm. He did not see a wound in the man’s
leg. He could not identify appellant as the driver of
the car. Evelyn Brown, Robert’s wife, testified that
she heard shots on June 20, 2011, and saw a man
running down the street. She then heard more shots,
followed by someone driving past her home at a high
rate of speed.
{¶ 19} Eric Jensen testified that he lives across the
street on Aspen Run Road, “caddy-corner,” from Joyce
McGill’s home. Jensen stated that he saw a “black guy
in a white T-shirt” being chased by a “another black
guy with * * * a hoodie on” who appeared to raise his
arm and shoot at the man in the white shirt. Jensen
said that, shortly after hearing the shot, he saw a car
“take off.” On cross-examination, Jensen testified that
he does not know appellant, and he did not see Prince
holding a knife. On redirect, Jensen said that he did

103a
not remember telling police he heard a woman
screaming.
{¶ 20} Members
of
the
Sandusky
Police
Department who testified at trial were Lieutenants
Richard Braun and Danny Lewis, Detectives Ken
Nixon and Gary Wichman, Officer Christopher Denny,
and Assistant Chief John Orzech. Also testifying were
Todd Wharton and Scott Desloover.
{¶ 21} Braun testified that he was dispatched to
Aspen Run Road on June 20, 2011. However, before
he got to that address, he saw a gunshot victim on the
ground on Laurel Lane near South Oldgate. The man
had a wound on his left arm and leg. Braun said the
gunshot victim, whom he identified as Prince, was
taken to the hospital. Braun then went to Joyce’s
house, where he found shell casings on the ground,
and a bullet hole in the door of a car parked in the
driveway. He also observed sandals and a knife on the
ground near the car, a place in the yard where “the dirt
was kicked up,” and a blood trail leading away from
the driveway toward the injured man on Laurel Lane.
{¶ 22} On cross-examination, Braun testified that
he spoke to a witness, William Myers, who said he
heard Prince and appellant yelling at each other.
When the state objected to Braun’s statement as
hearsay, the defense indicated that Meyers, although
present, would not be asked to testify because he is a
“loose-canon.”
The trial court limited Braun’s
testimony to saying that he spoke to Myers, who
reported hearing “a number” of shots. On redirect,
Braun testified that the knife appeared to be closed in
pictures taken at the scene.

104a
{¶ 23} Following Braun’s testimony, a conversation
occurred between defense counsel, the prosecution and
the trial court concerning appellant’s claim of selfdefense. The trial court warned defense counsel to
research the issue thoroughly because, in order to
assert self-defense, appellant had to admit shooting
Prince and, in addition, appellant must present
sufficient evidence to support self-defense to get the
instruction. Testimony then resumed.
{¶ 24} Nixon testified at trial that he went with
Prince to the hospital after finding him lying on the
ground at 2020 South Oldgate. He identified a shirt
and blue shorts that had bullet holes as the ones
Prince was wearing when he was shot. Nixon said that
Prince had bullet wounds in his left arm and left thigh.
He stated that Prince had $1,265 in his pocket, and
that some of the bills were “shredded” by a bullet,
leaving pieces of money scattered on the ground.
Nixon stated that Prince did not identify the person
who shot him.
{¶ 25} Denny testified that he interviewed Jensen
and Prewitt, who each said they heard three shots and
then saw a black male in a hoodie chasing another
black male who was wearing a white T-shirt.
{¶ 26} Wichman testified that appellant has a prior
felony narcotics conviction that prohibits him from
possessing a firearm. He also testified that there is
“bad blood” between appellant and Prince, due to an
incident to May 2011 when Prince stabbed appellant.
Wichman also testified that he interviewed Brunell
Hendrickson, who was “in hysterics” after a bullet
came through her living room wall. He then went to
Joyce McGill’s house, where he saw blood on the back

105a
of a nearby car, “confetti” on the driveway, and a bullet
hole in a vehicle that was parked in the driveway.
Also, he saw a closed pocket knife on the driveway.
Wichman stated that the knife had a short “locking”
blade. He also stated that Prince was more interested
in the whereabouts of his money than in telling police
who shot him.
{¶ 27} Wichman testified that appellant had a
“retreat zone” that would have allowed him to get into
his car without following Prince down the street. He
further testified that, if appellant had retreated, he
would not have fired the shot that went into Brunell’s
home. Wichman also testified that it was possible that
Prince could have pointed a gun at appellant from the
area where the pieces of money were found. However,
he stated that no guns were ever found.
{¶ 28} Lewis briefly testified that he arrested
appellant on an unrelated drug offense on October 7,
2001, which resulted in a felony conviction. Wharton,
a forensic scientist in the Firearms and Toolmark
Section of the Ohio Bureau of Criminal Identification
and Investigation (“BCI”), testified that the weapon
which fired at least five rounds at Prince was a semiautomatic, 9mm handgun. He further testified that it
is possible all the bullets fired at Prince were from the
same gun, however, the four remaining casings were
too damaged to be certain. On cross-examination,
Wharton testified that all nine bullets were 9mm
Luger-type projectiles, but it was impossible to
identify the shooter from looking at the bullets. He
also testified that there are too many variables to say
exactly how far a particular bullet would travel.

106a
{¶ 29} Desloover, a Verizon Wireless employee,
testified that he provided a record of the texts between
appellant and Kindra, in response to a search warrant.
The records of the texts were then admitted into
evidence.
{¶ 30} Orzech testified that he was a Sandusky
Police detective on June 20, 2011, and he responded to
a call for police assistance at 1033 East Oldgate, the
home of Brunell Hendricks. From a photograph, he
identified a bullet hole in home’s living room wall. He
stated that the bullet taken from Brunell’s home and
a fragment found in Joyce’s driveway were both 9mm
Luger caliber, and both were fired from a barrel that
had five lands and five grooves, and a right-hand twist.
Orzech stated that he found a pair of gloves, a pair of
sandals and a closed knife in Joyce’s driveway. He also
stated that a groove in the lawn could have been
caused by a cartridge that skipped through the grass.
He identified confetti-like pieces of money in the grass
as coming from the roll of bills that was in Prince’s
pocket.
{¶ 31} Orzech stated that, in his opinion, the
incident began in Joyce’s driveway where four
cartridge cases were found, and proceeded down the
street where another shot was fired that struck Prince,
causing the money to come out of his pocket. As Prince
continued running, another shot was fired, which hit
Brunell’s house. Orzech testified that, according to his
scenario, appellant would have been able to get into
his vehicle and safely retreat when Prince started
running. If that would have happened, the shot that
entered Brunell’s home would not have been fired.

107a
{¶ 32} On cross-examination, Orzech testified that
the bullet hole in Prince’s vehicle was angled such that
the shot would have come from the rear of the vehicle.
Orzech disputed the defense’s argument that more
than one gun could have been used, based on the fact
that all the casings could have come from the same
firearm. He also testified that police searched the
entire neighborhood but did not find a gun. Orzech
stated that police could not establish that the knife on
Joyce’s driveway was involved in the incident. He also
stated that the bullet that entered Prince’s vehicle
must have been fired while Prince was outside the car
because it entered through the outside of the door and
lodged inside the car. He had no opinion as to how the
door may have been opened and later shut by Joyce.
{¶ 33} At the close of Orzech’s testimony, the state
rested. Defense counsel made a motion for acquittal
pursuant to Crim.R. 29, which the trial court denied.
Thereafter, the trial court and appellant engaged in
the following exchange concerning the issue of a selfdefense instruction:
Court: And the other concern that the Court
brought up to the Bench was the fact that you are
asserting a self-defense apparently. The Court’s
picking that up.
And there’s [the] requirement of confession and
then avoidance. In other words, you got [sic] to
admit you did the crime and then say I’m avoid
[sic] the liability for that crime because I have a
defense. The court wants your client to know, and
I’m sure you’ve already told him. Mr. Keahey, the
court wants you to know if you choose to take the
stand, just because you choose to take the stand,

108a
and if, in fact, you do admit to the crime, I don’t
know if you’re going to do that or not, that does
not automatically mean you’re going to get the
self-defense instruction to the jury. There’s other
criteria, other evidence that has to be proven, if
you will, or set forth in order * * * to sustain the
request for that jury instruction. So I don’t want
you under any mistaken belief that just because
you admit, confess, if you will, that you avoid by
getting that self, self-defense instruction. That’s
not automatic at all.
***
I’m sure you’ve had an opportunity to talk to
your counsel. I’m going to give you a little bit
more time to talk to him before we bring the jury
in, but I definitely want you to understand just
because you take the stand and just because you
admit it does not mean your’re going to get that
instruction, okay? It doesn’t mean you won’t, but
it does not mean that you will. Understand that?
Appellant: Yes, sir.
{¶ 34} Defendant, who testified on his own behalf
at trial, said that Joyce did not like him because he
dated her older daughter, Angela, before he met
Kindra. He also stated that he and Kindra “got along
great” after K.K. was born. Appellant said that Prince
stabbed him in May 2011 after the two men argued
about how appellant treated Prince’s children.
Appellant said that he moved out of the apartment he
shared with Kindra after the stabbing, because he
“feared for his life.”
{¶ 35} As to the events that occurred on June 20,
2011, appellant testified that he initially said he would

109a
meet Kindra and K.K. at the doctor’s office. However,
he changed his mind and went to Joyce’s house
because he did not want Kindra driving a car so soon
after she had surgery, and because he wanted them to
go “as a family.” Appellant said that he arrived before
9 a.m. and went inside, however, he left the house
when Joyce started to “pick on him” for not taking off
his shoes. As he was walking toward his car, Prince
drove into the driveway “real fast,” causing appellant
to back up against the house. When Prince hopped out
of the car “with a knife,” appellant “pulled out the gun”
and fired at Prince. Appellant said that when he
headed toward his car, he heard a shot. When he
turned around, he saw Prince holding a gun.
Appellant responded by firing several rounds at Prince
as Prince ran away. Appellant said that he got into
his car and drove off after Prince ran away.
{¶ 36} Appellant said that he would have “been
dead” if he had not shot at Prince. Appellant also said
that, as he drove off, he heard Prince say “nigga, you
dead.”
Appellant testified that he went to
Pennsylvania after the shooting, and did not return
until three months later when he turned himself into
Sandusky Police.
{¶ 37} On cross-examination by the prosecution,
appellant testified that he was imprisoned in 2002 for
17 months following a drug conviction. Consequently,
he is prohibited from possessing a firearm. Appellant
also stated that he did not name Prince as the person
who stabbed him in May 2011 because he was afraid
he would be killed in retaliation. Appellant said he did
not get into his car and leave when he first saw Prince
at Joyce’s house because Prince was driving fast, and
he was scared. He said he “got rid of” the gun on his

110a
way back to Sandusky from Pennsylvania, because the
police in Sandusky considered him “armed and
dangerous” and he did not want to be “shot on sight.”
{¶ 38} Appellant further testified that he could not
run to his car before Prince ran away because he would
have been shot in the back. He said he did not stop
shooting, even though there were children in the car,
because he was trying to protect himself. He admitted
bringing a firearm to Joyce’s house, even though he is
not permitted to carry a weapon. Appellant stated
that Prince initiated the altercation by jumping out of
the car and coming toward him with a knife.
Appellant also stated that it was Prince, not appellant,
who said “you’re dead nigga.” Appellant agreed with
the prosecutor’s statement that “Prince pulls a knife,
you pulled the gun, and you shot.”
{¶ 39} At the close of appellant’s testimony, the
defense rested. The state presented no rebuttal
evidence. The trial court and the parties then
discussed proposed jury instructions, during which
defense counsel renewed his request for an instruction
on self-defense. In addition, defense counsel asked for
an instruction as to necessity in regard to the charge
of having a weapon while under disability. After
hearing arguments from the defense and the
prosecution, the trial court stated:
In looking at the facts of the case, * * * the
defendant, if you will, was at fault in creating the
situation based on the testimony and text
messages that were sent. He was supposed to go
to the doctor’s, and, instead, he came to the house.
He brought a firearm with him to the house.

111a
The victim, one of the victims, Prince Hampton,
ran from the defendant. The defendant chased
him. The defendant had a means of escape, his
own vehicle, which was parked across the street.
***
The Court doesn’t find that the defendant—the
Court finds he did create the—he did create the
fault. He was at fault in creating the situation
that gave rise to it. Whether or not he had a bona
fide belief that he was in imminent danger of
death or great bodily harm and there was no other
means of escape, the Court finds there was a
means of escape and also that he did violate his
duty to retreat, and he had every opportunity to
retreat. So the court finds that the defense of selfdefense, that instruction will not be given.
{¶ 40} The trial court noted the defense’s objection
to its ruling. Thereafter, closing arguments were
presented by the state and the defense, after which
jury instructions were given and the jury retired to
deliberate. On September 10, 2012, the jury returned
a verdict of guilty to one count of felonious assault and
one count of attempted murder of Prince, one count of
having a weapon while under disability, and one count
of improperly discharging a firearm at or into a
habitation or school safety zone. Not-guilty verdicts
were returned as to felonious assault on P.H., D.J.,
and A.C. The remaining charge of drug possession
was later dismissed. On October 4, 2012, the trial
court sentenced appellant to serve a total of 23 years
in prison.
{¶ 41} On October 19, 2012, a timely notice of
appeal was filed. On December 4, 2012, this court

112a
found that the judgment of conviction was not a final,
appealable order, and remanded the matter to the trial
court. On December 17, 2012, the trial court filed a
nunc pro tunc judgment entry in response to our
mandate, and the appeal was reinstated.
{¶ 42} In his first assignment of error, appellant
asserts that the trial court erred by refusing to
instruct the jury as to the affirmative defense of selfdefense. In support, appellant argues that the trial
court improperly found that his testimony was not
credible and refused to give a self-defense instruction
on that basis.
{¶ 43} In State v. Lillo, 6th Dist. Huron No. H-10001, 2010-Ohio-6221, ¶ 15, this court stated:
Generally, requested jury instructions should
be given if they are a correct statement of the law
as applied to the facts in a given case. Murphy v.
Carrollton Mfg. Co., 61 Ohio St.3d 585, 575
N.E.2d 828 (1991). A court’s instructions to a jury
“should be addressed to the actual issues in the
case as posited by the evidence and the
pleadings.” State v. Guster, 66 Ohio St.2d 266,
271, 421 N.E.2d 157 (1981). Prejudicial error is
found where, in a criminal case, a court refuses to
give an instruction that is pertinent to the case,
states the law correctly, and is not covered by the
general charge. State v. Sneed, 63 Ohio St.3d 3,
9, 584 N.E.2d 1160 (1992).
{¶ 44} Appellant correctly states that the inquiry
into whether sufficient evidence has been presented to
raise an affirmative defense is a matter of law that is
reviewed de novo. State v. Belanger, 190 Ohio App.3d
377, 2010-Ohio-5407, 941 N.E.2d 1265 ¶ 4 (3d Dist.).

113a
However, the trial court’s ultimate decision to refuse
the requested jury instructions will not be overturned
on appeal absent a finding of abuse of discretion. Lillo,
supra, citing State v. Wolons, 44 Ohio St.3d 64, 68, 541
N.E.2d 443 (1989).
{¶ 45} In cases where the requested instruction
involves an affirmative defense, the accused must
show that he or she “has introduced sufficient evidence
which, if believed, would raise a question in the minds
of reasonable people concerning the existence of that
defense.”
State v. Carter, 4th Dist. Ross No.
10CA3169, 2010-Ohio-6316, ¶ 58, citing State v.
Melchior, 56 Ohio St.2d 15, 381 N.E.2d 195, paragraph
one of the syllabus. It is the duty of the defendant to
“first present sufficient evidence at trial to warrant
such an instruction.” Belanger, at ¶ 3. Such evidence
is to be viewed in a light most favorable to the
defendant. Id. Nevertheless, the trial court may “omit
any requested instructions that are not correct
statements of the law and applicable to the case before
it.” Id., citing State v. Scott, 26 Ohio St.3d 92, 497
N.E.2d 55 (1986).
{¶ 46} In Ohio, “self-defense is an affirmative
defense that legally excuses admitted criminal
conduct.” State v. Edwards, 1st Dist. Hamilton No.
C110773, 2013-Ohio-239, ¶ 5. To demonstrate the
affirmative defense of self-defense through deadly
force, an accused must show by a preponderance of
evidence that:
(1) [they were] not at fault in creating the
situation giving rise to the affray, (2) [they] had a
bona fide belief that they were in imminent
danger of death or great bodily harm and their

114a
only means of escape from such danger was the
use of such force, and (3) [they] must not have
violated any duty to retreat or avoid the danger.
State v. Robbins, 58 Ohio St.2d 74, 338 N.E.2d
755 (1979), paragraph two of the syllabus.
{¶ 47} As to the first element, appellant testified at
trial that he decided at the last minute to drive to
Joyce’s house instead of meeting Kindra and K.K. at
the doctor’s office, and he did not know that Prince
would be dropping off his sons while appellant was
there. Appellant also testified that he pulled out a gun
and shot at Prince because Prince had a knife in his
hand and, based on the events that occurred six weeks
earlier, appellant was afraid that Prince would stab
him. Appellant stated that he did not immediately
retreat to his vehicle because Prince pulled out a gun
and he was afraid he would be shot in the back if he
turned to leave.
{¶ 48} Before denying appellant’s request for a selfdefense instruction, the trial court noted that
appellant unilaterally decided to pick up Kindra and
K.K., and that text messages exchanged between
appellant and Kindra established a possible motive for
appellant to attack Prince. The trial court also stated
that appellant had a means of escape, which he failed
to utilize. Other trial testimony established that no
witnesses saw Prince with a gun, no gun was ever
recovered, and the only knife that was found at the
scene was closed and lying on the ground.
{¶ 49} It is undisputed that appellant and Kindra
had agreed to meet at the doctor’s office. Appellant’s
stated motive for changing his mind and going to pick
up Kindra and K.K. opened the door to the trial court’s

115a
consideration of other motives, including the content
of the text messages exchanged by appellant and
Kindra. In addition, appellant testified that he carried
a gun that morning despite the fact that, as a
convicted felon, he is prohibited from carrying a fire
arm.
{¶ 50} As to the third element, appellant’s duty to
retreat, undisputed testimony was presented that
appellant arrived at Joyce’s home in a vehicle, which
he parked nearby on the street. Although appellant
testified that he was afraid to turn his back on Prince
and get into the vehicle, no testimony was presented
as to why appellant could not have retreated in any
other direction, or by any other method.
{¶ 51} After considering the entire record in a light
most favorable to appellant, we find that appellant
failed to produce sufficient evidence to meet his
burden as to the first and third elements of the
affirmative defense of self-defense. A consideration of
the second element, which required appellant to show
that he reasonably believed he was in imminent
danger of death or serious bodily harm, is
unnecessary. State v. Robinson, 132 Ohio App.3d 830,
726 N.E.2d 581 (1st Dist., 1999).
{¶ 52} Based on the foregoing, we conclude that the
trial court did not err or otherwise abuse its discretion
by refusing to provide the jury with a self-defense
instruction. Appellant’s first assignment of error is
not well-taken.
{¶ 53} In his second assignment of error, appellant
asserts that the trial court erred by not instructing the
jury as to the affirmative defense of necessity, as it
relates to his conviction for carrying a weapon while

116a
under disability. Citing State v. Crosby, 6th Dist.
Lucas No. L-03-1158, 2004-Ohio-4674, appellant
argues that that he presented sufficient evidence to
support such a defense, which “excuses a criminal act
when the harm which results from compliance with
the law is greater than that which results from a
violation of the law.”
{¶ 54}
As set forth above, “a trial court’s
determination as to whether the evidence produced at
trial warrants a particular instruction is reviewed for
an abuse of discretion.” Burns v. Adams, 4th Dist.
Scioto No. 12CA3508, 2014-Ohio-1917, ¶ 52. “A party
must demonstrate not merely that the trial court’s
omission or inclusion of a jury instruction was an error
of law or judgment but that the court’s attitude was
unreasonable, arbitrary or unconscionable.” Freedom
Steel v. Rorabaugh, 11th Dist. Lake No. 2007-L-087,
2008-Ohio-1330, ¶ 10.
{¶ 55} The defense of necessity is not codified in
Ohio law, however, Ohio courts have held that the
common-law elements of the defense are:
(1) the harm must be committed under the
pressure of physical or natural force, rather than
human force; (2) the harm sought to be avoided is
greater than (or at least equal to) that sought to
be prevented by the law defining the offense
charged; (3) the actor reasonably believes at the
moment that his act is necessary and is designed
to avoid the greater harm; (4) the actor must be
without fault in bringing about the situation; and
(5) the harm threatened must be imminent,
leaving no alternative by which to avoid the
greater harm. Dayton v. Thornsbury, 2d Dist.

117a
Montgomery Nos. 16744, 16772, 1998 WL 598124
(Sept. 11, 1998).
{¶ 56}
Traditionally, the defense of necessity
requires pressure from physical forces, as opposed to
the defense of duress, which involves a human threat.
Id. In this case, appellant testified at trial that he was
forced to carry a gun because he was afraid of Prince,
in spite of the fact that he was legally forbidden to do
so. Accordingly, appellant has not established that the
harm in this case resulted from anything other than
human action, as opposed to a physical force. In
addition, as stated in our determination of appellant’s
first assignment of error, appellant failed to establish
that he was not at fault in creating the situation that
led to his decision to fire his gun, wounding Prince and
endangering the safety of children and nearby adults.
{¶ 57} On consideration of the foregoing, we find
that appellant has failed to establish the elements
necessary to support a jury instruction on the
affirmative defense of necessity. Accordingly, we
cannot say that the trial court abused its discretion by
refusing to give such an instruction. Appellant’s
second assignment of error is not well­taken.
{¶ 58} In his third assignment of error, appellant
asserts that the trial court abused its discretion by
making findings of fact. Specifically, appellant argues
that the trial court usurped the function of the jury by
“finding” that he came to Joyce’s house instead of
going to a doctor’s appointment, he had a gun, Prince
ran away from appellant, appellant chased Prince,
appellant “had a means of escape,” appellant “could
have avoided Prince,” appellant threatened Prince,

118a
Prince had a knife, appellant “created the situation,”
and appellant “had a means of escape.”
{¶ 59} In this case, the “findings of fact” that
appellant disputes were made by the trial court in the
context of determining whether appellant met his
burden to go forward with evidence of the affirmative
defenses of self-defense and necessity. Consequently,
rather than making findings that bear directly on
appellant’s guilt or innocence, the trial court was
discharging its duty to make preliminary
determinations as to whether the requested jury
instructions were warranted.
Appellant’s third
assignment of error is, therefore, not well-taken.
{¶ 60} In his fourth assignment of error, appellant
asserts that the trial court erred by denying his
request for a mistrial. In support, appellant argues
that the prosecutor prejudiced the jury by stating that
appellant was “scary” when no such facts were in
evidence. We disagree, for the following reasons.
{¶ 61} The trial court’s decision to grant or deny a
mistrial will not be overturned on appeal absent a
finding of abuse of discretion. Burns v. Adams, 4th
Dist. Scioto No. 12CA3508, 2014-Ohio-1917, ¶ 53,
citing State v. Sage, 31 Ohio St.3d 173, 182, 510
N.E.2d 343 (1987). “A mistrial should only be granted
where the party seeking the same demonstrates that
he or she suffered material prejudice so that a fair trial
is no longer possible.” Id., citing Quellos v. Quellos, 96
Ohio App.3d 31, 643 N.E.2d 1173 (8th Dist.1994),
citing State v. Franklin, 62 Ohio St.3d 118, 580 N.E.2d
1 (1991). “The trial court is in the best position to
determine whether the circumstances warrant the
declaration of a mistrial.” State v. Simmons, 1st Dist.

119a
Hamilton No. C-130126, 2014-Ohio-3695, ¶ 66, citing
State v. Ahmed, 103 Ohio St.3d 27, 2004-Ohio-4190,
813 N.E.2d 637, ¶ 92.
{¶ 62}
The record shows that, during crossexamination, appellant stood up several times while
answering the prosecutor’s questions. At one point,
the following exchange occurred:
Question: Sit down, please.
Answer: I can’t even stand?
Question: You’re scaring me.
Court: Wait a minute. Approach.
{¶ 63} Outside the hearing of the jury, the following
took place:
Prosecutor: I don’t like the way he gets up and
goes like this.
Court: Okay, but you can’t do that.
Prosecutor: I know.
Court: You can approach and you can ask me to
have him sit down.
You can’t do that.
Prosecutor: I know.
Court: I don’t want the jury being tainted.
Defense: Yeah, I —
Court: Okay? I’ll take care of it.
Defense: I’d almost ask for a mistrial for that.
Court: No, there’s no mistrial there. Your
request for a mistrial is denied. I’ll give a
curative.

120a
Ladies and gentlemen of the jury the comment
by the prosecutor is stricken. You’re not to
consider that. Continue, State of Ohio.
{¶ 64} On consideration of the foregoing, and in
light of the trial court’s curative instruction, we find
that appellant has not demonstrated that he suffered
material prejudice such that a fair trial was no longer
possible. Accordingly, we cannot find that the trial
court abused its discretion by denying the motion for
mistrial. Appellant’s fourth assignment of error is not
well-taken.
{¶ 65} In his fifth assignment of error, appellant
asserts that the trial court’s errors, taken together,
deprived him of his right to a fair trial under the
constitutions of the state of Ohio and the United
States. Appellant argues that the only effective
remedy in this case is for this court to order the
reversal of his conviction.
{¶ 66} Before considering the effect of alleged
“cumulative error,” it is incumbent on this court to find
that the trial court committed multiple errors. State
v. Wharton, 4th Dist. Ross No. 09CA3132, 2010-Ohio4775, ¶ 46, citing State v. Harrington, 4th Dist. Scioto
No. 05CA3038, ¶ 57. Having determined that no such
errors exist on the part of the trial court, we find that
the principle of cumulative error is inapplicable in this
case.
Appellant’s fifth assignment of error is,
therefore, not well-taken.
{¶ 67} The judgment of the Erie County Court of
Common Pleas is hereby affirmed. Appellant is
ordered to pay the costs of the appeal pursuant to
App.R. 24.

121a
Judgment affirmed.
A certified copy of this entry shall constitute the
mandate pursuant to App.R. 27. See also 6th
Dist.Loc.App.R. 4.
Mark L. Pietrykowski, J.

/s/ Mark L. Pietrykowski
JUDGE

Thomas J. Osowik, J.

/s/ Thomas J. Osowik
JUDGE

James D. Jensen, J.
CONCUR.

/s/ James D. Jensen
JUDGE

This decision is subject to further editing by the
Supreme Court of Ohio’s Reporter of Decisions.
Parties interested in viewing the final reported
version are advised to visit the Ohio Supreme
Court’s web site at:
http://www.sconet.state.oh.us/rod/newpdf/?source=6.

122a

APPENDIX J
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME II OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

123a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 315
A

Five.

Q

Five?

A

Or six, I mean, six.

Q Okay. And on June 20th did defendant come
over to your residence on Aspen Run Road?
A

Yes, he did.

Q

Okay. About what time, if you remember?

A

Between 8:30, nine, something like that.

Q

All right. Why did he come over; do you know?

A

I have no idea.

Q

All right.

A His daughter was going to the doctor and Quan,
DeQuan was going to go to the doctor, and my
daughter said she was going to meet him down there—
Q

Okay.

A

—at the doctor’s office.

Q

But instead he showed up at the home?

124a
A

Yes, he did.

Q

Do you know how long he stayed, if you can—

A

In the house or on the—

Q

In the house say.

A

A few minutes.

Q A few minutes, all right. When—and then he
left or—
A

No, he went outside—
Page 316

Q

Okay.

A

—at that time.

Q

And what happened when he went outside?

A At that time, um, Prince pulled up in the driveway. He was dropping off DeQuan to go to the doctor’s.
Q

And then what happened?

A My daughter said to go outside and get Quan,
and I went outside and he was walking up the
driveway with a gun.
Q

Who was walking up the driveway?

A

Demetreus.

Q Demetreus. What happened with that after you
saw him walking up the driveway with a gun?
A
car.

I was shouting, stop, my grandkids are in the

Q

Okay. Did Demet—did defendant fire that gun?

A

Yes.

Q

Who did he fire at?

A

Prince.

125a
Q

Where was Prince?

A He was getting out of the car because he was
getting his son, DeQuan, out of the car.
Q

Okay. So the children were in the vehicle?

A

Yes, there was three of ‘em in the vehicle.

Q Was anyone else in the vehicle—well, who all
was in the vehicle?
A Prince, my grandson Prince, DeQuan, and some
other
Page 317
little boy. I don’t know what his name is.
Q

Okay. He’s not related to you?

A

No.

Q If I would say his name was
Cunningham, would that sound familiar?
A

Anrico

I, I don’t know.

Q Okay. But there were three children in that
vehicle?
A

Yes.

Q All right. Explain to me what you observed
when you went outside.
A I was standing in the driveway, back door,
because my daughter asked me to go get Quan, and he
always jumps out of the car when he gets to the house,
and that day he didn’t jump out of the car. He sat in
the car.
Q

That day he—I’m sorry, I didn’t hear you.

A That day he didn’t—normally when he comes
home or from someplace, he jumps out of the car. That

126a
day he didn’t jump out of the car. He was sitting in
the car, and I went to the door to get him, you know.
Q

And what did you observe?

A I observed him coming up the—Demetreus
coming up the driveway. He had pulled out a gun and
was shooting at, um, Prince in the car.
Q

Did you hear any words exchanged?

A

No, I didn’t hear any words.
Page 318

Q Okay. Did you see a gun in Prince Hampton’s
hands?
A

No.

Q

Did you see a knife in his hands?

A

No.

Q Okay.
anything?

Was Prince being aggressive or

A I don’t have any idea. I just seen him pull up in
the driveway. He got out to get his son out of the car,
that’s all I seen.
Q

What did you do when that happened?

A

When what happened?

Q When you saw defendant with a gun and start
shooting.
A

I was yelling.

Q

What were you—

A

Stop, stop, my grandkids are in the car.

Q

Okay. And what happened after that?

A

He continued to shoot.

127a
Q Okay.
Do you know whether—after he
continued to shoot, where did defen—where did Prince
Hampton go?
A He went in front of the car and he ran between
the bush and the house next door to me, which would
be on the right-hand side of the driveway, and then he
was running down the, down the street.
Q Okay. Did you—what did defendant do when
Prince was running down the street?
A

He followed him down the sidewalk.
Page 319

Q Okay. At any time did you observe defendant
getting in his car?
A

No, I just told him to get out of here.

Q Okay. What did you do after you observed all
this?
A
Q
car?
A

I went in the house and tried to call the police.
Okay. Did somebody get the children out of the
I think my daughter got ‘em out of the car.

Q Okay. Do you remember how many shots would
have been fired?
A No. There was a lot of shots, but I don’t
remember how many.
Q Okay. I’d like to—this is State’s Exhibit
Number 1. (Inaudible). Okay. If I would say
(inaudible). Oh, here. If I would say this was your
street, Aspen Run Road—
A

Uh huh.

Q

—you would have lived right here?

128a
COURT:
A

Do you need to—

Yes.
COURT:
Do you need to get out of
the chair to see it closer or not?

Q

Can you see?

A

I can see, but it’s all blurry.
MS. BARYLSKI: Can she approach?
COURT:
ma’am.

A

Yeah, you can step down,

Okay.
Page 320
WHEREUPON, the witness stepped down
from the witness stand.

Q Okay. This is Aspen Run Road. Can you step
just on the side a little, just so that the jury can see
also, okay? It’s okay. Would you say that that would
be your house here?
A

Yes, that’s my house.

Q

Okay. And this is your driveway?

A

Yes.

Q And when—after defendant started shooting,
using your finger, what direction did Prince run in?
A Prince had pulled up in the driveway here. He
ran around the front of the car, with the car still
running, and then he went through the—he went
through this grass between this house and there’s a
bush there and then he cut across here and he went
down the street.
Q

And defendant followed him?

129a
A Defendant came, Demetreus came down here
and was shooting as he was running down the street.
Q Okay. Do you know where defendant had his
car parked, by any chance?
A

He had his car parked right here.

Q

Right in this—right here?

A

Yeah, across the street from me.
Page 321

Q

Across the street. Your house is here?

A

Yes.

Q

He had it parked across the street?

A

Right here.

Q Okay. And then you’re saying that Prince ran
in this direction?
A

He ran this way, yes.

Q

Okay. Then you went in the house, correct?

A

Yes, I ran in the house and called 911.

Q

Okay. If you’ll take your seat. Thank you.
THEREUPON, the witness returned to
the witness stand.

Q I’d like to hand you what’s been marked State’s
Exhibit 2A, 2B, 2C, 2D, 2E, 2F, and 2G. I’d like you
just to look through these pictures and then we’ll talk
about ‘em. Now, State’s Exhibit 2A, whose home,
whose home is that?
A

That’s my home.

Q

Okay. Now, when Prince Hampton pulled up—

A

Uh huh, yes.

Q

—is that Prince Hampton’s car?

130a
A

That’s the car he was driving.

Q

That’s the car he was driving?

A

Yes.
***
Page 336

Q

—to know what they are?

A

I don’t know what they are.

Q Okay. Now, you testified that Kindra was going
to the doctor for the kids on that morning, June 20th?
A

Yes.

Q

Did you know that she had called Demetreus—

A

No.

Q

—earlier that morning to come over?

A

No.

Q Isn’t it true that Demetreus showed up to drive
her to the doctor that morning?
A Not as far as I know. She was gonna take ‘em
herself.
Q Okay. Well, you mentioned that she had
gallbladder surgery recently?
A

Uh huh.

Q

Wouldn’t that—
COURT:

A

Yes.
COURT:

A

Wait a minute.
Is that a yes or no?

Sorry.
COURT:

That’s okay.

131a
Q Wouldn’t that inhibit her ability to drive and so
that’s why—
A

No.
Page 337

Q

—she called up—

A

No.

Q

—Demetreus?

A

She was allowed to drive at that time.

Q Okay. You testified earlier that you went
outside and you saw the defendant with a gun. Isn’t it
true that you told the police on that day when this
happened that you were inside when this incident
happened?
A No, I was inside and I came out to the side of the
door because my grandson was gonna come out of the
car.
Q But on the day this happened you were
interviewed by the police; do you remember that?
A

Yes.

Q And you told them at that time that you were
inside the house—
A

I was inside the house.

Q

—at the door.

A And he—Prince pulled in the driveway and
Demetreus came walking up the driveway and then I
was out, I mean, my house isn’t that big, and by the
time I got out to the, um, side door, he had pulled out
a gun and he started shooting.
Q So you
happened?

were

inside

when

the

shooting

132a
A I was inside the door and the out—between the
two doors.
Q

Okay.
Page 338

A

Standing in the—

Q

Okay.

A

—doorway.

Q And you mentioned that Prince Hampton was
in front of the car or went in front of the car?
A He got out of the car and then he ran in front of
the car.
Q Okay. And when this was going on, the door
was open and the car was still running?
A

Yes.

Q

And then after they left you closed the door?

A No, not right after. That was like after I had
taken a shower and stuff.
Q
up?

Okay. And that was before the police showed

A

Well, the police were on their way—

Q

Okay.

A —but they were there by the time I got there
and my husband was home—
Q

Okay.

A

—at the time.

Q Okay. But at some point before the police got
there you closed the door of the car?
A No, I closed the door after I had already taken a
shower.

133a
Q

Okay.
Page 339

A

No, no, no. You’re right, you’re right, before.

Q

Before, okay.

A

Because the police were already there, yes.

Q Okay. And you mentioned that shoes were left
in the drive. These were Prince Hampton’s shoes?
A

Yes.

Q

These sandals?

A

Flip flops or whatever, yeah.

Q

Okay. And isn’t it true that you moved those?

A

Yes.

Q

And you told the police that you moved those?

A

Yes, I did.

Q You told the police that you placed the shoes in
their current location?
A

Yes, in the picture, yes, I did.

Q Okay. That the shoes were in the grass and you
had picked them up prior to the officer’s arrival and
you moved them?
A

Yes.

Q

Put them in front of the car?

A

Yes.

Q

Why did you do that?

A I don’t know, it’s just—I just—I don’t know. I
wasn’t thinking about, you know, what—to leave
everything alone.

134a
Page 340
Q

Okay.

A At the time my nerves were just shot and I
wasn’t thinking.
Q Okay. So you closed the door and you moved the
shoes?
A

I just put the shoes by the door of the car.

Q Okay. Did you do anything else with any other
items?
A I just turned the, the ignition off of the car, car
ignition, because it was running.
Q

So you turned the car off, too?

A

Yes.

Q

Okay. Did you do anything with a knife?

A

There wasn’t no knife. I didn’t see no knife.

Q Okay. Were you going to go with them to the
doctor’s appointment that morning?
A

No.

Q

Isn’t it true you had just woken up?

A

I’d been up for a little bit, yes.

Q

Okay. You were still in your robe or pajamas?

A

Yes.

Q Isn’t it true that you told Demetreus to take off
his shoes or leave the house?
A Yeah, everybody takes off their shoes when they
come into my house and walking on the carpet.
Q

Isn’t that kind of a rule in your house, that you

135a
Page 341
either take off your shoes or you don’t come into the
house?
A Well, I just told him to leave because I knew
Prince was gonna bring DeQuan to the house to, um,
drop him off to go to the doctor.
Q Did you see Prince try to run Demetreus down
with his car?
A

No.

Q

Did you see Prince pull out a knife?

A

No.

Q

Did you see Prince pull out a gun?

A

No.

Q Isn’t it true that you, when you started yelling,
you told them to stop what they were doing?
A I told Demetreus to stop, please stop, my
grandkids are in the car.
Q

Okay. You told Demetreus to leave and he did?

A

Yes.

Q

He went over to his car and he got in and he left?

A That was before he went down the street with
the gun shooting.
Q You went to the police station a couple hours
later?
A

The police took me down to the police station.

Q

And you talked to them about this incident?

A

Yes.

Q

You also talked to them about the prior stabbing
***

136a

APPENDIX K
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME II OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

137a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 354
A

Three.

Q

Three. Prince would have been how old?

A

Six.

Q And what about, um, do you know how old
Anrico Cunningham would have been—
A

No.

Q —or approximately? Okay. On June 20th did
defendant come over to your home where you were
living on Aspen Run Road?
A Um, no. I was in the back room getting my
daughter ready for the doctor’s appointment.
Q Okay. Did Prince—did, um, defendant come to
the home?
A

No, not that I know of.

Q

Oh, he wasn’t at the house?

A I was in the back of the, of the house getting my
daughter together to get ready to go to the doctor’s.

138a
Q Okay. Was defendant supposed to take you to
the doctor?
A

No, he was supposed to meet me at the doctor’s.

Q

He was supposed to meet you at the doctor’s?

A

Yes.

Q

Did you talk to him earlier that day?

A Um, the day before was Father’s Day and I
talked to him. Um, he knew that Kamora was
supposed to get her first
Page 355
year shots, and I talked to him earlier that morning,
way earlier that morning, and it was just to confirm
what time her appointment was, but after that I didn’t
hear from him.
Q Okay.
doctor’s?

How were you going to get to the

A

My car.

Q

Okay. You were going to drive?

A

Yes.

Q

Okay. Where were your children at?

A Um, at the time Prince and DeQuan was
staying with their father and Kamora was staying
with me.
Q

Okay. And their father being who?

A

Prince Hampton.

Q Prince Hampton. Did Prince come to the home
that day?
A Yes. He was 30 minutes late coming to drop my
son, DeQuan, off.

139a
Q Okay. Were you involved or did you observe an
incident that happened outside the home?
A No. I was inside the house getting my daughter
ready for her doctor’s appointment when I heard a
couple gunshots.
Q

Did you go outside?

A

Yes.

Q

And what happened when you went outside?

A When I went outside, I seen that Shawneata
Grant’s vehicle was in the driveway. Um, I seen, um,
like flip
Page 356
flops, whatever, that were just on the ground. I didn’t
see Prince nowhere in sight, and I grabbed my children
out the car and told them they need to get in the house.
Q

What about Shawneata’s son?

A

Yes, he was in the back seat, and I told him—

Q

Okay.

A

—to come in the house as well.

Q Didn’t you tell the police that you heard a knock
on the door and the defendant was at the door that day,
that morning?
A

No.

Q

Where was your mother at?

A Um, at the time my mother was in the bathroom
at first and then she was in the living room. Um, by
the time that the shots were fired she was in the
kitchen.
Q

Oh, your mother wasn’t outside?

A

No.

140a
Q

So she didn’t see anything?

A

No.

Q

So she didn’t see defendant shoot—

A I don’t know what she had seen, but she was in
the house when the shots were fired at first.
Q Okay. When you say in the house, where was
she at?
A

In the kitchen.

Q

Okay. Do you know how many shots were fired?
Page 357

A

No. I just heard two. I didn’t count.

Q

Did you see the bullet hole in the car?

A Um, the police had told me it was in the back of
the car, but I heard that it was in the driver’s side.
Q

Did you see the bullet hole?

A

No.

Q No, okay. Did you know that Prince was taken
to the hospital?
A Not till about almost a half hour to an hour
later.
Q

Um, did anybody call Anrico’s mother?

A I was tryin’ to get a hold of her. I don’t know
her number—
Q

Uh huh.

A —and I’ve called a couple of my friends to ask
where I could find where she was at because he was—
he wanted to go with his mom.
Q

Why were you trying to get a hold of her.

A

Because I had her son.

141a
Q Okay.
that be?

But why would—what concern would

A Because Prince wasn’t nowhere in sight, and me
and her do not get along, and I did not want to have
any type of conflict with her because her son was with
me.
Q Did you know that something was gonna go
down eventually between these two?
A

No.
Page 358

Q

Meaning defendant and Prince Hampton?

A

No.

Q Okay. What’s your—what’s your telephone
number, your cell phone number?
A

I don’t have that cell phone number anymore.

Q

Okay. But what was your cell phone number?

A

419-366, I think it was 6147.

Q

Two one four seven?

A

Yeah.

Q

It was in whose name?

A

It was in my father’s name.

Q Okay. Do you remember what defendant’s cell
phone number was at the time?
A

No.

Q If I say it was 216-224-4153 would that be
familiar?
A

Yeah.

Q

Okay.

142a
MS. BARYLSKI:
you

These are these I gave

(inaudible).
MR. DEMPSEY:

Is this the text messages?

MS. BARYLSKI:

Yeah.

MR. DEMPSEY:

Okay.

MS. BARYLSKI:
Honor.

State’s Exhibit 4, Your

These are—
COURT:

Four?
Page 359

MS. BARYLSKI:
records.

These are the cell phone

COURT:

What company?

MS. BARYLSKI:

Verizon.

COURT:

Okay.

Q I’m going to hand you what’s been marked
State’s Exhibit Number 4. You’ve only seen these this
morning; is that correct?
A

Yes.

Q And part of State’s Exhibit Number 4 is a search
warrant. I’d like to look—I’d like you to look at the
number that that search warrant is asking for records
for. What’s that number?
A

419-366-2147.

Q

And whose telephone number is that—

A

Mine.

Q

—cell phone number?

A

Mine.

143a
Q

And it was in Homer’s name, right?

A

Yes.

Q Kindra, I’m going to ask you to read certain
messages on this cell phone, text messages that were
sent. The very first te—on the bottom, can you read
that text message?
A And you can stop coming at me with this Prince
shit seriously, and what I said was if I was that type
of bitch I would’ve fuckin’ told on his ass right.
Page 360
Q And that’s a text message that you sent to
Demetreus?
A

Yes.

Q I’d like to go to the next text. I’d like you to read
down here (indicating) and this is a text that you
received from Demetreus. What does that say?
A Keep your same actions when shit go down,
that’s all I was gonna say.
Q I’d like you to go to the next tabbed text message
at the very bottom. Can you read that?
A

Right here (indicating)?

Q

Here, and I’ll just (inaudible).

A Oh, it’s not on there. You can quit it like I’m
trying to—tryin’ to say you should have told. You did
what you wanted to and I don’t care ‘cause ima do what
I have to flat out.
Q And that was a text message you received from
Demetreus; is that correct?
A

Yes.

144a
Q You did what you wanted to and I don’t care
‘cause I’m going to do what I have to do flat out, correct?
A

Yes.

Q I’d like you to go to the next one. I’d like you to
read—make sure we got the right one here. I’d like
you to read that text message, please.
A About that nigga, if you gonna do something,
shut the
Page 361
fuck up talkin’ about it, I’m out.
Q

And that was you texting Demetreus, correct?

A

Yes.

Q

I’d like you to read this text message.

A Shouldn’t have even been put in the middle
because of the situation and how I have kids by him
also, that don’t have shit to do with me and if you are
a real nigga.
Q

That’s you texting Demetreus, correct?

A

Yes.

Q

And these texts are on what date?

A

June 15th.

Q So this is prior to defendant coming to your area
the day you had a doctor’s appointment, right?
A

Yes.

Q So there were text messages between you and
defendant regarding the situation with regards to the
stabbing, correct?
A

Yes.

145a
Q And one of the text messages indicates that
something was gonna go down; is that a fair statement?
A Not to what he wanted to retaliate. It was about
what was told to him that I had said.
Q And to your knowledge you don’t know whether
Demetreus came to your house that morning or not, do
you?
A

No.
Page 362

Q Do you remember what defendant was wearing
that day?
A

What day?

Q

Huh?

A

What day?

Q The day that you were supposed to meet him at
the doctor’s.
A

No, because I didn’t see him.
MS. BARYLSKI:
questions.

I

have

no

further

COURT:

Thank you, Cross?

CROSS EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q

Good morning, Ms. McGill.

A

Good morning.

Q I have a few questions for you about this. Isn’t
it true that in 2011, earlier in the year you lived with
Demetreus on Wilbert Street?
A

Yes.

146a
Q Okay. And you testified that you have a
daughter with him, Kamora?
A

Yes.

Q And prior to your relationship with Demetreus
you had been in a relationship with Prince Hampton?
A

Yes.

Q

How did it end with Prince Hampton?

A Um, not well. He was cheating on me with
Shawneata Grant and I basically told him that he had
to get out the
Page 363
house. He wasn’t helpin’ out with the kids.
Q Okay. How does Demetreus get along with the
kids?
A Demetreus has stepped up, especially for my
youngest son. Um, when Prince wouldn’t buy diapers
or do anything for him, Demetreus stepped up and
would take care of financial things and then also
would watch the kids while I was doing nursing
clinicals in Elyria.
Q Okay. And this is not just his daughter, but also
Prince’s kids?
A

Yes.

Q Now, you testified that you talked to Demetreus
the night before and then that morning?
A

Yes.

Q

And didn’t you also have gallbladder surgery?

A Yes, I had gallbladder surgery, um, about the
beginning of June, two weeks or so before that.

147a
Q Okay. Were you under doctor’s orders not to
drive for a while?
A Yes, because I was on, um, Percocet and
Vicodin.
Q Okay. So it was a help to have somebody to
come over to drive you to the doctor?
A Um, yes, but I told him that I didn’t need him to
drive me. I wasn’t even taking the Percocets anymore.
Q Okay. But he probably showed up to take you
and his daughter and the other kids to the doctor?
Page 364
A Um, my oldest son didn’t have to go to the
doctor. Um, he just told me that he was going to meet
me there.
Q

Okay. But he decided to show up anyway?

A

I didn’t see him at the house.

Q You didn’t see him, okay. And you testified that
your mom was in the house with you when you heard
the gunshots?
A

Yes.

Q

She wasn’t outside?

A No, she was in—she was in the kitchen, because
she was—just came into the living room.
Q

Okay. Had she just woken up?

A

Yes.

Q

So she was barely awake when this happened?

A She was in the bathroom. She was—I was up
before she was.
Q

Okay. Was she still in her pajamas?

148a
A

Yes.

Q Okay. Now, do you remember an episode in—
on May 7th of 2011 when Demetreus got stabbed?
A

Yes.

Q You indicated that you weren’t present for that;
is that—
A

I was in the house. Kamora had just woken up.

Q

Okay. Did that happen on Wilbert Street?
Page 365

A

Yes.

Q

And that was between Demetreus and Prince?

A

Yes.

Q

And did you end up taking him to the hospital?

A

Yes.

Q

Demetreus I mean?

A

Oh, yes.

Q

And was he—was he stuck pretty bad?

A

Yes, he hit an artery.

Q

They—he got stuck in an artery?

A Yeah, he got stabbed in the side. He hit an
artery, because it was basically squirting out, and I
know from nursing experience that he hit something
pretty hard and it had (inaudible) medical attention
right away.
Q Okay. Could he talk to anybody about what
happened?
A At the time he just said that—I had to take him
to the hospital. By the time we got towards the

149a
hospital he said that he was lightheaded and I just was
telling him to apply pressure to the, to the wound.
Q Okay. Do you know if it was life threatening,
the injuries?
A Um, when we got to the hospital, well, we had
heard that it could have pierced his liver, and we were
just waiting for what the doctor had said, but, um, his
lung did collapse.
Page 366
Q Okay. Do you know if Prince Hampton usually
carries a knife?
A No, ‘cause I, I don’t—we really don’t—aren’t on
good speaking terms.
Q Okay.
Hampton?

How long were you with Prince

A

On and off for five and a half years.

Q

Okay. And you had two kids with him?

A

Yes.

Q

Did you live with him during that time?

A

Um, we lived together on and off.

Q Okay. During that time did you ever see him
carrying a knife?
A

Yes.

Q

Okay. Did you ever see him with a gun?

A

Yes.

Q

Have you ever seen any of his tattoos?

A

Yes.

Q

What tattoos does he have?

150a
MS. BARYLSKI: I’m going to object to this
line of questioning.
COURT:

Approach.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the
***
Page 373
Q Okay. And then this number shows up again,
this 740-463-4405, and that was for it looks like ten
minutes. You don’t remember who that was?
A

Oh, that’s my friend, Terron Randleman.

Q Okay, okay. Did you ever have any problems
with Prince Hampton when you guys were together?
A

Yes.

Q Okay. Is that one of the reasons why you broke
up with him?
A Yes. He had, um, two domestic violence charges
with me.
Q

Okay.
COURT:
that.

Q

That’s stricken, disregard

Okay.
COURT:

Next question.

Q Do you live in, uh, near the Ford Plant in Avon
Lake now or you living here with your mom?
A

No, I live here with my mom.

Q Okay. Does your mom know Prince Hampton
very well?

151a
A

Yes.

Q

Okay. Does she know Demetreus very well?

A

Yes.

Q Does she have a preference of Prince over
Demetreus?
A

She has a preference of Prince.

Q Okay. Would she cover up for him or lie for
him?
Page 374
A

Yes.
MS. BARYLSKI:
Honor.

I object to that, Your

COURT:

Overruled.

MS. BARYLSKI:

We cannot—

COURT:

Overruled.

MS. BARYLSKI:
that one, please.

I’d like to approach on

COURT:

You can approach.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
COURT:

What’s your basis?

MS. BARYLSKI: You cannot test—you
cannot ask questions that a witness would
attest to somebody’s credibility as to whether
they’d be telling the truth or a lie and that’s
exactly what he did.
COURT:
I think, I thought that
was only to their testimony, whether their
testimony was truthful or lying, not whether

152a
they would be—let me look it up. I thought
it was for their truth and (inaudible). Are
you talking under 405, proving character?
You’re not talking about
***
Page 385
who stabbed him?
A Because when I got questioned, I didn’t know
who stabbed him.
Q Okay. Why didn’t you go to the police and tell
‘em afterwards?
A Because I didn’t want to be in the middle of it
with Prince.
Q

Aren’t you acting like in the middle of this now?

A

Yes.

Q I’d like to hand you what’s been marked State’s
Exhibit 2C. Can you identify that picture?
A

Yes, it’s Shawneata Grant’s car.

Q Uh huh. Is that the car that was in your
driveway that day?
A

Yes.

Q

What does that picture represent?

A

A bullet hole in the driver’s door.

Q Uh huh, a bullet hole in the car. Where were
your children when that bullet hole was sustained?
A

In the backseat of the car.

Q

Pardon?

A

In the backseat of the car.

153a
Q In the back of the car. But you don’t know
Demetreus to carry a gun, defendant to carry a gun?
A

He’s never carried a gun around me.
Page 386

Q There was some texts that indicated he was
going to basically take care of business, wasn’t he.
A The conversation that we had was talking about
what somebody told him about the Prince situation.
Q Yeah,
and
he—he
was—there’s
some
conversations and texts that you had with defendant
with regards to the street code or something like that,
correct?
A

Yes.

Q

What is that?

A Um, basically you don’t talk, you don’t say
anything.
Q

And you said your mother would protect Prince?

A

Yes, because she has in the past.

Q Okay. What about defendant; would your
mother protect defendant?
A

No. She doesn’t like the defendant.

Q Okay. But your mother likes Prince; is that
what you’re saying?
A

Yes.

Q Do you, do you know what your mother
observed that day?
A

No, my mother—

Q Do you know what your mother observed that
day?

154a
A

No.

Q Okay.
Do you know what the neighbors
observed that day?
Page 387
A

No.

Q

Okay. Do you know what happened that day?

A Of—only of when I heard the gunshots and
what the police told me.
Q

And where were your children?

A

In the backseat of the car.

Q

Does that bother you in any way?

A

Of course.

Q

How does it bother you?

A

Because my kids could have got harmed.

Q

Pardon?

A

My kids could have got harmed.
MS. BARYLSKI:
questions.

I

have

no

COURT:

Re, recross?

MR. DEMPSEY:

Yes, Your Honor.

further

RECROSS EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q Kindra, were your kids harmed in any way that
day?
A

No.

Q Okay. You said that your mom had protected
Prince in the past?
A

Yes.

155a
Q

How had she done that?

A Um, with my domestic violence charges, her and
my dad had some issues—
COURT:

That’s stricken.
Page 388

A

—together.
COURT:
The domestic violence,
testimony at domestic violence from this
witness in the past stricken. You can
continue along those lines, though.

Q Has, has your mom protected Prince in other
ways?
A Um, coming to get the kids and allowing ‘em to
go with him whenever they want to without me
knowing, yes.
Q

Without you knowing about it?

A

Yes.

Q

And you didn’t want the kids to go with him?

A

Not if me and him had a argument.

Q Okay. The day of this incident on June 20th you
talked to the police about what, what you saw, what
you heard?
A

Yes.

Q And they also talked to you about the stabbing
that happened in May, didn’t they?
A

Yes.

Q And they asked you, did they have problems
with each other, and you said, they don’t have a beef.
A They’ve been around each other numerous
times of the years that I’ve been with Demetreus.

156a
Q Okay. And you also mentioned, even after the
stabbing, they saw each other on occasion and had no
problems
Page 389
with each other.
A

Yes.

Q And didn’t the detective that you were talking
to, didn’t he indicate that Prince, Prince Hampton’s
people are going after Demetreus now?
A

Yes.

Q Is that one of the reasons why you didn’t say
anything about who did the stabbing?
A

No.

Q Okay. You said initially you didn’t know who
did it and then you learned who did it.
A

Yes.

Q

And it was Prince Hampton, right?

A

Yes.

Q And the prosecutor said, why didn’t you go to
the police about that, and you said it has to do with the
street code, don’t say anything.
A That’s not exact reason why I didn’t—it had
nothing to do with the street code. It had to do with
myself and his family.
Q

Whose family?

A

Prince Hampton’s.

Q Okay. Do you think that they would have done
something to you?
A

The day that Demetreus got stabbed I had a
***

157a

APPENDIX L
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME II OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

158a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 461
Q

Right here?

A

Yes.

Q

Okay. How long have you lived there?

A

Six years approximately.

Q Okay. I’d like to go back to June—are you living
alone or do you live with your family?
A

Um, I live alone right now.

Q Going back to June 20th, 2011, were you living
at that residence?
A

Yes.

Q

Can you tell the jury what occurred that day?

A Um, I was—I had some personal business to
take care of, so I was running late for work, then I was
starting to get ready to go to work and I heard sounded
like firecrackers or some two loud bangs, so I kind of
looked out the window. You want me to explain the
whole thing or—
Q

Yes, please.

159a
A Okay. I looked out the window. I saw, um, it
sounded like it was coming, like I said, on that 45
degree angle. I saw a black guy in a white T-shirt
running from in between two houses. He kind of—as
the road curves, he kind of was hookin’ towards the
left, then I don’t know, a short distance behind him I
saw another black guy with a—he had like a hoodie on
and he was kind of following behind him. I don’t know
how—quite how far. It wasn’t that—
Page 462
really that close.
Q Okay. Can you show with this pointer about the
direction that they were going? All right.
A

Okay. If that’s the—

Q

On State’s Exhibit Number 1, okay.

A

If that’s the house there—

Q

Uh huh.

A —they were coming, running from right in
between them two houses, if that’s the house. I really
can’t tell from this display you have here. The black
guy in the white T-shirt was running that way, like
hookin’ around the corner there—
Q

Uh huh.

A —and another guy was following behind him, I
don’t really know how far behind, and then, um, so the
one guy, it looked like he raised his arm and fired off
another shot, and I do believe it was a shot, and
really—didn’t really see the gun, but I heard a loud
noise again, and I—I just really couldn’t believe what
I was seeing, what was going on. And then after that,
the guy in the hoodie, some girl came out, that girl
came out and started talking to him, saying something,

160a
I don’t know what they were saying, then they turned
and kind of was like—now they’re like facing towards
where I was looking at. So I kind of got out of the
window and then, I don’t know, a couple seconds or so
later
Page 463
I looked back out, and I really didn’t see anybody, but
I did see like a car take off. I don’t know if that was
him in the car or not, so I really don’t know what
happened after that.
Q Okay. Did you hear any screaming or yelling, a
woman?
A Not, not really, no. I don’t recall that part. I
don’t—
Q

Something about, stop shooting?

A

I’m sorry?

Q

Yelling, stop shooting?

A

Not, not really. I really didn’t really hear any—

Q

Okay.

A —any, any verbal stuff. I just heard about two
loud—or actually it was like—I think it was four loud
bangs altogether.
Q Okay. And did you come outside or were you
inside and observed all this?
A

I was inside.

Q

Okay.

A I never did come outside until the rest of the
people came outside, then I was like, okay, I think it’s
safe now to come outside.

161a
Q Okay.
hoodie?
A

Can you identify the person in the

No, I could not.
MS. BARYLSKI:
questions.

I

COURT:

Cross examination?
***

have

no

further

162a

APPENDIX M
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME II OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

163a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 491
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
COURT:
7C, Tim.

I think it’s—I think it’s

MS. BARYLSKI:
pictures.

It’s

COURT:

Number 7C, like in cat.

MR. DEMPSEY:

Here it is.

COURT:

Yeah, 7C, right.

MR. DEMPSEY:

Yeah, that’s it.

MS. BARYLSKI:

Oh, okay.

COURT:

Say what number that is.

in

the

group

of

THEREUPON, the conference ended and
the following proceedings were had within
the hearing of the jury:
Q Okay. Officer, I want to show you what was
already marked as State’s Exhibit 7C. Can you see
that?

164a
A

I can see 8, yeah.

Q Okay. There’s an evidence marker number 8.
Do you know where that was located on the driveway
at the McGill home?
A

Not with that close-up, no.
Page 492

Q

Okay. Is that where the knife was located?

A

That’s, that’s possible.

Q

Okay.

A I do believe the knife was on the driveway not
too far from the sidewalk area, but I can’t tell from
that picture.
Q

Okay.

A

It’s too much of a close-up.

Q Okay. This may be more appropriate for
another officer. It’s—on the police report it’s marked
as number 8, black knife, driveway, but from this, you
really can’t tell what it is?
A

No.

Q Okay, fair enough. I’m showing you what’s been
already marked as State’s Exhibit 2D. Can you see
that—
A

Yes.

Q —document? That’s a picture showing some
sandals and it looks like—is that a bullet casing?
A

Yes.

Q

Now explain to the jury what a bullet casing is.

A Okay. When you, when you shoot a gun, the end
of the bullet is the projectile that comes out of the gun.
On some guns the casing is the part that had the gun

165a
powder in it. If it’s a—what they call a semiautomatic, that gets kicked out of the gun and usually
gets left there. If it’s a
Page 493
revolver and they don’t empty the revolver, the casing
stays in the gun.
Q Okay. So with a automatic or semi-automatic
weapon that would be kicked out of the gun—
A

Yes.

Q

—after a shot was fired?

A

Yes.

Q Would it indicate to you that that’s a place
where a shot would have been fired from?
A Not necessarily, because when it kicks out, it
goes a ways and it could bounce and do other things,
so.
Q

Okay.

A You’re on concrete there. That doesn’t mean
that the person was standing right there when it
happened.
Q

Okay.

A But usually it’s gonna eject out the right, to the
right. Where it goes from there, it could hit that
vehicle, it could bounce off, it could hit the sidewalk or
the concrete, go somewhere. So I would say no to your
question.
Q Okay. But it’s possible that that’s a place where
a shot was fired?
A

Yes.

166a
Q Okay. And these sandals that are next to
marker number 5, do you know whose sandals those
were?
A

I believe they were Prince Hampton’s.
Page 494

Q Okay. And this was in the front of the vehicle
that was in the driveway at the McGill home?
A

Yes.

Q

Are you familiar with 9 millimeter guns?

A

Yes.

Q How many shots does a 9 millimeter gun
usually have in it?
A You can have as many as 16 without having to
reload, 15 in a clip and then one that you’d already
have loaded in the chamber of the gun.
Q

Is that normal?

A If it’s me, I’d have 16 in there, but, I mean,
somebody on the street, they could have one, two,
whatever. I mean, that’s up to them.
Q Okay. There were other pieces of evidence that
you found at the scene. There were pieces of money
that were found?
A

Yes.
MS. BARYLSKI: Pieces
of
(inaudible) this is what you want.
MS. GROSS:

8B, 8B.

MS. BARYLSKI:

Here.

money

Q Okay. This is Exhibit 8B. Can you see that?
Oh, that’s not so good. Eight is bleeding through.

167a
MS. GROSS:
you’re not

Yeah,

and

you

got—

Page 495
getting the money either (inaudible).
MR. DEMPSEY:

Oh, yeah.

MS. GROSS:

Pull it up maybe.

MR. DEMPSEY:
well (inaudible).

That’s not showing up too

MS. BARYLSKI:

It’s the lights, not—

MR. DEMPSEY: Is it the lights now?
don’t know (inaudible) that was.

I

COURT:
No, turn it—turn it on.
Turn that light—it’s gonna dark it up. Let’s
see, turn the light on, Lori. Let’s see if that
helps. Turn that on, see if that helps. No?
MR. DEMPSEY:

No, that doesn’t—

COURT:

Turn ’em off.

Q

Can you see that, Officer Braun?

A

I can see it, but it’s not very clear.

Q Okay. This is Exhibit 8B. Do you remember
from when you were there that there were pieces of
money there?
A

Yes, I do remember that.

Q Okay. And was there also a shell casing near,
near that money as well?
A

I believe there was.

Q

Okay.

A

There was a lot of shell casings there.

168a
Q Okay. Did you end up talking to a few people
there at
Page 496
the scene?
A

Yes.

Q

Okay. Did you talk to a William Meyers?

A

Yes, I did.

Q Did he indicate to you that the parties yelled at
each other?
A

Yes, he did.

Q And that he wasn’t sure who said the comment
to, to each other?
A

That’s correct.

Q And that statement I’m going to read from the
report is: You’re a dead nigger.
MS. BARYLSKI: I’m going to object to that
hearsay. Mr. Meyers—
COURT:

Approach.

MS. BARYLSKI:

—is not—

COURT:

Approach.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
COURT:
Your objection is hearsay,
that he’s going to read what Meyers said to
him.
***
Page 506
that picture?

169a
A

I can in this picture. I couldn’t in that up there.

Q And do you know where on the McGill driveway
that marker and knife were located?
A I don’t, don’t recall. I remember finding the
knife, but from this picture, no, I don’t.
Q Would it have been at the very back of the
driveway where it ends at the grass towards the back
of the house?
A It appears it is, because it’s obviously not
toward the sidewalk or the end of the road.
MR. DEMPSEY:

Okay. Thank you.

COURT:

Thank you.

MR. DEMPSEY:

I believe that’s all.

COURT:

Redirect?

REDIRECT EXAMINATION BY MS. MARY ANN
BARYLSKI:
Q Officer Braun, State’s Exhibit Number 7C
where you identified a knife, was that knife open or
closed; do you remember?
A

I don’t recall.

Q

Can you look at it? I mean—

A It looks closed, it looks closed in the picture, but
do I remember a hundred percent, no, but—
Q

Okay.

A

—it looks closed to me.

Q

But it does look closed in the picture?
Page 507

A

It does.

170a
Q And generally speaking, when you find evidence
and you mark it, you don’t disturb it, do you?
A

That’s correct.

Q Okay. So if this knife was found and marked as
Exhibit 8 here or evidence 8, it would—based on police
procedure, it would be as it was found here?
A

That’s correct.

Q

And it’s closed?

A

Yes.

Q The other—one more question, Officer. You
indicated there was an exhibit where the shoes and a
bullet fragment were found; is that a fair statement?
A

Yes.

Q And that was towards the front of the vehicle.
The fact that—well, that’s not it. If you’ll bear with
me one moment, please.
MS. GROSS:

2D, maybe 2D.

Q Now, there was a bullet fragment found—
something’s wrong with this thing. I don’t know
what’s—
MS. GROSS:
Q

Here it is.

It’s—
MS. GROSS:

Take that back.

MS. BARYLSKI:
focus very well.

But still it’s, it’s not in
Page 508

MS. RICKENBAUGH: Did you widen it out?
MS. BARYLSKI:

Yeah.

171a
Q Number two, as you indicated, was a bullet
fragment?
A That may be a casing. I know there was a bullet
fragment there, but which number is that, I can’t say
for sure.
Q

Okay.
MS. GROSS:
Mary Ann.

That was Exhibit 2C,

Q

Now, this is at the back of the vehicle, correct?

A

(No audible response.)

Q Do you remember what that one was, that—was
that a bullet fragment or a casing? And that’s State’s
Exhibit Number, excuse me, State’s Exhibit Number
2D where the shoes were found.
A

I believe that’s a bullet casing.

Q Okay. Now, you stated that when you—
somebody shoots a gun, it doesn’t just—the casing
doesn’t necessarily just drop down; is that a fair
statement?
A

Yes.

Q Okay. So that casing doesn’t demonstrate
necessarily that that person was standing right there
when he shot that gun; is that a fair statement?
A

That’s a fair statement.

Q Could have been anywhere within the radius of
that area?
Page 509
A

Yes.
MS. BARYLSKI:

I have no more questions.

COURT:

Recross?

172a
MR. DEMPSEY:
Honor.

A couple of things, Your

RECROSS EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q Lieutenant Braun, you indicated that the knife
that you—that was found there was the way you found
it when you got to the scene?
A

Yes.

Q Okay. But it could have been closed by someone
prior to you getting there; isn’t that possible?
A

It’s possible.
MS. BARYLSKI: Objection, Your Honor,
that’s pure conjecture.
COURT:

Approach, though.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
COURT:
It could have been pure
conjecture or speculation. However, Mrs.
McGill testified that she did move the
sandals, she did move things. So because of
that, I’ll allow it.
Page 510
MR. DEMPSEY:

I’m going to ask him—

COURT:
based on that.

So I’m going to allow it

MS. BARYLSKI: Well, she never said
anything about moving the knife, though.
COURT:
No, I know she didn’t say
that. He didn’t ask that. He asked if the

173a
knife could be—if the knife could have been
closed. Since the witness has testified she’s
already moved other things, okay, I’ll allow
you—
MS. BARYLSKI: I’d object to that only on
the basis that he never asked her whether
she touched the knife or not.
MR. DEMPSEY: I think I did. I think I did
ask her that and she said no.
COURT:

Okay.

MS. GROSS:

The knife—

COURT:
Well, here’s what I’m
gonna do. You ask that question and he can
answer it. Normally I only go one two, one
two (inaudible). I’ll back up and ask about
that (inaudible) Mrs. McGill.
MS. BARYLSKI: Why?
I mean, if he
asked, he’s already put something in the
jury’s mind and she already said—
Page 511
COURT:

He—

MS. BARYLSKI: I don’t know what I can
ask him to clean up what he’s trying to put
in the jury’s mind when she already said, no,
she did not—she did not touch it. So you’re
asking him to make conjecture, that could
she have touched it, and he doesn’t know.
This is the way he found it and he asked Mrs.
McGill.
COURT:
Well, the question is,
could somebody have touched it. Somebody
then could have. Does he know (inaudible)

174a
that’s a different question, and I guess that’s
the question you would come back with.
MS. BARYLSKI:

Yeah.

COURT:
Do you know if anybody
touched it. Yes or no. I mean, it’s—
MS. BARYLSKI: He’s—what I’m saying
he’s presenting all—he’s, he’s presenting
testimony on conjecture when you already
had a witness who said they did not touch the
knife.
COURT:
she didn’t.

Right, that witness said

MS. BARYLSKI:

No, and—

COURT:

(Inaudible).

MS. BARYLSKI:
either

And so now he’s trying to
Page 512

say she was lying based on conjecture or that
there was somebody else in the area that
closed that knife and there’s no evidence that
that knife was open in the first place. There
is nobody who testified that knife was open,
so how can you open a knife when you had no
testimony it was open?
COURT:

How can you close it?

MS. BARYLSKI:

Yeah.

COURT:

(Inaudible).

MS. BARYLSKI: But the door was opened
and shut. Two people testified that they
closed the door—

175a
COURT:

Right.

MS. BARYLSKI: —and there’s evidence
that the door was closed. There’s not a bit of
evidence that that knife was opened.
COURT:
The question is, can you
(inaudible) closed it.
MS. BARYLSKI:

Anything’s possible.

COURT:

Exactly. That’s not—

MR. DEMPSEY: That’s not a ground to
deny the question and the answer.
COURT:

Yeah.

MS. BARYLSKI:

Pardon?

MR. DEMPSEY: That’s not a ground to
deny the question or the answer.
Page 513
COURT:
Yeah. I’ll allow it. I’ll
allow you to get back up and redirect on the
issue. Go ahead and ask it.
THEREUPON, the conference ended and
the following proceedings were had within
the hearing of the jury:
Q Lieutenant Braun, do you want—do you need
the question reasked or do you remember it?
A

I remember the question.

Q

Okay.

A You said was it possible that somebody could
have closed the knife. Possible, but I don’t think very
likely, but that’s—

176a
Q Okay. We had prior testimony in the trial that
Joyce McGill had moved the sandals and put them
where they are. Did you know anything about that?
A

No.

Q We had testimony from her that she closed the
car door, that the—that she also turned off the car and
closed the door. Did you know that she had done that?
A No, but it seems logical because there were
three kids in the car, so.
Page 514
Q Okay. Showing you what the State showed you
before, Exhibit 2D, you indicated that that was the
back of the car. Isn’t that the front of the car?
A This is the front of the car. I don’t know that I
said that was the back of the car.
Q Okay. And that’s—the car was pulled in front,
front ways, and so it was towards the back of the
driveway?
A

That’s correct.

Q And that’s where you found it and then that’s—
what’s shown in that picture is the—a shell casing and
the sandals that we know are Prince Hampton’s
sandals.
A

That’s correct.
MR. DEMPSEY: Okay. Okay. Thank you.
No other questions.
COURT:
Ohio?

Thank you.

State of

MS. BARYLSKI:

Just, just a couple.

177a
REDIRECT EXAMINATION BY MS. MARY ANN
BARYLSKI:
Q Joyce McGill testified she never even seen a
knife, um, so it’s more probable than not that that
knife was found closed; is that—
A Yes, and also that’s a very hard place to even
see it in the first place—
Q

Okay.

A

—in the grass.

Q And nobody else testified about seeing a knife,
except
***

178a

APPENDIX N
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME III OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

179a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 559
convicted of a narcotics felony conviction.
Q Okay. Do you know who the officer was that
was involved in the investigation in case number 2001CR-465?
A

Yes, that’s Officer Lewis at the time.

Q Okay. Now, do you know a person by the name
of Prince Hampton?
A

Yes, I do.

Q

The State asked you to find him, correct?

A

That’s correct.

Q

Have you been able to?

A

I’m unable to locate Mr. Hampton.

Q

Have you had other officers looking for him?

A Yes, several officers in our department were
looking for Mr. Hampton.
Q Okay. Would you describe his relationship with
the police as not one of brotherly love?

180a
A

That’s a good way to put it.

Q To your knowledge, based on your investigation
of violent offenses in Erie County, and based on your
investigation over the years of knowing either Prince
Hampton or do you know the defendant?
A

Yes, I do.

Q Okay. Do you know if there’s bad blood between
Prince Hampton and the defendant?
A

Yes, I do.
Page 560

Q

How do you know this?

A Of a previous incident that happened a month
and a half, roughly a month and a half prior to this
incident.
Q

What happened in that incident?

A There was a disturbance that was reported to us
on May 7th of last year. When the officers responded,
they learned that there was a subject that was actually
injured and was enroute to the hospital in a gray car,
and the officer went to the hospital. The gray car was
in the ambulance port. Kindra McGill was coming out
of the hospital. She had blood on her hands. It was
then learned that Demetreus Keahey was stabbed.
Initial contact with Mr. Keahey and also the, um,
Kindra McGill, neither one would elaborate or give
any information on what happened.
Q

But you did have a suspect?

A Yes. We received phone tips that it was Prince
Hampton.
Q Okay. But no charges were ever filed against
Prince Hampton by defendant, were there?

181a
A No, it was reluctant victim. No charges were
ever filed.
Q Similar to what’s happening in this case with
Prince Hampton?
A

Identical.

Q Okay.
shooting on

On June 20th, 2011, was there a
***
Page 567

MS. GROSS:

I marked the DNA swabs.

COURT:
a 24.

Okay, okay. You do have

MS. BARYLSKI:

Yeah, we have a—

COURT:

Okay. Thank you.

Q I’d like to hand you what’s been marked State’s
Exhibit Number 25. Can you identify that, please?
A This is the black pocketknife that was found
laying on the edge of the driveway by the grass.
Q And as I stated, when you observed it, was that
closed?
A That’s correct, that was closed, in the same
position as—
Q Do you—can you open that exhibit up, please,
and open that pocketknife up?
A

(Witness complied.)

Q

How long would that blade be?

A Maybe, I don’t know, inch and a half, two inches
maybe.
Q

Is that legal to carry that?

182a
A

If it’s not concealed, yeah.

Q

Okay. But it’s a short blade on that?

A

It’s a short blade.

Q

Okay. It’s not like a—

A

It’s not—

Q

—long blade or something?

A More importantly on this, that’s a locking blade.
You can’t pull the blade up without pushing this
button down.
Page 568
Q

Oh, so even—

A

It’s a lock, it’s—

Q

—closing it, you have to—

A It’s a lock blade. You have to push a button
down to lock the blade.
Q Okay. But as I stated, when you found it, it was
closed?
A

Just like this.

Q And can I have that exhibit, please, for a
moment? And this, that pocketknife then was found—
in whose driveway was that found?
A That’s the end of the driveway at 2015, right
there.
Q

Okay.
COURT:

Q

What exhibit was that?

That’s nowhere near the car.
COURT:
What exhibit was that?
What exhibit was that?

183a

Q

MS. BARYLSKI:
said—

Oh, I’m sorry, I thought I

COURT:

You might have.

MS. BARYLSKI:

7C.

COURT:

7C. Thank you.

Okay. Now, you were talking about 7D.

A 7D is marked with placard 18, which is another
suspected bullet skip in the grass.
Page 569
Q

Now, was this home hit do you know, 2009?

A

To my knowledge no.

Q Okay. Now, I’d like to hand you what’s been
marked State’s Exhibit 8A. Can you identify that?
A State’s Exhibit 8A is bumper of a Jeep that was
parked in the driveway at 2009, um—
Q Can you show us where it would have been
parked on State’s Exhibit Number 1, please?
A This driveway right here, approximately right
where that vehicle right there is parked.
Q

Okay. And what, what’s noticeable on that?

A There’s fresh blood on the bumper of this
vehicle.
Q Did somebody take—did anybody take some
wipes of that blood?
A I believe Lieutenant Orzech did. State’s Exhibit
8B is placard 10 with the confetti money or confetti
pieces of paper in the driveway that kind of puzzled us
initially.
Q

Did somebody pick that up?

184a
A Yes. That was located in the driveway right
next to the Jeep with the blood on it.
Q That—oh, I have to give it to you yet. State’s
Exhibit Number 26, can you identify that?
A Yes, this is the pieces of money that we seen,
paper scattered around on the driveway near the Jeep.
Q I’d like to hand you what’s been marked State’s
Exhibit
Page 570
19A, 19B, and 19C. What—that exhibit—if you
recognize it, explain it, please, and then explain the
relationship to item number—State’s Exhibit 26.
A During, during the investigation on this, if I
remember correctly, Detective Nixon had went to the
hospital. I kept in contact with him to check on the
status of the victim, Prince Hampton. At that time I
learned that Prince was actually shot twice, once in
the left arm and then also on the left upper thigh area.
I had also learned from Detective Nixon at that time
that he had a wad of cash in his left pocket that had a
bullet hole through it, so that’s when we realized that’s
where all the confetti was from. It blew out of his
pocket and laid on the ground. So we knew at one
point he was struck in that driveway.
State’s Exhibit 19A is a close-up photo that I took of
the money at the hospital showing the, the bullet
strike on it.
State’s Exhibit 19B is additional
photograph of the money. State’s Exhibit 19C was a
picture of all the money laid out at our police
department.
We laid it out and took another
photograph. It shows the identical cuts in all the
money where the bullet had struck.

185a
Q To your knowledge, um, to your knowledge do
you know, based on your investigation, what that
money was for?
A I had discussed that with Mr. Hampton when I
was at the hospital. He explained that it was money
that was being taken
***
Page 599
discussion between Ms. Barylski and Ms.
Gross at the State’s table.
MS. BARYLSKI:

I believe that’s it.

COURT:
examination?

Thank

CROSS EXAMINATION
DEMPSEY:

BY

Q

Good morning, Detective.

A

Good morning, Mr. Dempsey.

you.
MR.

Cross
TIMOTHY

Q I got a few questions I want to ask you about
this.
A

Okay.

Q You initially said that you were looking for
Prince Hampton, but he was not located at all.
A

I just said that?

Q

At the very beginning of your testimony.

A Oh, yes. Per the prosecutor, they needed
assistance in looking for Prince Hampton.
Q Okay. And then you had other officers looking
for Prince Hampton?
A

Yes, we did.

186a
Q And I believe you said you had other
departments looking for him?
A Um, not necessarily police departments. I think
possibly probation.
Q

Okay. So is Prince Hampton well known to you?
Page 600

A

I’m, I’m familiar with him.

Q

How long have you been a police officer?

A

Over 22 years.

Q Okay. And during the course of that, you’ve
come across Prince Hampton often enough?
A I, I’m familiar. As a department, we’ve come in
contact with him often enough.
Q Okay. Have you, have you been involved in any
arrests where he was arrested for something?
A

No, I have not.

Q Okay.
involved in?

Are you aware of any cases he was

A Yes, um, I believe that a—some drug related
cases that he was involved in, also some domestics,
some neighborhood dispute, disturbances, that type of
stuff that I’m familiar with.
Q Okay. I’m showing you what was marked as
State’s Exhibit 28A. Can you see that there?
A

Yes, sir.

Q And I believe you testified that that was a
picture of the bullet hole in the car that Prince
Hampton drove and parked in the McGill’s driveway
that morning?
A

That’s correct.

187a
Q Okay. And does that picture indicate that that’s
an entrance hole where the bullet went in?
A

That is correct.
***
Page 624

RECROSS EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q Detective, you said that the purpose of someone
to shoot is to kill, that’s one explanation. Is another
explanation that they could be trying to get them away
from them?
A

You could say that.

Q

As in self-defense?

A

You could say that.

Q Okay. Now, you said that as part of your
investigation you think that Prince got shot near the
house, near the car, in his arm first?
A

I believe so.

Q

Okay.

A I believe that he was shot just because of the
blood on the bumper.
Q Okay. And then there was a trail going towards
that bumper of that Jeep in the, in the next door
neighbor’s driveway?
A There is—sometimes when you, when you get
an injury, blood doesn’t start flowing automatically all
the time. I believe we looked at the grass. It’s a needle
in a haystack to find blood in a cut yard.
Q

Uh huh.

188a
A I think the first initial blood I do recall would be
on the bumper of the car.
Page 625
Q Okay. And that’s the location where you believe
that Prince was hit a second time and that was the one
that went into his leg?
A In the driveway at 2009 Aspen Run, yeah, he
was shot twi—
Q

Okay. Because that—

A

I believe the second time.

Q It makes sense because that’s where the confetti
of the money was.
A

Absolutely.

Q Okay. Is it also possible that at that location
Prince turned, and if he had a gun and he was pointing
it at Demetreus—
A

Absolutely, that is possible.

Q

Okay.

A

However, the witnesses didn’t say that.

Q

Okay.

A Actually Mr. Jensen said he never seen a guy
run that fast in his life.
Q

Okay.

A Referring
Hampton.

to

Demetreus,

I

mean,

Prince

Q Okay. Was there also a spent shell casing by
the confetti money?
A I don’t recall a spent shall casing by a—there
was one casing that I believe we did not find, um, and
I think that

189a
Page 626
it’s in that front yard someplace.
We looked
extensively. Again, needle in a haystack in the grass.
We use different kind of techniques to use, metal
detectors. You’d be amazed at all the aluminum foil in
people’s yards, gum wrappers.
It picks up on
everything.
Q

Okay.

A

So we, no, we could not find the last—

Q

Okay.

A

—shell casing.

Q

But wasn’t there a shell casing by the Jeep?

A I—if I can look at a picture. I can’t testify for
sure. I know that there was one on the sidewalk
marked as Exhibit 1.
Q

It might be these.

A If I recall, it was this 9 and 10. Ten was the
money and 9 was the blood on the bumper.
Q Okay. Looking at, showing you Exhibit 10A, is
that a little bit further away from the Jeep?
A

That’s correct.

Q

Okay.

A That’s just, just beyond the Jeep. This is the
skirt of the driveway coming into 2009—
Q

Okay.

A —2009, and the dirt skip where, not dirt skip,
but the dirt thrown on the sidewalk from—
Page 627
Q

Okay.

190a
A —the run and then the shell casing was down
farther at 1.
Q Okay.
found?

Isn’t it true that no guns were ever

A

That’s absolutely true.

Q

Okay.
MS. BARYLSKI: I’m sorry, what was that
question? I didn’t hear him.
MR. DEMPSEY:

No guns were ever found.

Q

Did you cordon off that whole area?

A

Yes, we did.

Q Okay. And that whole area being from this
driveway all the way over to here? Did you—did you
cordon off any of this?
A

No, that—that was not.

Q

Okay.
COURT:
And you’re referring to
State’s Exhibit 1?

Q State’s Exhibit 1. At any time did you look at
any of the bushes or in any of the backyards or
between any of the houses for any weapons?
A We did just a precursory search. I know that
there’s some officers out there, myself included, we
didn’t look under every nook and cranny, no.
Q Okay. So it’s possible that Prince, if he had a
gun,
Page 628
could have ditched it there and you didn’t find it?
A When, when a—when a case happens like that,
you get the unbiased witnesses, they’re the most

191a
valuable, which would be Mr. Jensen across the street.
At no time did he ever indicate a second gun. He didn’t
see a second gun in the other guy’s hand, um, so we
wouldn’t waste a whole lot of time looking for a second
gun that was never put there, so no.
MR. DEMPSEY:
Nothing further.

Okay, okay. Thank you.

COURT:
Thank you. You may step
down, sir. Thank you very much.
THEREUPON, the witness was excused.
COURT:
witness?

State

of

Ohio,

next

MS. BARYLSKI:
Lewis.

Um,

Officer

COURT:

Bailiff, call the witness.

BAILIFF:

Thank you, Your Honor.

Danny

COURT:
Isn’t he a—State? State?
Isn’t he a Sergeant?
MS. GROSS:

Yes.

COURT:

Isn’t he a Sergeant?

MS. GROSS:

Yes.

MS. BARYLSKI:

I don’t—I’m sorry, I don’t

***

192a

APPENDIX O
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME III OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

193a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 660
fires or evidence cartridge cases into a database and
potentially match them to other crimes and other
firearms. The results of that search came back
negative.
Q

Negative, okay.
MS. BARYLSKI: I
have
questions, Your Honor.

no

COURT:
examination?

Thank

MR. DEMPSEY:

Thank you.

further

you.

Cross

CROSS EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q

Good afternoon, Mr. Wharton.

A

Good afternoon.

Q Did you complete this report pretty soon after
you got the evidence from Sandusky Police?
A The report is dated August 20th. I believe the
evidence was submitted on June 30th.

194a
Q Okay. I got a copy of a report. Do you have that
in front of you?
A
Q
29?
A

I have, yes.
Okay. And that’s marked Exhibit, what is that,
State’s Exhibit 30.

Q Thirty, okay. It seemed to me that your report
has—you were submitted nine different either bullets,
casings, fragments, that kind of stuff.
A

That is correct, yes.

Q Okay. And you grouped them into three
categories. The
Page 661
first category was this Item 1, 2, 5, 6, and 7, which
would probably correspond with A, B, E, F, and G; is
that fair?
A

That sounds correct, yes.

Q Okay. And your testing results indicated that
they were all fired from the same weapon and that was
a Federal brand 9 millimeter Luger?
A

The—I’m not sure if I understand the question.

Q

Okay.

A Are you, are you referring to a firearm or a
caliber of weapon?
Q Well, your report says a Federal brand 9
millimeter Luger.
A That is referring to the caliber and the type of
cartridge case that was submitted.
Q

Okay.

195a
A That is not a weapon. It is true that a Luger is
a firearm, but 9 millimeter Luger caliber is a standard
caliber that is used in many different manufacturers
of firearms. So me—my reference to Federal brand 9
millimeter Luger caliber is referring to the fired
cartridge cases only.
Q

Okay.

A It’s not discussing or talking about any type of
weapon—
Q
A
that

Okay.
—except for a 9 millimeter, a weapon, a firearm
Page 662

is chambered to fire a 9 millimeter Luger caliber
cartridge.
Q Okay. Is the reference to Federal brand, is that
to a weapon or—
A No, that’s—that’s the brand of ammunition that
was in those five—
Q

Okay.

A

—five cartridge cases.

Q Okay. But that grouping of those five cartridge
casings indicated to you that those casings, those
bullets were fired from the same firearm?
A The cartridge cases, yes, were fired from the
same weapon, correct.
Q Okay. Then you have these Items 8 and 9 that
you looked at and it indicates there’s some matching,
but there wasn’t enough positive identification. It was
insufficient to match them to the other bullets.

196a
A That is correct. I was able to group the two
together where possibly they came from the same
weapon. I couldn’t rule, I couldn’t eliminate or rule
them out completely just because of the damage and
there just wasn’t enough individual characteristics
there to come to a positive or negative conclusion.
Q Okay. And then the last grouping is two other
items, Items 3 and 4, and when you tested those, you
couldn’t make any conclusive determination. They
didn’t match the other groups
Page 663
at all.
A They were never compared to the other bullets
because of—there just weren’t enough individual
characteristics there. They were damaged to the point
where I couldn’t—I couldn’t tell anything from them,
except for, you know, they were—they were definitely
a projectile at one point in time.
Q Okay. Now, there were no weapons submitted
to you; is that correct?
A

Not for this submission, yes, that’s correct.

Q Okay. Is it possible that some of these cartridge
casings or fragments were fired by different weapons?
A I believe you’re lumping different parts of my
report together. If I may, can I separate the two?
Q

Sure.

A The cartridge cases came from the same
weapon, positively identified coming from the same
weapon. The bullets, the two bullets, State’s Exhibit
29H and 29I, had some matching individual barrel
engraved striations, meaning they could have been
fired from the same weapon. Now, that weapon that

197a
fired the bullets may or may not be different than the
cart—the one that fired the cartridge cases, and the
reason I say that is because I didn’t identify the
cartridge cases or the bullet to a weapon.
Q Okay. And then these Items 29H and I, those
correspond to your Items 8 and 9 on your list?
Page 664
A

That is correct, yes.

Q Okay. And those were fired from one of these
three weapons that were listed on the bottom?
A One of these—now, the first page of my report
says that it could have been one of these three, but the
second page of my report, at the top, it says: Other
possibilities may also exist.
Q

Okay.

A We’re using a database that’s put out by the
FBI. It’s possible that there’s some weapon out there
that isn’t in the database and that’s why we have that
disclaimer that, you know, until we actually identify it
to a weapon, we can’t say positively that it came from
this type of firearm—
Q

Okay.

A —but based on the database, one of these three
manufacturers, but there could be something else out
there.
Q I was gonna correct myself.
weapon, I meant manufacturer.
manufacturers of weapons, right?
A

When I said
Those are

That is correct, yes.

Q And is it possible to know how many thousands
or millions of those kinds of guns are out there in Ohio?

198a
A

No, it’s not.

Q

Yeah. It’s in the thousands, if not the millions?

A

I would say so.

Q Okay. Did you ever get to examine a bullet hole
in the
***
Page 689
Q

And based on this picture.

A

Yes.

Q And you knowing that it is a fragment that’s
been damaged beyond—
A

Yes, it is.

Q

—analysis basically. Okay.
MS. BARYLSKI:
questions.

I

have

no

MR. DEMPSEY:

Just a couple of follow-up.

COURT:
sorry, recross.

Redirect,

or,

further

I

mean,

RECROSS EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q Mr. Wharton, getting back to my one point, that
because
there
were
insufficient
matching
characteristics among these bullets and fragments
that you got, it’s possible that there was more than one
gun?
A

It’s a possibility, yes.

Q Okay. And did you send any of these items into
that database for firearm identification?

199a
A The cartridge cases only. The bullets, there’s
too many variables with the computer system. The
database, the way it’s set up now, that very few, if any,
laboratories across the country enter bullets at all.
The success rate of matching cartridge cases is much
better. So primarily cartridge cases are entered into
that database, yes.
Q

Is that what you did in this case?
Page 690

A

Yes.

Q And it came back there was no identification
with any other—it didn’t match anything else in your
database?
A At the time of my search and the time the
results came back, yes, it did not—
Q

Okay.

A

—have a hit to any other cartridge case.
MR. DEMPSEY:

Okay. Thank you.

COURT:
Mr. Wharton, the Court
has a couple questions. State’s Exhibit
Number 30, is there an affidavit attached to
that document?
A Yes, at the back of it there’s what’s—what we
call in the laboratory our Statement of Qualifications.
Is that what you’re referring to?
COURT:
A

Uh huh.

Yes.
COURT:
yourself?

Is

that

signed

by

200a
A We do not sign these, like the drug chemists in
our laboratory sign their affidavit, but it’s, it’s very
similar. It shows my qualifications and educational
background.
COURT:
Is
the
information
contained therein true and accurate to the
best of your knowledge?
A

I believe so, yes.
COURT:
up

State of Ohio, any follow***

201a

APPENDIX P
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME IV OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

202a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 842
his part to be maintained, called as his first witness
DEMETREUS KEAHEY
who, having been first duly sworn according to law,
took the witness stand and testified as follows:
COURT:
around here.

Have a seat, sir.

MR. KEAHEY:

Huh?

Spin

COURT:
Spin around. I’m going to
give you the same instruction I gave the
other witnesses, okay? Everything’s being
recorded over here, so we need a verbal
answer to every question.
MR. KEAHEY:

Okay.

COURT:
Sometimes people shake
their head yes or no. That doesn’t get picked
up.
MR. KEAHEY:

Okay.

203a
COURT:
Sometimes they say “uh
huh”. We don’t know if that’s a yes or no, so
verbalize your answer, okay? We need you to
speak loud enough that everybody here in
the Courtroom can hear your answers.
They’re just as important as any one other
witness in this case.
MR. KEAHEY:

Okay.

COURT:
Those microphones in
front of you will assist you. You don’t have
to lean it towards it, but just speak towards
the mic. Now, you’ve
Page 843
been here and you’ve seen them object to
things.
MR. KEAHEY:

Uh huh.

COURT:
So when you hear
objection, stop talking until I make a ruling
MR. KEAHEY:

Okay.

COURT:
—okay? And then if you
don’t know what my ruling is, you can say,
Judge, am I allowed to answer, and I’ll let
you know yes or no, okay?
MR. KEAHEY:

Okay.

COURT:
You have one important
job here, that’s to give us answers to the
questions.
MR. KEAHEY:

Yes, sir.

COURT:
In that regard, you can’t
ask them any questions. Your whole job is to
answer.

204a
MR. KEAHEY:

Okay.

COURT:
Some—listen
to
the
question. Sometimes it’s just a yes or no,
such as is the sun out. Yes.
MR. KEAHEY:

Uh huh.

COURT:
Okay.
Sometimes it’s
explaining, like tell us what you saw, and
then you can explain. So listen to what kind
of question it is and give us that kind of
answer. Now, if you don’t understand the
question, you certainly can say, did
Page 844
you mean this, or could you explain because
I don’t understand. We want to make sure
we get the right answer with the right
question, okay?
MR. KEAHEY:

Okay.

COURT:
We’re going to begin by
you stating your full name and then spelling
your last name, okay?
MR. KEAHEY:

Okay.

COURT:

You ready to go, sir?

MR. KEAHEY:

Yes, sir.

COURT:
sir.

Begin with your name,

MR. KEAHEY:
A-H-E-Y.

Demetreus Keahey, K-E-

COURT:

Inquire.

MR. DEMPSEY:

Thank you, Your Honor.

205a
DIRECT EXAMINATION
DEMPSEY:

BY

MR.

TIMOTHY

Q

Demetreus, how old are you?

A

I’m 31, sir.

Q

Okay. Did you grow up in Sandusky?

A

Yes, sir.

Q

Where did you go to high school?

A

Sandusky, Ohio.

Q

Okay. Did you graduate from there?

A

No, sir. I received my GED.

Q Okay. And did you get that soon after you
would have graduated?
Page 845
A

Yes, sir.

Q Okay. There was an indication that you had
some problems with the law back in 2001?
A

Yes, sir.

Q Okay. And there was evidence presented of a
conviction?
A

Yes, sir.

Q

Okay. And you don’t deny that?

A

No, sir.

Q And about how old were you when that
happened?
A

I’d say around 20 years old.

Q

Okay. Are you married?

A

No, sir.

206a
Q Okay. There was prior testimony that you do
have a daughter?
A

Yes, sir.

Q

And what’s her name?

A

Kamora Keahey.

Q

And, and who’s the mother of that child?

A

That’s Kindra McGill.

Q Okay. And have you lived with your child and
Kindra off and on?
A

Yes, sir.

Q

Okay. What time frames?

A Um, before she was born, while she was born,
after she
Page 846
was born, basically up until when I got stabbed. I
chose to move out.
Q

Okay. Well, we’ll get to that.

A

Okay.

Q

Do you know Kindra’s family?

A

Yes, sir.

Q

And you know her mom, Joyce?

A

Yes, sir.

Q

Okay. And how do you get along with her?

A Not too good. She’s one of those mother-in-laws
that we just never, never hit it off too well for certain
reasons.
Q Okay. Does it have anything to do with her
other daughter, Angela?

207a
A Yes, that’s where it all initiated from. I met
Angela when I was I’d say probably about 18. She was
in her 20s. We kind of seen each other a few times,
like tried to date. It didn’t work out, um, you know.
She went her separate way. I went my separate way.
I’d say like maybe ten years later that’s when I met
Kindra. Me and Kindra hit it off. At the time I really
didn’t know who her family was. Like I, like I said,
her last name is McGill. Her older sister is Amsted. I
guess her mother had a daughter from a previous
relationship with another guy.
And once me and Kindra hit it off and things start
moving along, um, she done find out that she was
pregnant, so
Page 847
that’s when I basically started to meet her family.
Once I met her family, that’s when I found out that
her—she has an older sister by the name of Angela,
and I had to break the news to her that I knew who
Angela is and that I met her when I was younger and
we had dated, um, you know. It wasn’t nothing that
serious, but I, I mean, I had to tell her. I didn’t want
to keep it a secret.
Once I told her, she confronted Angela to ask
Angela, um, was it true (inaudible). I guess when
Angela found out that me and her was dating and that
she was pregnant, Angela blew up, like how could you
be dating a guy that I used to like, what so have you.
Angela went to her mom, got her mom to—
MS. BARYLSKI:
hearsay in this.

I’m going to object to the

COURT:

Sustained. If you could—

208a
Q Okay. You can’t testify about what other people
said to you.
A

Okay.

Q So how do you get along with Kindra and
Kamora in 2010, 2011?
A Well, we got, we got along great. I mean, we
were a happy family. I mean, everything was going
great. I just had a daughter born. I mean, the sky was
the limit.
Q

Okay.
Page 848

A I mean, we, we was just trying to build. She was
in school. I was trying to get back enrolled in college
at BG. It was, it was great.
Q Okay. And you’re, you’re aware that Kindra
had other children?
A Yes, she had two boys from a previous
relationship with Prince. At the time, I mean, I heard
a lot of stories about him. We wasn’t all that so close
and familiar.
Q

Did you know Prince from high school?

A Yeah, he, he was in like a grade or two higher
than me, um, that was really—
Q

Okay.

A

—pretty much when I got to the high school.

Q

So you didn’t know him that well then?

A

No.

Q

But you knew who he was?

A

Yeah, I heard a lot about him.

209a
Q Okay. How did you get along with Kamora and
his kids when you were with Kindra?
A Oh, we got along great. Um, the boys loved me.
Um, I didn’t, I didn’t have a son. I mean, I took a lot
of liking to that, being that me and Kindra was
together, you know. I accepted the kids, all of ’em, like
as if they was mine. I didn’t treat ’em no different.
Q Okay.
between you

Did this cause problems or friction
Page 849

and Prince because you were with his, his sons, his
boys?
A Uh, yeah, I mean, that’s why everything really
started to build up. I mean, he didn’t like the fact that
I was interacting with his kids a lot. Um, he would—
I guess at one, one point in time his son had told him
that he was having more fun when he be with me than
he, than he does with him, like it’s boring when he,
when he, when he comes to get them, um, and he
just—man, he was blowing up. He was mad. He was
confronting her about having me around, and she’s
tryin’ to tell him about, you know, me, we’re together,
so I’m gonna be around his kids, that, you know, I don’t
do nothin’ to harm the kids, so he shouldn’t really have
no, no problem with that. He still wasn’t liking that.
He wasn’t—
Q Okay. Did you end up trying to talk to him
about that in May of 2011?
A Yes, that’s how the incident came about with me
getting stabbed. He called and he was going off on
Kindra about me interacting with the kids, and she

210a
tryin’ to explain to him that, you know, I mean, I live
there, the kids live there, like we—
MS. BARYLSKI: Objection, Your Honor,
again, to the hearsay.
COURT:
Sustained. Ask, ask it in
a different manner—
Q

Okay.
Page 850
COURT:

—or frame it.

Q Okay. Tell us what happened on that May 7th,
2011 date.
A Um, well, basically, um, he, he was on the
phone. He was arguing. She was trying to break it
down to explain to him—
Q

“She” being Kindra?

A Kindra, yes, Kindra. He kind of like, well, got
mad, and he’s like, well, I’m—I’m gonna be out there,
and he, he hung up. Um, when he came out there, I
tried to—I wanted to go outside to explain to him like,
you know, I mean, it’s not that serious, um, you know,
like I’m not doin’ nothin’ to your kids, like why, why is
it such a big deal. Um, Kindra’s trying to—she’s trying
to add her, her half in as well. I’m trying to calm her
down, like, you know, like we both men. We can, we
can talk. I told her just to, you know, relax, you know
what I mean?
And as I was telling her that, you know, like she can
just go, go back in the house, like it’s all right, like we
was—I’m gonna just explain to him, she’s saying, no,
no, no, just this and that, and, um, I finally got her to
kind of calm down and start headin’ back towards in
the house, and when I turned back to him, that’s when

211a
he flicked, you know, he had the knife and he flicked
it out and he was like, you know, trying to come at me.
So I tried to turn around and tried to
Page 851
run and that’s when he stabbed me in the back.
I mean, I mean, the pain and everything, like I kind
of like fell to the ground and that’s when he jumped
towards like on my back and he was stabbing me a few
more times. By this time that’s when she came
running back out and trying to say like, like yelling at
him, like what are you doing, like stop and this, this
and that, and it kind of broke the tension a little bit
and that’s when I was able to finally get a chance to
get up and run and, you know, eventually get away
from him.
Q

What did you do next after that?

A I, I, I ran, I ran to the car and told her I needed
to get to, to the hospital, and, um, blood was just
squirting out and stuff, it was just going everywhere,
and, I mean, I was like getting real lightheaded and
like, you know, just, I mean, just—I can’t even explain
the pain, but it—I don’t know, I just felt like I was
dying.
Q

Okay.

A

Once I—

Q

Do you know what kind of injuries you had?

A Yes, I had a collapsed lung. Um, I almost
punctured my liver. Um, he had to actually—the doc
had to actually cut me open to stick a tube in there,
because I had internal bleeding on the inside, to get
the blood up out of there. He had to stitch me up. I
was in ICU for like probably like three or four days.

212a
Page 852
Q Okay. And during that time did the police try
to come and talk to you about this?
A No, they only came to talk to me when I first got
to the emergency room. Um, when the specialist or the
surg—the surgical guy, when he actually first got me
in there, he had me like put on a mask to try to put me
under, they call it put you under, for like medicine to,
um, so you can’t feel the pain, I guess, um, and that’s
when the police come in and they tryin’ to ask me
questions, but the doc’s telling ’em that, you know, I
need to—he need to get me down so he can start the
surgery.
They, they proceeded to try to ask me a few
questions like, you know, um, what happened, was I
stabbed, and I told ’em, yeah, I was stabbed, and the
doc was tryin’ to, you know, he was tryin’ to work,
tryin’ to work, and I’m under the medicine, and I
really—I really couldn’t say too much to ’em.
Q

Okay.

A

Um, that was about it.

Q

How long were you in the hospital?

A

About three or four days.

Q

Okay.

A

Five days.

Q And after you got out, at any time did you
contact the police about what happened?
Page 853
A

No. Um, while I was in the hos—

Q

What, what was the reason?

213a
A While I was in the hospital, um, my family and
friends was coming to check on me and see about me
and that’s when I got word that if I was to tell, that
him and his friends was basically gonna—they gonna
do something to me. They gonna get me, um, that I
better not say nothin’.
Um, at that time, you know, I had to—I had to think
about, you know, what I’m gonna do once I get out of
there and my, my family as well. So I really—I chose
not to really—well, they never came back and talked
to me, but I chose not to call them and say nothin’
to ’em, but I tried to advise to Kindra that, uh, that she
should tell because, you know, she got kids by him and
I know he wouldn’t do nothin’ to her, I mean, you know
what I’m sayin’? So I was tryin’ to get her to say, say
something to the police for me, and she was like, she’s
like, well, she ain’t—she’s not gettin’ in the middle.
She was—she was scared. So she’s like, you should
have just said something, and, um, that’s when the
friction started coming between me and her because,
um, I felt that, you know, if she tell, like I said, he
wouldn’t—he wouldn’t do nothing to her. They got
kids together, I mean, so.
Q Was that the basis for some of those text
messages between you and her?
A

Yes, sir. Yes, sir.
Page 854

Q

Okay. And did you fear for your life—

A

Yes, I mean—

Q

—as far as Prince Hampton?

A Yeah, I mean, he said he was gonna do
something. I mean, I know what him and the Black

214a
Point Mafia, I know what they do. I mean, it’s not no
secret about him and his guys. I mean, I just didn’t
really want no problems, I mean, especially about this
interacting with, with the kids.
Q

Okay.

A I mean, I feel if we had a relationship, I mean,
I’m supposed to interact with the boys. I mean, I got
to accept them as well. I can’t treat my daughter good
and, and, and not interact with the boys and they’re
right there.
Q Okay. After you got out of the hospital, did you
move back in with Kindra or did you move out?
A Oh, no. Once I got out the hospital, um, I was—
I was afraid. I mean, I didn’t—I didn’t want to go
there. Um, I didn’t know if he would try to come back.
I mean, he know, he knows where we stays at, where
we stay at, and, um, I basically feared for my life. So
I moved out, and I moved with, um, moved in with my
sister, um.
Q Is that—did you get anything for protection at
that point?
A Yeah, at that point that’s when I was gettin’ the
word that they were out looking for me, trying to find
me, um.
Page 855
MS. BARYLSKI:

Objection, Your Honor.

COURT:

Basis?

MS. BARYLSKI:

Again, hearsay.

COURT:
one. Go ahead.

I’m going to overrule that

215a
A Um, I was basically getting the word that they
was out looking for me, that, um, when they catch me,
um, I’ll know what it is, and I took that as a—that they
was gonna kill me. I was scared, so I really wasn’t
goin’ to—I wasn’t goin’ nowhere.
Q

Okay.

A I mean, it just had got to a point where, you
know, I still had to go to the doctor to have ’em check
on my wounds and to give me medicine for the pain
and stuff, um, but I was—I was afraid to go anywhere
at that point.
Q So you moved away from Kindra because you
didn’t want anything to happen to her or the kids that
were there and you moved in with your sister?
A Yeah. I mean, I (inaudible) much, um, I knew
he wouldn’t—he probably wouldn’t harm his kids, but
he didn’t care. I mean, I knew he would try to do
something to me, and Kindra was—she afraid of him,
so I’m like, well, hell, there ain’t nothin’ to really stop
him. If he, if he come out here, he knows, he knows
where she stay at, I mean, but I knew he doesn’t know
where my sister stay at, and, plus, like I—I
Page 856
asked her to really say somethin’ to the police for me,
because I was scared, and she wouldn’t, so.
Q

Okay.

A I’m just like, well, I mean, I didn’t want to be
there. I was, I was scared.
Q

Yeah.

A So I moved in with my sister, and once I moved
in, me and her was kind of feuding a little bit, um.

216a
Q

But you still saw her and the kids?

A Yes, yes, she would come by my sister house.
Um, we would sit at my sister house and talk and I
would, you know, interact with my daughter. I would
watch my daughter while she go to work. Um, I was
just—at the time, like I said, I was just—I was just
scared, and I felt the best thing for me to do was just
stay in the house and—
Q Okay, okay. Last question about the May 7th
incident. Did you have any weapons on you at that
time?
A

Oh, no, sir.

Q

Okay.

A Um, like I said, I was going through to try to
talk to him to explain to him why me, him and the kids
actually, you know, why, I mean, why we get along so
good.
Q

Okay.

A But he didn’t—he wasn’t—he wasn’t tryin’ to
hear, period.
Page 857
Q Okay. Let’s go to June 20th, that’s why we’re
all here. What happened first thing that morning?
There was testimony from Kindra that there was a
phone call. Did you call her or did she call you?
A Oh, well, earlier that morning, um, June 20th,
my daughter had an appointment, her and DeQuan,
which is her youngest son by Prince. My daughter was
actually getting her first shots for the year. Um, we
had been to the doctor other times, but this was her
first shots.

217a
Um, so I told her that I would meet her at the
doctors, but at this point in time she had stopped
staying at her home on Wil—our home on Wilbert
Street and kind of start staying with her mother
because she didn’t want to stay out there by herself
neither. She was either scared to stay out there or she
just didn’t want to stay and she just had had surgery.
The doctor orders was for her to not really drive or do
too much lifting or moving around.
Um, when the doctor appointment was there, um, I
told her I’ll meet her there, because I really didn’t—
me and her mom really didn’t get along to well, but, I
mean, it really wasn’t no big deal, and, plus, I didn’t, I
didn’t know. I just, I just felt that, you know, I’d rather
just meet her there so there wasn’t nothing happen,
um.
Q

Did you talk to Kindra that morning?

A

Yes, I did.
Page 858

Q Okay. And did you kind of change your mind
about just meeting her there and—
A Oh, yeah. Um, at that point, after I brushed my
teeth and got myself together, I decided, well, you
know, I ain’t gotta be no, what can I say, ass about,
um, just meetin’ her there when I can—when I can just
go pick her up as a family. The doctor’s is like only a
couple, about three, four minutes away from where her
mom stays, and she wasn’t supposed to be driving
anyway, but she the type of person that’s gonna do,
you know, if that’s what she want to do, she gonna
drive. So I, I went to pick her up.

218a
Q Okay. You wanted to help her with the kids as
well and drive—
A

Yeah, we all—we all can just go together.

Q

Okay.

A I just feel we can—I can pick ’em up and we can
all go together, like we usually do.
Q About what time did you get over to the McGill
house on Aspen Run?
A I’d say probably about like in between like 8:30,
a little before 9:00, because the appointment was at
9:00.
Q Okay.
house?

What happened when you got in the

A Well, when I got to the house, um, soon I got in,
her mother, like always, tryin’ to find somethin’ to pick
with me, um, she gets to rappin’ on and then she start
talking about my
Page 859
shoes. I really didn’t want to argue with her. I never
disrespected her. I didn’t want to—I wasn’t gonna
disrespect her that day neither. So instead of me
letting things blow up, I just turned around and was
like, well, I’m (inaudible) just leave, and I was just—I
was gonna go back to my car and either wait on Kindra
or just drive to the thing and just have her come up
there because—
Q

Okay.

A

—her mom—

Q So you were gonna wait for her at the car and
have her bring the kids out and you would go in your
car—

219a
A

Yeah.

Q

—to the doctor’s appointment?

A

Uh huh.

Q Okay. Does Joyce have an issue with people
wearing shoes in her house?
A Um, it’s an issue, but she doesn’t always enforce
it. She—I don’t—like I said, I really don’t go there too
many times, but the few times I have been over there,
I done seen people with their shoes on, um, sometimes
they got their shoes off. I mean, it’s just when she
wants to enforce it or say something to somebody,
that’s when she like, take your shoes off. Why you got
your shoes on.
Q Okay. So you decided rather than take your
shoes off or argue with her, you’re just going to leave
the house and
Page 860
wait outside, and so you left the house and went
outside. What happened next?
A Um, well, as I was coming out the door, um,
taking a few steps, um, to come down the driveway,
that’s when Prince pulled, starts to pull into the
driveway. I guess once he sees me, he like accelerate
up the driveway real fast, so that’s when I like got up
against the house so he, so he couldn’t hit me. And I’m
like, damn, like what the hell is he doing.
COURT:

(Inaudible).

A And I was like—I was lookin’ at the car, um, and
he just, he just hopped out with the knife like, like,
here, nigga, and I panicked, and I was like backing up
and, you know, I pulled, I pulled out the gun and I
fired, and that’s when he start running like back up

220a
towards the front of the car and that’s when I tried to
turn around and start heading back towards my car,
um, but before I could even reach the sidewalk area,
that’s when I heard the shot. And when I, when I
turned around to see what, what the hell was going on,
he was—that’s when he was comin’ down the driveway
like this with his arm out with a, with a gun, and I just
fired that way a couple times and he like, um, he like
sidestepped like through the grass. Like this is the
house right here. There’s like a little area right there.
He like sidestepped through the grass, but he was still
aiming at me, so I fired a couple more times and, um,
as he was runnin’ like he, um, he like tripped
Page 861
and like kind of fell, but he, but he bounced back up
and, um, and he turned around, was about to fire some
more, and that’s when I just charged towards him,
firing, before he can really get his balance and, you
know, like get his shot off to me and to either force me
to run or he was gonna get—or he gonna get shot,
because he really, he was, you know, in the midst of
like going like that.
Q

Okay.

A And I must have hit ’em and he took off, and
when he start running, that’s when I turned back
around and got into my car—
Q

Okay.

A

—and hopped in and drive off.

Q Let me, let me try to focus you on one part of
that. At one point there was testimony that he was by
a Jeep in the driveway of the home next door to the
McGills—

221a
A

Uh huh.

Q —and that he stopped there at that Jeep. Do
you remember that and what happened there?
A Um, like I said, as he cutting across the yard,
like he wasn’t so much like at his back, he was like to
the side, like aiming like that, and he must have
tripped, or maybe I shot him when I shot those few
times. Um, still, when he—when he bounced back up,
he was like—that’s when he was right there like by
that Jeep, and I seen him like trying to come back up
Page 862
so he can shoot, and I, and I just shot, and, um, he
like—I must—when I shot them times, I guess I must
have hit him, because instead of him really getting
that (inaudible) left to shoot, he like fell back a little
bit and then he took off running, so, and that’s when
all the—because I was charging at him, shooting, to
make him either force (inaudible) either he was going
to run or he was gonna get shot because he didn’t have
a good chance to really fire his gun because he was
coming around like that.
Q

Okay.

A And he, he took off. When he, when he took off,
that’s when I turned around to my car and ran back to
get in my car to leave.
Q Okay. Until you turned around and left, were
you in fear for your safety?
A Yeah. I mean, I mean, it was—it was happening
so fast. It wasn’t like it was just a slow motion type
thing. Um, like I said, when he was running sideways,
like trying to get the shot, if I’d have turned around to
go to my car, he (inaudible) would have just shot me in

222a
the back or in the back of the head. I mean, I’d have
been dead. I mean, it wasn’t—it wasn’t like it was,
um, like I really had time to turn around and leave.
He was just—and it wasn’t like he was like running
to—like he was running, like leaving the area, and
then he was just—he was like just sidestepping so I
Page 863
couldn’t shoot him from, you know what I mean,
because when he charged down the driveway towards
me, that’s when I turned around and seen it—
Q

Okay.

A

—and I shot.

Q

Okay.

A

And he like sidestepped, but he was like—

Q Okay. As soon as he got shot and started to run
from that Jeep, next, next to the Jeep, next door to the
McGill’s house, did you take any steps to go after him
at that point or did you just go back to your car?
A

Can you repeat that for me, sir?

Q After he got shot by the Jeep and left, it sounds
like you just went back to your car then?
A Oh, yeah, like—like I said, when he was
(inaudible), like turning to shoot, that’s when I, I was
firing, like charging him, so he couldn’t really like get
a good shot off, and when I was charging at him, that’s
when he turned around and started running. So like—
so when he started running, that’s when I turned
around and started running to my car.
Q Okay. So then you got into your car and what
happened next?

223a
A Well, my car was like parked like diagonal from
the house, so I ran across the street, had to unlock the
car, had (inaudible) in the car and I start it up.
Page 864
Q Here’s Exhibit 1 and this is an aerial map of
Aspen Run, and I believe that’s the McGill home right
there, the driveway?
A

Uh huh.

Q And is it—I think there was testimony that your
car was parked across the street here?
A Yeah, just scoot it back just a little bit. About
right there, sir.
Q

Right about there?
COURT:
there, okay?

A

Here, the button is right

Thank you.
COURT:
map.

Just point to it on the

A

This the McGill’s house right there?

Q

Right, that’s the McGill’s house.

A My car was parked probably about like right
there because there—
Q

Across the street or—

A

No, across the street—

Q

Across the street?

A

—from her house.

Q

Okay.

A Uh huh, because you only can park right on this
side.

224a
Q

Okay. And which—was it facing this way?

A

Yes, it was facing that way, because when you—

if
Page 865
you’re in The Timbers, um, like it’s the quickest exit to
get out of there, but I park right there because you
can’t really, um, they really don’t like people pulling in
their driveway, because when her father get home or
they don’t—he don’t want to have to—to have
somebody come out tryin’ to pull the car. He want to
be able to pull in his own driveway, so that’s why I
parked on the side of the street.
Q Okay. And after you got to your car, which way
did you go?
A Well, my car was facing this way, so I didn’t
have no choice. I just went this way.
Q

This way?

A

Yeah, and I was trying to—

Q

Over here?

A And I veered around the corner so I can leave
and go this way to get out.
Q

Okay. What happened when you got over here?

A Oh, yeah. When I got around the corner right
here, um, he was like standing there and he, and he
pointed to the car like, like, nigga, you dead, like, like,
like, yeah, mother fucker, you dead.
Q

Uh huh.

A But I just, I just kept going and that’s when I, I
just left the area.

225a
Q Okay. After this incident, did you think he was
gonna
Page 866
do something to you?
A Yeah. I mean, he already had—he already had
told me right there, like, nigga, you dead, and I knew
who his, who his people was and, I mean, like I said, I
was already in fear from him. So when I left, let’s see,
I was, I was panicked, I was scared, I was nervous. I
didn’t, I really didn’t know, you know, what to really
do. Um, I drove and, um, I just—I was like, well, I
better just get the hell out the way, so that’s when I, I
left.
Q

Okay.

A

I left and went to Erie.

Q Okay. Eventually, three months later, you
turned yourself in?
A

Yes, sir.

Q

Did you go right to the police station?

A Yes. When I turned myself in, I went right to
the police station.
Q Okay. You were still concerned for your safety
at that point, though?
A Yes, uh, that’s why I went to Erie from the getgo. I mean, I didn’t want to stay around here and his,
his friends or him catch me, um, so I stayed in Erie. I
was, um, I tried to contact my family, um, to notify
them, um, of what, what was goin’ on. That’s when
they said that the police was looking for me, um, that
they, that they got me considered armed and

226a
Page 867
dangerous, and I’m like, what the hell. Why, you
know, why they consider me armed and dangerous?
And they’s like, well, that’s, that’s is what they saying
and, um, they, they lookin’ for you. So I’m like just like
puzzled, still scared. So I’m like, well, should I need,
um, do I need to get a lawyer or whatever? And they
was like, yeah, we think you should, we think, we
think you should get a lawyer. We gonna try to get
some money together to get you a lawyer. Um, so we
were tryin’ to get the money together to obtain some
counsel so I can go down there and talk to ’em, I mean,
because I felt like I, I mean, I didn’t do nothin’ wrong.
I mean, I was just trying to protect myself and stop
him from—if I, if I wouldn’t have had that gun or
wouldn’t have did that, I’d have been more than likely
dead out there.
Q

Okay.

A

Luckily I did have it.
MR. DEMPSEY:
other questions.

Okay.

Thank you.

COURT:

Cross examination?

No

CROSS EXAMINATION BY MS. MARY ANN
BARYLSKI:
Q Mr. Keahey, in 2002, excuse me, you were found
guilty of preparation of crack for sale, attempted
escape, trafficking in crack cocaine with an
enhancement. You went to prison for 17 months; is
that correct?
A

Yes, ma’am.

227a
Page 868
Q You received judicial release, being probation;
is that correct?
A

Yes, ma’am.

Q Then you violated your probation. You went
back to prison, right?
A

Yes, I was at CROSSWAEH and, um—

Q

All you have to do is say yes.

A

Well, yes, ma’am.

Q Two thousand and five, in case number 2005CR-640, you were found guilty of possession of cocaine
and attempted having a weapon under disability, were
you not?
A

Yes, ma’am.

Q And then in case number 2007-CR-124, you
were found guilty of possession of cocaine and
trafficking in cocaine, were you not?
A

Excuse me, that was when?

Q

Pardon?

A

And when?

Q

In 2007.

A

Uh—

Q

Possession of cocaine, trafficking in cocaine.

A

In 2007 I was convicted you said?

Q

Yes.

A Uh, no, that was for the pre—the charges that
you just stated, that’s what I was convicted for. The
charges in

228a
Page 869
2007 were dismissed on grounds of illegal search and
seizure by Judge Tygh Tone.
MS. BARYLSKI:

I need a sticker.

MS. GROSS:

Thirty-four. It will be 34.

MS. BARYLSKI:

Thirty-four?

MS. GROSS:

Uh huh.

Q I’d like to hand you what’s been marked State’s
Exhibit Number 34.
A

Yes.
MS. BARYLSKI:

Oh, I’m sorry, Judge.

Q I’d like to hand you what’s been marked State’s
Exhibit Number 34.
A

Yes, ma’ am.

Q

I’d like you to look that exhibit over.

A Oh, this is when I actually, um, was sentenced
on the charge.
Q

You were sentenced on and convicted?

A

Yes, that’s in 2008.

Q

Is this in 2008?

A

Yes, ma’am.

Q And you were sentenced and convicted for
possession of cocaine and trafficking in cocaine; is that
correct?
A

Yes, ma’am.

Q And then in 2005 you were convicted of
possession of cocaine and attempted having a weapon
under disability,

229a
Page 870
correct?
A No, I wasn’t convicted in 2005. I think that’s
when I caught the charges, in 2005, but I, but all the,
all the—
Q Okay. Two thousand and eight you were
convicted of—
A

Can I see the paper, ma’am?

Q

Sure.
COURT:

Mark it.

MS. BARYLSKI:

What number are we on?

MS. GROSS:

Thirty-five.

Q I’d like to show you this nunc pro tunc entry,
and I’ll give it to the Judge first.
COURT:

Huh?

MS. BARYLSKI:
the Judge first.

No. I said, I’ll give it to

Q Take a look at that and look what you were
convicted of in case number 2005.
A This is, this is stating that I was sentenced in
2008.
Q

I’m talking about the case number 2005.

A Oh, yeah, that’s when I actually received the
charge.
Q
640.

You were convicted in case number 2005-CR-

A

That’s when I received the charge, ma’am.

Q

Is that correct?

230a
A That’s when I received it. You, you, you saying
when I received it and got convicted.
Q

Is that correct? Were you convicted of attempted
Page 871

having a weapon under disability?
A Yes, in 2008. I received the charge in 2005,
though.
Q And that was reduced down—nevermind. And
you were also convicted on that, in that particular case
of possession of cocaine, correct?
A

Yes, ma’am, 2008.

Q And then case number 2005-CR-640, which you
just saw, and case number 2007-CR-124, you received
sentences of 18 months on each of those cases and that
the cases were run consecutively. So you went back to
prison; is that a fair statement?
A Uh, them—those sentences ran concurrent,
and, yes, I did went, went back.
Q

I’m sorry, what did you say?

A I was sentenced to 18 months on both cases and
it’s running concurrent and I went back to prison, yes,
ma’am.
Q

I’m sorry, concurrent, okay.

A

Okay. Thank you.

Q

And you went back to prison?

A

Yes, ma’am.

Q So besides the case that you’re admitting to
with regards to your disability and not being able to
carry a weapon, you already admitted in case number
2001-CR-465 that you were convicted of attempted

231a
escape, preparation of crack cocaine for sale, and
trafficking in crack cocaine, correct?
Page 872
A

Yeah, I understand that, yes, ma’am.

Q Now, that—you knew, based on that conviction
alone, that you were not allowed to have a gun; is that
correct?
A

Yes. I was explaining that, ma’am.

Q Then under case number 2005-CR-640, you’re
charged with attempted having a weapon under
disability, aren’t you?
A

Attempted, yes, ma’am.

Q

And you went to prison for that?

A

Yes, in 2008, yes, ma’am.

Q Well, you went to prison under that case
number; is that correct?
A

Yes, ma’am.

Q

So you’ve been to prison at least two times?

A

Yes, ma’am.

Q And been on probation once and violated; is that
correct?
A I actually didn’t even get to make probation. I
was—
Q You went to—you were on probation. You
violated. You were sent back to prison; is that a fair
statement?

it.

A

If that’s how you want to put it.

Q

No. I’m just asking a question. Please answer

232a
A

When I, when I, when I was, I was—

Q I don’t—I’m not asking for a reason why you
violated your probation.
A

I just want to, I want to, I want to explain to you
Page 873

what I’m trying to say.
Q

Sir, I’m asking the questions.
COURT:
on.

Hang on, hang on, hang

WHEREUPON, there was a discussion
at the Bench between the Court and the
witness as follows:
COURT:
Listen to the question
(inaudible). Sometimes it’s just a yes or no,
sometimes it’s explaining. If she’s asking a
yes or no question, you have to answer yes or
no. Your counsel can get back up and ask you
to explain.
A

Okay.
COURT:
of question.

A

Okay. Listen to the type

Okay.
THEREUPON, the discussion ended and
the following proceedings were had:
COURT:

A

Go ahead, State.

Yes, ma’am.

Q Going back to May 7th, 2012, you gave this
story about
Page 874
Prince not liking you having contact with—

233a
A

The boys.

Q

—his children; is that a fair statement?

A

Yes, ma’am.

Q And he was upset because you and Kindra were
together; is that a fair statement?
A

Yes. He didn’t care for that too much.

Q So he came over to—or you went over to him or
he came over to you? I didn’t quite get that with all
the—your arms swinging around. Did he come to you
or did you go to him?
A
me.

Well, I was explaining to you that he came to

Q

Okay, fine. He came to you—

A

Yes, ma’am.

Q

—because of these two reasons, right?

A No, it was, it was more so he was mad about
things that was taking place, so he came out there and
that’s when I was trying to—
Q

Okay, fine.

A

—explain to him.

Q He came to you because he didn’t like you being
with—
A

For other, a lot of reasons.

Q —his children, he didn’t like you being with
Kindra; is that a fair statement?
A I can’t speak for all the reasons that why he
don’t like me—
Page 875
Q

I’m sorry.

234a
A

—because he’s not here.

Q

Just answer the question yes or no.

A

I don’t—I can’t speak for him. I don’t, I mean—

Q

Okay.

A

—you’d have to ask him.

Q All right. Let’s stop. You listened to the text
messages with regards between you and Kindra?
A

Excuse me?

Q You listened to the text messages that were
read between you and Kindra?
A

Yes, ma’am.

Q That—Officer Wichman, Detective Wichman
read them; is that correct?
A

Yes, ma’am.

Q Okay. Isn’t it a fact that the reason Prince came
to you was because you were hitting on Shawneata
Grant?
A

Oh, no, that was also—

Q

Just answer yes or no, please.

A

That was another reason.

Q In fact, your message between Kindra and you
on 6/15, she states: You should have never been the
thirsty grimmey ass nigga you are and been trying to
get on with Shawneata. Now shut the fuck up talkin’
to me, and you right, I am getting upset. Maybe I
thought we could work something out, but you
Page 876
just showed me that it couldn’t ever, plus keep talkin’
to the hoe and make her your main bitch.

235a
A She was referring to Cheritta, um, and dating.
When she was there, she was—
Q

I’m not, I—

A I’m trying to—can I see the text so I can explain
it to you? I mean, is that better, ma’am?
Q I just read it to you. Do you remember that
text?
A

Can I see it?

Q No. Do you—I read it to you. Do you remember
that text?
A

Yes, in the form I do.

Q In fact, Anrico Cunningham, one of the children
that were in that vehicle on June 20th, is—is it
Cheritta or Shawneata? It’s Miss Grant’s child, isn’t
it?
A

Miss Grant is Shawneata.

Q

Shawneata, okay.

A Yes. That’s not Cheritta.
people you’re speaking about.
Q

Shawneata.

A

Yes, ma’am.

Q Her name is Shawneata.
Cunningham Shawneata’s son?
A

It’s two different

Isn’t

Anrico

Yes, if I’m speaking correctly.

Q And wasn’t Anrico Cunningham in that vehicle
on June
Page 877
20th when shots were fired at the McGill house?

236a
A Um, I really don’t know, ma’am. Like I said,
when it all took place—
Q

I—

A —it was happening so fast.
because I—
Q

I don’t know,

Okay.

A —couldn’t see in the car, that the windows are
tinted, ma’am.
Q That’s all you have to do is say I don’t know.
Kindra knew who stabbed you, correct?
A

Yes, she did.

Q Yet you wanted the code of the street to be
followed; isn’t that a fact?
A It wasn’t so much of a code to be followed. It
was just—
Q

It—

A

I was in—I was in fear.

Q

Just say yes or no, please.

A

No, no, it wasn’t—

Q

You wanted the code of the street to be followed.

A

No, it wasn’t—no, ma’am, there wasn’t a code.

Q And you heard the text messages from
Detective Wichman?
A

Yes, ma’am.

Q And he read a text that you sent to Kindra that
stated
Page 878
basically follow the code of the street.
A

No, that was her text to me, ma’am—

237a
Q

Okay.

A

—if you read that.

Q

Follow the code of the street.

A

That was her text.

Q You have somebody at the Sandusky Police
Department that you trust quite extensively, don’t
you?
A

No, ma’am.

Q

Oh, no? What about Dana Newell?

A No. I mean, me and Dana Newell doesn’t have
any friendship.
Q And that you could have gone to Dana Newell
and told them what happened to you on June 20th,
2011, but you didn’t do that, did you.
A

I was in fear, ma’am. I didn’t want to—

Q

You didn’t do that, did you.

A —say nothing about my life. I was in fear about
my life.
Q You could have gone to Dana Newell on June
20th, 2011, but you did not do it, did you.
A

I could have been killed if I went and told—

Q

I—

A

—Dana Newell that.

Q
not

That’s not the question I’m asking you. You did
Page 879

contact Dana Newell, did you.
A

No, ma’am, I did not tell. No, I did not, ma’am.

238a
Q One of your best friends, Calvin Harper, was
murdered, correct?
A What does that have to do with this case,
ma’am?
COURT:

Wait, whoa, whoa, whoa.

MR. DEMPSEY:

Objection, Your Honor.

COURT:

Hang on.

WHEREUPON, there was a discussion at
the Bench between the Court and the
witness as follows:
COURT:
Remember, I said you
can’t ask questions of them. You just asked,
what does this have to do with the case?
That’s (inaudible). Your job is to answer
questions, remember.
A

So she can talk about something—
COURT:
She can—you have to
listen to the question and give an answer.
Your whole job is to answer questions.

A

Yes, sir.
COURT:
You just asked her a
question. You can’t do that.

A

Okay.
Page 880
COURT:
Now, listen.
Your
counsel can get back up and ask you to
explain it, but in the meantime, you just have
to answer questions, okay?

A

Yes, sir.

239a
COURT:
You
will
get
your
opportunity through your counsel, okay?
A

Yes, sir.
COURT:
the question.

Okay. Go ahead, answer

THEREUPON, the discussion ended and
the following proceedings were had:
MR. DEMPSEY: Could
Honor? Approach?
COURT:

I

object,

Your

Basis? Sure, approach.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
MR. DEMPSEY: I don’t see how any
mention of Calvin Harper and his murder is
relevant to this
Page 881
case at all.
COURT:

How’s it relevant?

MS. BARYLSKI: I am going to ask him
questions about did the Sandusky Police, you
know, did the Sandusky Police Department
solve his murder and protect him basically as
far as being a victim in a crime and he was
your best friend. Why didn’t you think the
Sandusky Police Department would protect
you, that you should have gone, and Queenie
Amison is related to him, is his aunt.
COURT:
Okay. Give that to me
again. Now, who did the Sandusky Police
protect, Calvin Harper (inaudible)?

240a
MS. BARYLSKI: No, the police went and
did a very thorough investigation—
COURT:

Okay.

MS. BARYLSKI: —and
people
were
convicted. They went to prison. This is a
very good friend of yours. You saw what the
police did for your good friend. Why do you
think—don’t you think the police would have
done the same thing for you? That’s what I’m
trying to get out.
MS. GROSS:

It goes to trust.

MS. BARYLSKI:

It goes to trust.

COURT:

It’s close. I’ll allow you to
Page 882

go, but not real deep into it.
MS. BARYLSKI: Okay.
know, not real deep.
COURT:

No, I don’t, you

(Inaudible).

THEREUPON, the conference ended and
the following proceedings were had within
the hearing of the jury:
Q. Carbin Ham—Carpin—Calvin
sorry, was murdered, correct?
A

Harper,

I’m

Yes, ma’ am.

Q And he was a—he was a drug dealer in the City
of Sandusky, correct?
A I don’t know everything about it being a drug
deal.
Q

Okay, you don’t.

A

I know he was murdered.

241a
Q All right, that’s fine. The Sandusky Police
Department went and investigated that case very
thoroughly, didn’t they?
A

I can’t say. I can’t speak for another officer.

Q The people who shot and killed Calvin Harper
are in prison today, aren’t they?
A

Yes.

Q

This being your best friend—
Page 883

A

No, that was my cousin.

Q

Your cousin.

A

My first cousin.

Q Even, even better, your cousin. Queenie is your
aunt and that’s Calvin’s mother; is that correct?
A

Yes, ma’am.

Q Do you know that Queenie has a lot of respect
for the Sandusky Police Department?
A

You have to ask her. I can’t speak for her.

Q

Okay. But you can speak for other people?

A

For who?

Q You could speak for other people, as you’ve been
doing?
A

Who did I speak for?
COURT:

Q

Kindra.
COURT:

A

Here we go.
You can’t ask questions.

I apologize.
COURT:

You can’t ask questions.

242a
A

I apologize.

Q You spoke for Kindra, you spoke for Calvin, you
spoke for everybody who—involved in that knifing.
A

Calvin was not in a knifing.

Q Now I’m asking you a question. Was—does
Queenie respect the Sandusky Police Department?
A

I cannot answer that, ma’am.
Page 884

Q Okay. The fact that the Sandusky Police
Department did a good job, couldn’t you respect that,
don’t you have enough respect for them to go to them
and tell them what happened to you?
A If I was killed before they were able to
apprehend Mr. Hampton, then what—how could I
explain that?
Q Go—you have two incidences here, two
incidences, correct? You were stabbed. You didn’t tell
the police.
A

No, ma’am. Out of fear, I did not.

Q Then you get into a gun, so-called gun fight with
Prince Hampton and you run.
A

Yes, I was in fear. I got—

Q

You don’t go to the police, correct?

A I really didn’t feel that I did anything wrong by
trying to save my life, ma’am. I—
Q

You didn’t go to the police, did you.

A

No, ma’am.

Q Now you’re stating that when you—number
one, you talked to Kindra at 7:00 in the morning on
June 20th; is that correct?

243a
A

Yeah, she woke me up in my sleep, ma’am.

Q Uh huh.
That she told you that Prince
Hampton was going to be bringing those kids over,
didn’t she.
A

No, she did not, ma’am.

Q She told you that he was going to be bringing
the kids
Page 885
over because she knew that you wanted to get some
revenge. You wanted to retaliate; isn’t that a fact?
A

No, ma’am, she did not say that.

Q So then you put a gun in your pocket and you go
over to the McGill residence in the morning before
Prince gets there and you wait, except Mrs. McGill
kicked you out of the house, correct?
A

No, she did not kick me out the house, ma’am.

Q

She asked you to leave, didn’t she?

A

No, ma’am.

Q

Okay. She didn’t ask you to leave. You left.

A I turned around and left because I did not want
to disrespect her in her home.
Q

So you leave and you go down by your car—

A

No.

Q

—correct?

A I do not—I didn’t even have a chance to even get
to my car, ma’am.
Q Oh, that’s right. He was running you over with
a vehicle; is that correct?

244a
A He accelerated fast up the driveway when I was
right there by the door. I jumped against the house
because I did not want him to hit me. I did not know
his intentions. I was scared.
Q

And nobody saw this happen; is that correct?
Page 886

A

Wasn’t nobody outside but me and him.

Q

And where was Mrs. McGill?

A She was in the house.
ma’am.

She wasn’t outside,

Q

So you didn’t see her outside at all, did you.

A

Not when everything took place, no, ma’am.

Q So you don’t know if she was in the house or not,
did you.
A

I knew she wasn’t outside.

Q

But you said you didn’t see her.

A When he accelerated up the driveway and I
jumped out the way, got up against the house closer so
he could not hit me, no, ma’am, she was not outside.
Q Okay. So he accelerates up the driveway, which
nobody sees and nobody hears, and then why didn’t
you walk to your car, straight to your car?
A That’s what I did try. Once the car sped a little
bit to where I can get off the house, get off the house
and start going towards my car, that is when he
hopped out with the knife and was like, yeah, nigga,
and he was coming at me, and that’s when I pulled out
the gun and that’s when I shot to stop him from coming
at me, stabbing me. He already almost killed me
already. I wasn’t gonna let him just—

245a
Q You know, the evidence
correspond with what you say.
MS. BARYLSKI:

doesn’t,

doesn’t

Do you have the—
Page 887

COURT:

The what? (Indicating.)

Q You heard the testimony in this Courtroom,
correct?
A

Yes, ma’am.

Q And if you were walking down this driveway
here—
COURT:

State’s Exhibit 1?

Q Oh, I’m sorry, State’s Exhibit 1, and the car is
parked here and he jumps out of the car and you shoot,
there’s no way the evidence points to being able to
demonstrate that you shot at Prince Hampton. You
heard the testimony of Detective Prewitt.
A Detective Prewitt, um, yes, I have heard the
testimony, but that still doesn’t—
COURT:

Approach.

MR. DEMPSEY:

Objection.

COURT:

Approach.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
COURT:
testified.

Detective Prewitt never

MS. BARYLSKI:

Oh, I’m sorry.

MR. DEMPSEY:
talking

Which (inaudible) are you

246a
Page 888
about?
MS. BARYLSKI: No, no, I meant to say
Detective Orzech.
COURT:

There you go.

MR. DEMPSEY:

Oh, okay.

COURT:

Okay.

THEREUPON, the conference ended and
the following proceedings were had within
the hearing of the jury:
Q. I’m sorry, not Detective Prewitt, Detective
Orzech. You heard the testimony of Detective Orzech
that you shooting—
A

Is it Prewitt or Orzech?

Q —coming down the driveway towards that car,
could not have happened.
A

Is it Prewitt or Orzech you are referring to?

Q

Mr. Orzech.

A Orzech. Yes, I have heard testimony from
Mr. Orzech, ma’am.
Q Mr. Prewitt did not—I’m sorry, Mr. Pruitt was
just a witness. He was not—but he told you that
there’s no way you could have shot from the front of
that car.
Page 889
A

Because I—

Q

You heard that testimony.

A

Because I did not shoot from the car.

Q

And—

247a
A

I never told you that.

Q The evidence that was collected in the area,
based on the investigation and the BCI reports,
demonstrates there was only one gun.
A

No, it does not, ma’am.

Q

Well, where’s your gun?

A I got rid of it, ma’am, because I was labeled
armed and dangerous. They said if I was to be seen or
even thought of having a gun, they were to shoot on
sight.
Q

Oh, shoot on sight?

A

That’s—and that’s the police.

Q

Yeah, okay, they shoot on sight.

A

If I, if they—

Q

Where did you get rid of your gun?

A Before I—when I left Erie to come back here, I
got rid of it because I did not want them—
Q

I didn’t ask—where did you get rid of your gun?

A Oh, well, I threw it in the water because I didn’t
want nobody else to get a hold of it and do something
stupid.
Q

Like you?

A

I did not—saving your life is stupid?
Page 890

Q

Where in the water?

A

What do—in the water. I threw—

Q

Where in the water? What water?

A It’s, it’s a whole bunch of lakes coming from Erie
to Cleveland, in the middle.

248a
Q

You said you disposed of it here.

A No, I said on my way back to Sandusky, Ohio.
You have to drive—
Q So you kept it the whole time you were in
Pennsylvania?
A I was still scared. I didn’t know if they were
looking for—if they knew where I was at, they could
come get me. I mean, I was scared.
Q You kept that gun the whole time while you
were in Pennsylvania; is that correct?
A

Uh—

Q

Is that a fair statement?

A

The whole time, no.

Q Then on the way back you said you got rid of the
gun, correct?
A Before I came back, I, I exposed of the gun, yes,
I did.
Q Okay. Would it have been a good idea to keep
that gun?
A Um, no. I mean, if the police were to see me
before I was able to get to the station to talk with them,
then if they seen the gun, they could shoot. They, they,
they said that to
Page 891
my family. They stated that to my family—
Q

Okay.

A

—and they stated it in the—

Q The thing here is, there are a lot of gun ca—
there were a lot of casings found—
A

I believe that they—

249a
Q

—in this area by the car, all right?

A

Uh huh.

Q

Then there was a bullet skip in this area.

A

That’s what—actually that’s where—

Q

Then there was the Jeep over here.

A

Yes, ma’am, that’s where he was at.

Q We have witnesses, who live in this house, who
say you were chasing Prince Hampton. You did not go
back to your car. You were chasing Prince Hampton
and this witness said never saw this guy run so fast,
meaning Prince Hampton. Do you remember that
testimony?
A

Yes, ma’am.

Q Then you have people over here, where Prince
Hampton collapsed in their yard, and people were
taking care of him. You heard that testimony.
A

Yes, ma’am. I seen it.

Q

And you heard Mr. Brown, correct?

A

Yes.

Q And you heard Mr. Brown say you came riding
by and you
Page 892
yelled to Prince Hampton, you’re a dead man, nigga.
A

Ma’am, if you read the police report—

Q

Did you hear—

A

—he changed his story.

Q

Did you hear that?

A

I heard him testify up here—

Q

He testified on the stand.

250a
COURT:
at a time.
A

Yes, but he—
COURT:

A

Wait, one at a time, one

Whoa.

But he changed his story.
COURT:
The question is, did you
hear that testimony.

A

Yes. Yes, ma’am.

Q

You heard the testimony.
COURT:

A

Okay. Next question.

Yes, ma’am.

Q Great.
You heard poor Mrs. Brunell
Hendrickson here whose home—a very innocent
person, apparently is somehow related to you; is that
correct?
A Yes, ma’am, that’s why I would never try to
cause her any harm.
Q And she testified to the same thing. She heard
you yell, you’re a dead man—
Page 893
MR. DEMPSEY:
Q

Objection, Your Honor.

—nigga.
COURT:

Basis?

MR. DEMPSEY:
testified to.

That’s

COURT:

Approach.

not

what

she

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:

251a
MR. DEMPSEY:
to that.

I don’t think she testified

MS. BARYLSKI:
notes.

Yeah, I have it in my

COURT:
Well, she’s just—she’s
gonna ask. If he says, no, that’s not what I
heard her testify to (inaudible) say no.
MR. DEMPSEY:

Okay.

COURT:

Overruled.

THEREUPON, the conference ended and
the following proceedings were had within
the hearing of the jury:
Page 894
COURT:
question.

You

can

answer

the

Q You heard Mrs. Hendrickson say the same
thing, that she heard you yell out those words, correct?
A

I don’t recall, ma’am.

Q By yelling out, you know, okay, you’re here on
State’s Exhibit 1. You come around and you’re going
to go this way and then you slow down when Prince
Hampton’s lying on the ground. That doesn’t look like
a man that’s very afraid if you’re yelling out of a
vehicle, does it.
A

Because I did not, ma’am.

Q

Oh, so Mr. Brown is lying?

A

If you read the police report—

Q Mr. Brown is lying, yes or no, when he testified
on this stand that he heard you say that?

252a
A
say.

He changed his story, that’s the only thing I can

Q

So he’s lying?

A

If you read the police report.

Q Now, there’s a casing found right in around in
this area.
A

Yes, ma’am.

Q The evidence shows, as do witnesses, that
Prince Hampton was running through this area and
around this way and you were chasing him.
A No, I did not actually chase him. I charged at
him when he was trying to turn, when he was trying
to shoot. I
Page 895
charged him to stop him from getting a good shot off
at me.
Q

Sit down, please.

A

I can’t even stand?

Q

You’re scaring me.
COURT:
Approach.

Wait

a

minute.

WHEREUPON, there was a conference
between the Court and Counsel, and out of
the hearing of the jury, which is as follows:
MS. BARYLSKI: I don’t like the way he
gets up and goes like this.
COURT:
that.

Okay, but you can’t do

MS. BARYLSKI:

I know.

253a
COURT:
You can approach and
you can ask me to have him sit down. You
can’t do that.
MS. BARYLSKI:

I know.

COURT:
being tainted.

I don’t want the jury

MR. DEMPSEY:

Yeah, I—

COURT:

Okay? I’ll take care of it.

MR. DEMPSEY:
mistrial for that.

I’d

COURT:
there.

No, there’s no mistrial

almost

ask

for

a

Page 896
Your request for mistrial is denied. I’ll give
a curative.
THEREUPON, the conference ended and
the following proceedings were had within
the hearing of the jury:
COURT:
Ladies and gentlemen of
the jury, the comment by the prosecutor is
stricken.
You’re not to consider that.
Continue, State of Ohio.
Q There is evidence by witnesses who state that
Mr. Hampton ran this way and you were running after
him and a casing was found right around in this area.
You heard the testimony; is that correct?
A

Are—in a way, yes.

Q Why would you run all the way here when your
car was over here?
A

Excuse me?

254a
Q Why would you be in this area when your car
was over here?
A As I was explaining to you, um, when he came
charging down the driveway, shooting, I shot back and
that’s when he tried to cut through the yard, but he’s
still aiming towards me, and I shot a few more times.
He got around like by the
Page 897
Jeep and that’s when he turned around—
COURT:
A

Remain seated.

Oh. I mean, it’s hard for me to—

Q I’m not talking the Jeep area here, sir.
talking down here.

I’m

A I, I didn’t actually go that far. I went, I charged
towards the Jeep to make him either have to run—I
was just trying to stop him from actually getting his
shot off to shoot me. I charged towards him and he—
Q

So you were not here?

A

In the—

Q

You were not in this area?

A I can’t say exactly if I was that far or not. I
really can’t.
Q

Well, Mrs. Brunell’s—

A I mean, it was, it was all, it was all happening
so fast. I can’t even exactly say—
Q

Mrs. Brunell’s home was shot.

A

And I apologize. I—if I did that, I don’t know.

Q

You were shootin’ a gun, weren’t you?

A Yeah, I was trying to stop him from actually
killing me.

255a
Q

You were shooting a gun, were you not?

A

Yes, ma’am.

Q And you know the consequences of shooting a
gun, don’t
Page 898
you?
A

To, yeah, to protect yourself.

Q No. The consequences of shooting a bullet at
anything is what’s going to happen.
A

I’m gonna stop him from killing me.

Q So you missed him. Where do you think that
bullet went?
A

I cannot speak for that, ma’am.

Q Well, you know that it just doesn’t drop, don’t
you?
A I didn’t even—I wasn’t even for sure if I missed
him. To my knowledge I actually had to wound him
and that’s why he actually—
Q I’m just—I’m not asking you that. If you missed
him, you know the bullet does not drop; is that correct?
A At the time, ma’am, I was not thinking like—
my, my, my, my main focus was to stop him from
actually killing me or getting his shot off to kill me.
Q

All the way down here? All the way down here?

A

Ma’am, if you scoot—

Q I’m asking you, all the way down here you’re
going to stop him when you could have gotten in your
car here?
A I could not—if I’d have turned around and tried
to run to my car, I would have got shot in the back or

256a
the back of the head, and he was not stopping. He was
not stopping.
Q Well, no.
wasn’t he.

He was running for his life now,
Page 899

A No, ma’am. At the time he was by the Jeep he
turned around and faced me. That didn’t—that’s
when I had—must have shot him in his leg.
Q Sir, I’m not talking about here.
about over here.
A

We’re not—

Q

What are you doing down here?

I’m talking

A I charged towards him to force him to run or get
shot. When he actually took off running, and I knew
he was running, that’s when I turned around and ran
back to my car.
Q

After you took a shot in this area?

A

That’s when I made him either run or get shot.

Q

Sir, he was running away from you, wasn’t he.

A

Not at first, ma’am.

Q He was running away from you when he was
down in this area, wasn’t he.
A
me.
Q

When he was behind the Jeep, no, he was facing
Sir, answer the question, please.

A I can’t, I can’t, I can’t explain to you because you
won’t let me.
Q I’m not asking you to explain it. I’m asking you,
was he running away from you when you were down
in this area?

257a
A

I’m, I’m not too for sure, ma’am.

Q

And—

A

Everything, everything was happening so fast.

I
Page 900
can’t—
Q When the witnesses say that Prince Hampton
was running for his—they never saw him run so fast,
and you were chasing him—
A

I never actually chased him.

Q

—and you took a shot—
COURT:

Listen to the question.

Q And you took a shot in this area, why did you go
this far then?
A Ma’am, like I explained to you, when he was
sidestepping, trying to still shoot, he kind of fell, and
when he—when he was reaching back to shoot, he was
around by that Jeep area. That’s when I charged him
to stop him from really getting a good shot, get his
balance and getting a good shot. I charged towards
him to either—so either I was going to shoot him or he
was going to have to move, and he chose to move, and
when I realized that he was actually moving, going
away, and he wasn’t a threat, I turned around and ran
to my car, yes, ma’am. That’s the best way I can
explain it to you.
Q You had a duty to retreat the first time you
could retreat and that should have been in this area.
A

No, ma’am, I did not.

Q Instead, three children were in this vehicle and
you’re shooting?

258a
A Ma’am, I was just trying to protect myself. I
was not
Page 901
trying—
Q

Three—

A

—to harm anybody.

Q Three children were in that vehicle and you
were shooting; is that a fair statement?
A

After everything was said and done, yes, ma’am.

Q A woman’s home was shot into while you were
in this area, a long ways from your car; is that a fair
statement?
A

I cannot say when her home was shot into.

Q

You heard her testify.

A She was in the house, that was her testimony,
that she was in the house when she heard the shots.
Q

Yeah. Her house got shot—

A

As a matter of fact—

Q

Her house got shot into, did it not?

A

Yes, ma’am.

Q

Okay.

A

That’s what, that’s what she said.

Q And if Price Hampton is running, he’s not
shooting forward, is he. Someone has to be shooting
forward and it had to be you; is that correct?
A He was not, he was not running. When, when—
like I said, when he chose to actually run, that’s when
I knew that he wasn’t a threat and that’s when I
turned around to go to my car.

259a
Page 902
Q You have all these witnesses that came in this
Courtroom and testified. You had the Browns, you
had Ms. Hendrickson, you had the individual that
lives here, and I can’t remember his name off the top
of my head, um, then you had the next door neighbor
here. All indicate you, a man in a hoodie, who had to
be you, chasing a person in a white shirt and blue
shorts. You heard the testimony; is that correct?
A

In a way you’re correct, ma’am.

Q You heard the testimony that no one saw a gun
or any type of weapon in Prince’s hands. You heard
that testimony; is that correct?
A Ma’am, they actually said that they heard shots
and then—
Q

No, I’m asking you the question.

A —that’s when they paid attention. They didn’t,
they didn’t even pay attention until they heard the
shots, that’s what—
COURT:
The question is, people
have testified they didn’t see a weapon in his
hands; is that true? Is that what they
testified to?
A

Yes, ma’am.

Q

That’s what they testified.
COURT:

Next question.

Q You heard the police officer testify, especially
Orzech, Assistant Chief Orzech, that based on the
investigation

260a
Page 903
and based on the analysis and the comparison of where
evidence was found to the BCI report, one gun was
used. You heard that testimony?
A

The BCI guy said he didn’t—

Q

Did you hear that testimony, please?

A He said he was not for sure. He said it could
have been another gun.
Q I’m not talking about the BCI person.
talking about Assistant Chief Orzech.
A

Even he—

Q

He testified that—

A

That it could have been another gun—

Q

He—

I’m

A —but he said he didn’t know. He said he didn’t
think so, that was his testimony.
COURT:
Orzech—
A

The question is, Detective

Yes.
COURT:
—did he testify to that,
not that other guy.

A Yeah, Orzech testified that he said he, he was
not for sure. It could have been, but he said he thought
that it wasn’t, that was, that was his testimony, sir.
Q One gun was used. No other gun was found in
the area. You heard that testimony?
Page 904
A Yes. I don’t know what he did. I don’t know
how he got rid of it or what.

261a
Q There was no gun on Prince Hampton when he
went to the hospital; is that a fair statement?
A

Yes, they said they did not find a gun.

Q All the casings that were found at the scene in
this area here by the McGill home and the one casing
found here all were shot from the same gun. You
heard that testimony?
A

No, ma’am.

Q

Okay.

A

They said five had similar matches—
COURT:
Your ans—you said no.
That’s fine. Go ahead. Next question.

Q The other evidence that was collected was the
spent shells here?
A

I can’t see where you’re pointing.

Q

The, the bullet that was in the McGill home?

A No, that’s, that’s Brunell home, that’s what you
said the first time.
Q Brunell home, Brunell’s home, I’m sorry. There
were some, a couple bullets found right in the McGill
area, and they were all found by and collected by
Orzech; is that correct?
A No, ma’am. He said that it was other officers
that, um, found different shell casings.
Q I’m saying collected by Orzech, meaning he
picked them
Page 905
up.
A

Not personally. He said other people.
COURT:

Next question.

262a
Q Yeah, I will. Basically what you’re saying is,
and you’re—and you’re stating that you went armed to
the McGill house; is that correct? You had a weapon
on you?
A

Yes, ma’am, I had a weapon.

Q Okay. You were not permitted to carry a
weapon; is that correct?
A

Yes, you’re correct about that.

Q

You were not permitted to have a gun?

A

Yes, ma’am.

Q What did those children in that vehicle do to
you?
A They did not do nothing, that’s—I didn’t intend
to do nothing to them either.
Q But based on your actions, those children were
trapped in that vehicle; isn’t that a fair statement?
A Based upon his actions. I just saved my life. I
didn’t—
Q You’re more worried about yourself than those
children, weren’t you.
A Ma’am, when everything took place, I panicked.
I mean, I wasn’t thinking. All I was trying to do was
stop him from getting to me, from actually—
Q Yet Mrs. McGill testifies to none of that and saw
none
Page 906
of that.
A Mrs. McGill doesn’t care for me. She, she seen
more than what she—
Q

I’m asking you, did she testify to any of that?

263a
A

No, ma’am, she didn’t testify.

Q Mrs. McGill does not like you. She said so on
the stand—
A

She said she—

Q

—that’s correct.

A

She said she hates me.

Q And she does not like Prince Hampton either,
does she.
A

Yeah, she talks—

Q

And she said that on the stand.

A

She likes him.

Q But you know something? This case is not only
about Prince Hampton; do you realize that?
A

Yes, ma’am.

Q This case is also about Brunell Hendrickson; do
you realize that?
A

Yes, ma’am.

Q

That her home was shot into?

A

Yes, ma’am.

Q And it’s about those three children in that
vehicle; is that a fair statement?
A

Yes, ma’am.
Page 907

Q The only person who has testified in any way,
shape, or form to what you’re talking about today in
front of this jury is you; is that correct?
A

Yes, ma’am. If Prince was here, I mean—

Q

There no—

264a
A —pretty sure he would have to, he would have
to acknowledge that.
Q There was nobody else that came in this
Courtroom that can confirm anything that you stated;
is that a fair statement?
A

No.

Q So that if they, if they tell, and which they did,
the witnesses testified on the stand as to what they
observed and it was different than what you are
testifying to, how do you explain that?
A Um, the best way I can explain that is that
when everything took place, um, it wasn’t a lot of
commotion with him coming up the driveway trying to
run me down, or I suspect he was trying to run me
down when I got against the house. When I fired the
shot at him and I tried to run to get to my car and he
came charging at me down the driveway and he fired,
um, and when I fired back the second time when he
was going through the drive, I mean, running through
the yard, I would say that that’s when people might
have heard the shots—
Q

Okay.

A

—when he actually, when he actually—
Page 908

Q

But, all right.

A Can I finish explaining? You asked me to
explain. Can I finish explaining?
COURT:

Let him finish. Go ahead.

A Um, and when they actually heard the shots, I
think that’s when it grabbed their attention. By the
time they came and were looking or paying attention

265a
to what was going on, they probably seen me charging
at him to get him to flee, because he was trying to turn
around and shoot, and when I charged him to make
him either run or get shot, I think that’s when people
probably really had the good focus, were at their
windows like they said. So it seemed, it probably
seemed as though I was chasing him, but I was just
trying to force him to move, to turn around and run
and get away from me.
COURT:

Next question.

Q That’s not what the witnesses testified to,
though, was it.
A

Yes, they said that they heard some shots.

Q

They—

A

Then they—

Q It’s not—what all you’re talking about is not
what the witnesses testified to; is that correct?
A

No, that’s not correct.
COURT:

Q
her

Next question.

You have Mrs. McGill outside and you heard
Page 909

testimony, correct?
A

Yes, I did.

Q

You heard Mr. Brown’s testimony, correct?

A Mr. Brown stays way around the corner. I don’t
think he actually seen the—
Q

You heard—
COURT:

Q

—Mr. Brown’s—

The question is did you—

266a
COURT:
Q

Just a second.

—testimony, correct?
COURT:
Just a second. That’s the
question. Did you hear his testimony? It’s a
yes or no answer.

A

Yes, ma’am.
COURT:

Q You heard
testimony, correct?
A

Next question.
Ms.

Hendrickson’s,

Brunell’s

Yes, ma’am.

Q You heard Jeremy Pruitt’s testimony; is that
correct?
A

Yes, ma’am.

Q You heard the officers’ testimony; is that
correct?
A

Yes, ma’am.

Q And you—there were other witnesses that
testified and no one saw Prince Hampton with a gun;
is that correct?
A

Um, I don’t—I think, I think Joyce seen, seen—
Page 910

Q

I’m just asking you is that correct.

A. She testified that she did not, correct.
Q No one saw him with a gun. No one saw Prince
Hampton with a knife, did they.
A

Yes. I did.

Q

Pardon?

A

I did.

Q

Yes, you did.

267a
A

That’s why I’m up here testifying.

Q But none of the other witnesses testified to him
running with a knife or having a knife in his hands
either, did they.
A

They didn’t see the initial—

Q And yet Mrs. McGill was outside and observed
everything that went on—
A

No.

Q —isn’t that what her testimony was? She was
looking between the door and the screen door and
watching what went on; isn’t that correct?
A

I don’t think she seen it.

Q That she was looking out the door, that she
didn’t even see and didn’t testify to anything about you
almost getting hit by a car, did she.
A Because she wasn’t right there by the door.
When I came to the house, she was like into the
kitchen area moving
Page 911
towards the living room, that’s when I was walking
behind her, because she had let me in the house. She’s
nagging, saying all type of things about my shoes and
stuff. I was not about to disrespect her. I turned and
I start going back out the door, that’s why she testified
to say she didn’t know if I was in the—and I was—if I
was in the back of the house or if I was sitting down in
the kitchen. She said she didn’t know.
Q She testified she saw you walking up the
driveway towards the vehicle when she looked out and
that’s—no words were said and Prince was just getting
out of the car when you opened fire.

268a
A

No.

Q

You heard her testimony, didn’t you?

A Prince’s—when
driveway—

Prince

pulled

into

the

COURT:
The question is, did you
hear her testimony.
Q

Did you hear her testimony, please?
COURT:

A

That’s the question.

Yes, I heard her testimony.

Q So she’s not confirming anything that you have
said; is that correct?
A

Um, yeah, she confirmed a few things I said.
COURT:

Next question.

Q When she saw Prince getting out of the vehicle
and you walking up the driveway, no words were said
between the two of
Page 912
you; is that her testimony?
A

That’s her testimony. That’s not correct.

Q Therefore, since nothing was said, Prince didn’t
start anything. You were the one that started it
because you took the first shot.
A No, ma’am. He started it when he hopped out
the car, threw the—he just hopped out the car and left
the door open and came straight at me like this with
the knife, like, like, yeah, and that’s when I, I fired. I
didn’t initiate no contact. I have never did a violent
crime in my life, that’s not—
Q

Escape is a violent crime.

A

Attempted escape, I was—

269a
Q

Attempted escape is a violent crime.

A

Attempted escape? I was—

Q

Attempted having a weapon under disability.

A A violent act, let me rephrase that, a violent act,
a violent act.
Q

No, but you are definitely a convicted felon.

A

Yes, I was convicted of drugs.

Q

Who knows the ropes; is that correct?

A

No, not really. If I, if I—

Q

Who knows the street code, correct?

A I don’t know. I’m, I’m aware that if you tell,
what can happen to you.
Page 913
Q

You’ve been to prison, correct?

A

Yes, I have been to prison.

Q

Twice?

A

Yes.

Q

You’re a tough man, correct?

A I’m not—I don’t consider myself tough. I’m a,
I’m a—
Q And the reason that Prince Hampton stabbed
you was not the reasons that you represented to this
jury. It was about another woman, wasn’t it.
A

No, ma’am.

Q And you could have gone to the police after you
were stabbed, even after you got out of the hospital,
and you didn’t do that, did you.
A

I was in fear of my life.

Q

You didn’t go to the police, did you.

270a
A No, ma’am.
Mafia is?

Do you know who Black Point

COURT:
You
cannot
questions. I’ve instructed—
Q

ask

You did not go to the police.
COURT:
Whoa,
minute, wait a minute.

whoa,

wait

a

WHEREUPON, there was a discussion at
the Bench between the Court
Page 914
and the witness as follows:
COURT:
Mr. Keahey, (inaudible)
you’re testifying on your behalf.
A

Uh huh.
COURT:
Every time you argue, the
jury picks that up. Now, listen to the
question and (inaudible). You can’t ask them
questions, okay? Now, if you want to present
your case, you’re going to hurt yourself with
the jury by the way you’re acting, okay? So
just listen to the question and answer it and
don’t ask them questions, okay? Go ahead,
sir.
THEREUPON, the discussion ended and
the following proceedings were had:

A

I apolo—I apolo—I apologize.

Q

You didn’t go to the police, did you?

A

No, ma’am.

Q You stated that he, Prince, pulled out a gun,
pulled out a knife, right?

271a
A
Q
You

Yes, ma’am.
But you were the one that pulled out the gun.
Page 915

testified to that, correct?
A

Yes, ma’am.

Q And then you started shooting because Prince
had a knife, correct?
A

Yes, ma’am.

Q Well, with a knife, you could have walked right
away, couldn’t you have.
A No. When I tried to walk away the first time,
did you—I told you what happened. I tried to run
away the first time and you see what happened.
Q But you pulled out the kni—Prince pulled out
the knife and you pulled out the gun; is that correct?
A

Yes, ma’am.

Q And when you pulled out that gun, you knew
those children were in that vehicle, didn’t you.
A Actually the only thing I was thinking about
was stopping him from killing me.
Q

Did you know the children were in the vehicle?

A

I mean, I really wasn’t thinking. I was—

Q I’m just asking you a question. Please answer
it. Did you know the children were in the vehicle?
A Um, I guess you can probably say that. I mean,
like I said, when he hopped out, the only thing I—
Q Sir, did you know the children were in the
vehicle?

272a
A

In a way, ma’am, yes.
Page 916

Q Prince pulled out a knife, you pulled out the
gun, you started shooting—
A

No, I—

Q

—and that car was shot, was it not?

A Yeah, from the pictures the car was shot,
ma’am.
Q

Pardon?

A

From the pictures, yes, the car was shot.

Q

The car was shot with three children in it.

A It was shot from—the door was wide open. If I
would have shot, it would—
Q The car was shot with three children in it; is
that correct?
A

Yes, ma’am.

Q When you pulled out the gun and Prince pulled
out the knife, Prince started running away from you;
is that correct?
A He kind of like ran to the front of the car, that’s
when—
Q

Did he start running away from you?

A

Yes, ma’am.

Q

Because you had a gun.

A

Yes.

Q In fact, do you remember Joyce McGill
screaming at you to stop shooting?
A

When I was on my way—

273a
Q
stop

Do you remember Joyce McGill yelling at you to
Page 917

shooting?
A

In a sense, when I was going to my car, yes.

Q When you’re going to your car. Why would she
say stop shooting when you’re going to your car? Why
didn’t she say stop shooting when you were shooting?
A She was just yelling. I don’t know exactly what
she was saying, but her testimony said that that’s
what she was saying, so I’ll just assume.
Q Because she yelled, stop shooting because my
grandkids are in that car, and you continued shooting,
didn’t you.
A No, ma’am. When she was saying that, I was
going to my car. He was already—
Q And you continued shooting and you were going
around the car shooting because Prince was running
away from you; isn’t that correct?
A

No, ma’am.

Q You planned this attack and it’s evidenced by
the text messages; is that correct?
A No, ma’am. It doesn’t say that nowhere in those
texts.
Q You were going to retaliate because Kindra
said, do it already.
A

Do it already? No, that’s, that’s—

Q

Do you remember that text message?

274a
A No, ma’am. I remember the text message I did,
I did say I’m gonna have to do what I have to do,
meaning protect
Page 918
myself from allowing him to do any harm to me again.
Q You so grown, but you got so many influences in
your ear. I don’t give a fuck. Anymore I ain’t with you
or that nigga and honestly I’m tired of talking about
that nigga. If you’re gonna do something, shut the
fuck up talkin’ about it, I’m out. Now, that is a text
sent to Kindra to you.
A

From her to me?
MS. BARYLSKI:
questions.

I

have

COURT:

Redirect?

MR. DEMPSEY: Just
questions, Your Honor.

a

no

few

further

follow-up

REDIRECT EXAMINATION BY MR. TIMOTHY
DEMPSEY:
Q Demetreus, there was some mention about this
judicial release and CROSSWAEHs at the beginning
of your testimony?
A

Yes, sir.

Q

Could you explain what happened with that?

A Um, actually I had received a judicial release
from Judge Tygh Tone. Under the conditions for me
to be released, I was to go to a halfway house. It’s
called CROSSWAEH. While I was at CROSSWAEH,
I had a few problems. I had went through some AA
programs and different programs and, um, it came
almost time for me to be released and something was

275a
going on with the paperwork. I was upset about it. Me
and a person had a few words. They ended up
terminating me from the halfway house and, um, I was
sent back to prison to have to finish my time.
Page 919
Q Okay. Now, when this incident happened in
June of 2011, you knew at that point you were not
allowed to have a weapon?
A Yes, but, I mean, I was in fear of my safety. I
mean, what—
Q Well, that’s what I was gonna ask you. Why did
you get a gun?
A Because I was scared. I mean, they were lookin’
for me. I knew wherever they seen me at, I mean,
anything, anything possibly can happen. I mean, I
mean, I didn’t want to die. I wasn’t ready to die.
Q And you had been stabbed by Prince a month
earlier?
A

Yes, sir.

Q Okay. Now, there was some testimony about a
street code and that’s basically don’t tattle on Prince
Hampton.
A

Yes.

Q And you got word from his people that you
shouldn’t do that or something worse is gonna happen
to you.
A

Yes, sir.

Q Okay. And the prosecutor asked, you could
have gone to Dana Newell or the Sandusky Police
Department and you didn’t go and the reason—what
was the reason for that?

276a
A Um, well, if I would have told, um, they were
gonna try to kill me, um, for tryin’ to tell on him and
sending him to prison or anything happen to him. I
tried to get Kindra to say
Page 920
something, because I felt that, you know, he wouldn’t
cause her no harm, but I felt like, um, I mean, I really
wanted to tell, but I was tryin’ to get her to do it. If I’d
of tried to tell, um, they were, they were gonna have to
try to find him first, and if, if he found me before they
found him, then I was a dead man.
Q

Okay.

A I mean, I was—so I didn’t tell. I was, I was
scared.
Q Okay, okay. You heard Detective Orzech’s
testimony and the prosecutor went through some of
the testimony of the witnesses and she said it differs,
all that testimony differs from your testimony. Were
there any other witnesses when you and Prince were
right there in the driveway?
A

No, sir, wasn’t nobody outside. It was—

Q

Yeah.

A Like I said, I just had came up out the house
and that’s when he accelerated up the driveway. I
mean, it wasn’t, it wasn’t like it was a lot of noise or a
lot of commotion going on. It was like him just fast
and up the driveway coming toward me.
Q So the only people that were there were you,
Prince, and the three kids in the car?
A

Yes, sir.

277a
Q And anybody who saw anything, it was after the
shots
Page 921
were fired; isn’t that fair to say?
A

Yes, sir.

Q Now, there was—the prosecutor asked you
about Mr. Brown’s testimony, you’re, you’re a dead
nigger, and he apparently said in his testimony that
he thought you said that.
A

Uh huh.

Q Is it your understanding that this was not how
it was portrayed in the police report?
A Um, no. Um, in the actual police report he
stated that he heard someone yell, you’re dead, nigga,
and he didn’t know if it was the victim or the person
in the car, but I would have no reason to say that to
him. Like I said, I was just defending myself, trying
to get away. He was saying that directly to me, saying
that from what just was happening, you dead, nigga.
Q Okay. And you testified earlier that that’s—
that statement was made, but it was made by Prince
directed to you.
A

Yes.

Q

It—you didn’t make that statement to Prince.

A No, I had no reason to. I was just panicking,
trying to get away. I mean—
Q So Mr. Brown is mistaken as to who said it.
He’s not mistaken as to what was said, but as to who
said it.
A

Yes.

278a
Q Okay.
about you

There was testimony and indications
Page 922

being in this area here.
A

Uh huh.

Q

And were you ever in this area over here?
COURT:
Exhibit 1?

Q

You’re referring to State’s

State’s Exhibit 1.
COURT:

Thank you.

A Um, I don’t think so. Like I said, when he was
by that Jeep—
Q

Which would be?

A —as of right there, that’s when he was turning,
trying to fire at me. Um, that’s when I charged at him
to force him to move away, to—
Q

And you, you were more here at this point?

A

No, I was a little bit—

Q

In this area?

A

No, I was a little bit up over—

Q

Over here?

A

Back up into the grass like.

Q

Right here?

A You know, like on the sidewalk area, like, yeah,
around there—
Q

Okay.

A

—a little bit.

Q And that’s just off the driveway of the McGill’s
home

279a
Page 923
in front of the Pruitt home?
A Correct, because I was like steppin’ like, like
that.
Q Okay. Did you ever shoot at Prince Hampton
that day while he was running away from you?
A No. When he, when he turned around to run,
that’s when I turned around and got to my car.
Q Okay. Now, the—there was testimony that you
heard from the BCI agent and also from Detective
Orzech.
A

Uh huh.

Q The BCI agent said it’s possible there were two
guns.
A

Yes.

Q Detective Orzech said one gun, that’s it. The
only testimony that we have is your testimony that
Prince had a gun that day.
A

Yes.

Q There was also testimony from Joyce that in the
driveway here she saw Prince in front of the car on
that, that morning.
A

Yes.

Q

Do you remember that testimony?

A

Yes.

Q

And did you see him in front of the car also?

A Yeah, because he took off running up toward the
front of the car, that’s when I turned around to try to
get to my car, but before I could even get to the
sidewalk area, that’s

280a
Page 924
when he came charging down the driveway with a gun
this time and that’s when I fired.
Q Okay. And that’s the area where his sandals
were located and the knife?
A

Correct.

Q

And there was also a bullet casing there, too?

A

Correct, from the pictures.

Q Okay. The—you were here for the testimony
from the BCI agent when he basically categorized the
nine items that he was sent into three different
categories?
A

Yes, sir.

Q There were bullets that came from the same
gun and some that might have, but he wasn’t sure, and
then two that weren’t connected to any—to that first
gun?
A

Yes, sir.

Q And you heard that testimony and that
coincides with what you said about Prince having a
gun.
A Yes, sir. If he was here today, he would have to
admit to it.
Q Okay. Now, you heard Joyce’s testimony and
then afterwards you heard Kindra’s testimony and
didn’t she testify that Joyce would lie to protect Prince
Hampton?
A Yeah, she—she likes Prince. I don’t know why
she didn’t acknowledge that when she was up here.

281a
Q Okay. And the whole time that this was going
on, your
Page 925
focus was on trying to protect yourself and to try to get
him, Prince, away from you?
A

Correct, sir.
MR. DEMPSEY:
other questions.

Okay.

Thank you.

COURT:

Recross?

No

RECROSS EXAMINATION BY MS. MARY ANN
BARYLSKI:
Q

Were you high on drugs that day?

A

No, ma’am.

Q You couldn’t even make it out at CROSSWAEH,
did you.
A

Excuse me?

Q You just said that you were terminated from
CROSSWAEH, weren’t you?
A

Yes, from a verbal dispute.

Q CROSSWAEH is a rehabilitation center for
drug, for drug problems; is that correct?
A

Yes, ma’am.

Q

And—

A

That was my charges.

Q You stated that you got into a few words with
somebody there and you were terminated?
A

Yes, ma’am.

282a
Q Okay. You’re indicating, when you were here by
the Browns in your vehicle, it was Prince who yelled
back at you; is that correct?
Page 926
A

Yelled back at me?

Q

Yes.

A

No, he yelled to me. He didn’t yell back at me.

Q

Yelled to you, okay. Yelled to you.

A

Yes, ma’am.

Q But you heard Mr. Brown testify on the stand
that you were the one doing the yelling.
A If you look at the police report, he did not say
that.
Q

Did you hear Mr. Brown testify to that?

A

Yes, I did.

Q Did you hear Brunell also testify that she heard
you say those same words? Did you hear that
testimony?
A

Yeah. Do you see where Brunell house at?

Q

Sir—

A

Way around the corner?
COURT:

Yes or no.

Q

Just answer the question, please.

A

Yes, ma’am.

Q Okay.
You have an eyewitness to what
happened that day and that eyewitness’ testimony
does not confirm anything that you’ve testified to; do
you realize that? That—
A

Whose testimony that—

283a
Q Ms. McGill. Mrs. McGill was outside.
saw—

She

A Some of her, some of her testimony actually
does. Like I said, when he—
Page 927
Q

Did she—

A

—was charging at me, I did fire at him.

Q

Did—

A

Yes, she did acknowledge that.

Q That’s not my question. She is not correspond—
her testimony does not correspond with your
testimony; is that a fair statement?
A

No, she—

Q

The witnesses, the next door neighbor—

A

The next door neighbor?

Q

—to the McGills here, where the Jeep was—

A

Uh huh.

Q —you heard his testimony. Saw a guy in a
white shirt and a guy in a hoodie. The guy in the
hoodie was chasing the guy in the white shirt.
A

His—

Q No weapon was in the hands of the guy in the
white shirt. You heard that testimony.
A

No, that is not his correct testimony.

Q You heard the testimony of the neighbor across
the street where you had parked your car.
A

Uh huh.

Q He saw you running and chasing a guy in a
white shirt. You heard that testimony.

284a
A

Yes, he assumed that I was chasing—
Page 928

Q Now, none of this is confirming anything that
you testified to here in this Courtroom to show that
you acted in self-defense; is that a fair statement?
A Um, in a way. Um, like I said, they, they, they
saw the ending part.
Q

Is any—

A

They saw the ending part.

Q Is any of that testimony showing that you acted
in self-defense? Answer the question, please.
A Yes. When they seen me firing at him to get
him away from me, they, they, they acknowledged
that.
Q I’ve asked you the question. Either say yes or
no, please, and I’ll—
A

You asked me—

Q —ask it again. Any of these people that you
heard testify, no one testified to demonstrate that you
acted in self-defense; is that—is that fairly accurate?
A

No, ma’am.

Q Again, Prince pulls a knife, you pulled the gun,
and you shot; is that correct?
A

Yes.
MS. BARYLSKI:

No further questions.

COURT:
You may step down, sir.
Thank you very much.
MR. KEAHEY:

Thank you.
***

285a

APPENDIX Q
IN THE COMMON PLEAS COURT
OF ERIE COUNTY, OHIO
FILED
COMMON PLEAS COURT
ERIE COUNTY, OHIO
2013 AUG-7 PM 2:05
LUVADA S. WILSON
CLERK OF COURTS
STATE OF OHIO,
Plaintiff,

: TRIAL COURT
: NO. 2011-CR-275

: COURT OF APPEALS
NO. E-13-009
DEMETREUS A. KEAHEY, :
TRANSCRIPT OF
Defendant.
:
JURY TRIAL
: (VOLUME IV OF V)
-vs-

–––––
TRANSCRIPT of JURY TRIAL had in the aboveentitled action on September 4, 5, 6, 7, and 10, 2012,
before the HONORABLE ROGER E. BINETTE,
Judge, Common Pleas Court of Erie County, Ohio.
–––––

286a
APPEARANCES:
Mary Ann Barylski, Esq.
Assistant Prosecuting Attorney
On Behalf of Plaintiff,
State of Ohio
Timothy H. Dempsey, Esq.
On Behalf of Defendant,
Demetreus A. Keahey
***
Page 949
the affirmative defense. It’s your request,
that, and it looks like you’ve also argued, just
now recently asked for the necessity.
MR. DEMPSEY:

Right.

COURT:
Okay. So let’s deal with,
first off, the affirmative defense of selfdefense.
MS. BARYLSKI:
necessity.

I know nothing about

COURT:

I just got it.

MR. DEMPSEY:

Well, they—

COURT:
He just, he just handed it
when he turned in the notes, but go ahead.
MR. DEMPSEY: Okay. As far as the selfdefense, I believe that the elements that are
required under that statute were testified to
by the defendant during his examination,
and so I believe that that is a proper and
necessary charge to the jury in this case. I

287a
think the elements that are stated in, in the
proposed instructions accurately reflect what
that defense is, and I would ask that that be
included.
COURT:
Thank you. Now, the
necessity request you just made during the
lunch hour and that deals with just the
weapon under disability offense?
MR. DEMPSEY:

Right.
Page 950

CORT:

Okay.

MR. DEMPSEY: Actually I, I gave these
two cases to the Court and to the State
yesterday.
COURT:

Okay.

MS. BARYLSKI:

I couldn’t understand—

COURT:

That’s true.

MS. BARYLSKI:
me.

—why he gave them to

MR. DEMPSEY: It’s the Crosby case. It’s a
Sixth District case from 2004.
COURT:
7 I think it is?

And that’s only to Count

MR. DEMPSEY:

Right. It doesn’t apply—

COURT:

Weapon under disability?

MR. DEMPSEY: Right. It wouldn’t apply
to any other counts.
COURT:

Okay.

MR. DEMPSEY:
under disability.

It’s just to the weapon

288a
COURT:
Okay.
Arguments
against both of those affirmative defenses?
MS. BARYLSKI: Number one, I did not
know—I looked at this, the Sixth District
Court of Appeals case, and I couldn’t
understand why he was giving it to me
because that wasn’t an issue. The only issue
I knew before this Court was the affirmative
Page 951
defense of self-defense, which defendant has
failed to prove, and even presented sufficient
evidence to successfully raise this offense.
He has—you have to take into
consideration,
number
one,
all
his
statements are self-serving. They heard the
statements from the victims, not the victims,
the witnesses in the State’s case.
First of all, he’s saying—first of all, the
slayer was not at fault in creating the
situation giving rise to the affray. Well, he’s
alleging that Prince Hampton pulled out a
knife, but he pulls out the gun. Well, you
don’t bring a knife to a gun fight. And then
all of a sudden some way, some how, there’s
a gun in Prince Hampton’s hands. He had
the ability, instead of chasing him, and there
is sufficient evidence to show that he chased
him based on all the witnesses’ testimony, as
well as where evidence was found, as well as
where gun casings were found, that he went
after him.
He had the duty to retreat. He failed to
retreat. His car was available. It was right

289a
at the end of the driveway. Instead of going
into the neighbor’s yard and then even going
further down
Page 952
the street where a gun casing was found,
where the bullet went into the home of
Brunell, he had a—he had a duty to retreat.
He failed to retreat. Even if defen—even if
Prince Hampton would have had a gun, he
still had a—he still had a duty to retreat, and
the testimony from the police officers was
that Prince Hampton got shot from behind.
There was no way he could have been
shooting at him and still getting shot, and
especially they went over and over on the
paper, on the money situation, where there
was money all over the ground, and
Detective Orzech says there’s no way. He
had to be shot from behind. So you have him
chasing him just based on the evidence that
was presented by the State. All you have is
his self-serving statements.
Nobody saw a gun. Only one gun and that
was in defendant’s hands. Nobody saw any
type of weapon in the hands of Prince
Hampton. Like I said, these are all selfserving statements. This does not prove
beyond, you know, sufficient evidence to go
to the jury to decide self-defense.
The other thing, too, you don’t have selfdefense against those children.
Those
children have nothing to do with him being
afraid of Prince

290a
Page 953
Hampton, and yet by the testimony of the
officers, that car was shot by defendant and
those children were in that vehicle.
Necessity to carry a gun. He could have
gone to the police. He failed to report a felony
crime. He refused to tell the police at the
hospital what, who, who did this. He gives
you this big glorified story, well, I was this
way and that way. He had a girlfriend that
didn’t even tell the police. Why? Because it’s
the code of the street. He didn’t want to be
the snitch and that’s in the text messages.
You don’t have a necessity for carrying a
gun. He’s prohibited from carrying a gun,
even under a weapon under disability, and I
believe in this case he was the only one. He
started the whole thing, because the texts
show that he wanted retribution, that was
testified to by the State’s witnesses, as well
as by Detective Wichman, that he was gonna
retaliate. He had made a telephone call at
7:00 in the morning to his girlfriend. What
was that about? He wasn’t supposed to be at
that house. Somewhere in there, and it can
be inferred, he knew that defendant was—
that Hampton was coming.
Page 954
But, more importantly, I have a woman in
a home who shot, whose house was shot into,
and I have three children in a vehicle and he
wants to walk away from all that saying, oh,
I was afraid of Prince Hampton. That doesn’t

291a
work for those offenses for sure because they
didn’t do anything.
They didn’t start
anything.
And the necessity carrying a gun and
shooting at somebody and it going into
somebody’s home, there—it just—I would
object to both of them because I don’t think
there’s sufficient evidence with regards to
self-defense, except defendant’s own selfserving statements, which have been
contradicted by the State’s witnesses.
And necessity to carry a gun, I did not
read—I didn’t really read this case because
of the fact that I didn’t know necessity was
going to be an issue. All I knew of was the,
um, this is why it’s not good to have things in
proposed jury instructions that aren’t in
writing.
COURT:

Thank you. Lori?

MS. BARYLSKI: I don’t even know what
this necessity thing says.
THEREUPON, there was a private
Page 955
discussion at the Bench between the Judge
and the Judicial Administrator, Lori
Rickenbaugh.
COURT:
All right. In looking at
the case law and the jury instructions, first
off, the cases of Robbins says that the
elements are the defendant is not at fault in
creating the situation that gives rise to the
affray, that’s element number one.

292a
Number two, the defendant had a bona
fide belief that he was in imminent danger of
death or great bodily harm and his only
means of escape was such danger was the use
of such force.
And, number three, defendant must not
have violated any duty to retreat or avoid the
danger. Defendant has a duty to retreat,
when he has the duty to retreat, if it was his
fault in creating the situation giving rise to
the incident and he did not have reasonable
grounds to believe or an honest belief that he
was in imminent danger of death or great
bodily harm or that he had reasonable means
of escape from the danger other than by use
of the deadly force.
Now, in
(inaudible)

construing

the

evidence
Page 956

the case law guides that the Court, first off,
must look at the evidence in light most
favorable to the—to the defendant
requesting it. The Court is not to judge the
credibility of the—of the evidence, if you will,
and that comes out of case law. However,
State v. Jackson, citing State v. Robbins, says
the elements are to be cumulative. The
defendant has to meet all three of them. You
just can’t meet two out of three. All three.
Also, in State v. Melchior, the evidence has
to be sufficient.
It cannot be mere
speculation or possible doubt.

293a
In looking at the facts of the case, and
these are just a few that the Court found, the
defendant, if you will, was at fault in creating
the situation based on the testimony and the
text messages that were sent. He was
supposed to go to the doctor’s, and, instead,
he came to the house. He brought a firearm
with him to the house.
The victim, one of the victims, Prince
Hampton, ran from the defendant. The
defendant chased him. The defendant had a
means of escape, his own vehicle, which was
parked across the street. He indicated, and
his testimony clashes with some of the other
testimony, the numerous
Page 957
others that have testimony, that he left by
way of Aspen Run, East Oldgate, around to
South Oldgate, and out Laurel because that
was the quickest way, when, in fact, going
Aspen on East Oldgate he would have
completely avoided Prince Hampton by going
the other direction. So it wasn’t the quickest
way out.
He drove by and testimony was he shouted
out a threat to Prince Hampton. No witness
at all placed a gun with Prince Hampton at
all. The knife, when it was found, it was
found closed and that’s significant because
the defendant actually testified everything
was happening so fast. So in event the knife,
as it was testified, was a lock blade, Prince
Hampton would have had to come out of the

294a
car, pull out the knife, unlock the blade, then
somehow have a gun in his hand, being
chased by the defendant, close the knife and
then throw the knife down. Those are just a
few of the things.
The Court doesn’t find that the
defendant—the Court finds he did create
the—he did create the fault. He was at fault
in creating the situation that gave rise to it.
Whether or not he had a bona fide belief that
he was in imminent danger of death or great
bodily harm and there was
Page 958
no other means of escape, the Court finds
there was a means of escape and also that he
did violate his duty to retreat, and he had
every opportunity to retreat.
So the Court finds that the defense of selfdefense, that instruction will not be given.
Counsel, I know you’re going to object to the
Court’s ruling, so the Court will note your
objection on the record.
MR. DEMPSEY:

Thank you.

COURT:
Now, as far as necessity
goes, that goes to the weapon under
disability offense, and the elements to prove
that, the defendant must of committed the
offense to avoid being harmed; that the harm
would have resulted, would have been great
or severe than the harm caused by the
defendant’s conduct; that defendant had
reasonably believed at the time his conduct
would be necessary and designed to avoid the

295a
immediate harm that would be caused by it;
and the defendant did not cause, bring about
the situation which would result in the harm
caused by, by that, and the harm would have
been caused, um, was immediate, imminent,
and the defendant had no alternatives to
avoid it other than committing the offense.
Page 959
A lot of the reasons I stated for the selfdefense, in addition, this offense is weapon
under disability. He could have gone to the
Court and been relieved of that disability
long before this event happened. He had
another alternative.
So the Court’s going to deny that
instruction as well and that your objection,
counsel, is noted on the record as well.
MR. DEMPSEY:

Thank you.

COURT:
Anything further from
the State at this time?
MS. BARYLSKI:

No. Thank you.

COURT:

The defense?

MR. DEMPSEY:

No, Your Honor.

COURT:
Bring the jury in. We’re
going into closing arguments.
THEREUPON, the jury entered the
Courtroom and the following proceedings
were had within the presence of the jury:
BAILIFF:

All rise.

296a
COURT:
You may be seated.
Thank you for being patient with us. We
were able to take care
***

